<html>
<title> - CAUGHT BY SURPRISE: CAUSES AND CONSEQUENCES OF THE HELIUM-3 SUPPLY CRISIS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




                     CAUGHT BY SURPRISE: CAUSES AND
               CONSEQUENCES OF THE HELIUM-3 SUPPLY CRISIS

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON INVESTIGATIONS AND
                               OVERSIGHT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               ----------                              

                             APRIL 22, 2010

                               ----------                              

                           Serial No. 111-92

                               ----------                              

     Printed for the use of the Committee on Science and Technology

  CAUGHT BY SURPRISE: CAUSES AND CONSEQUENCES OF THE HELIUM-3 SUPPLY 
          CRISISthe following is for the title page (inside)



 
                     CAUGHT BY SURPRISE: CAUSES AND
               CONSEQUENCES OF THE HELIUM-3 SUPPLY CRISIS

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON INVESTIGATIONS AND
                               OVERSIGHT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 22, 2010

                               __________

                           Serial No. 111-92

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
57-170                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4720372807243234332f222b376924282a69">[email&#160;protected]</a>  


                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        MICHAEL T. MCCAUL, Texas
JIM MATHESON, Utah                   MARIO DIAZ-BALART, Florida
LINCOLN DAVIS, Tennessee             BRIAN P. BILBRAY, California
BEN CHANDLER, Kentucky               ADRIAN SMITH, Nebraska
RUSS CARNAHAN, Missouri              PAUL C. BROUN, Georgia
BARON P. HILL, Indiana               PETE OLSON, Texas
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
JOHN GARAMENDI, California
VACANCY
                                 ------                                

              Subcommittee on Investigations and Oversight

               HON. BRAD MILLER, North Carolina, Chairman
STEVEN R. ROTHMAN, New Jersey        PAUL C. BROUN, Georgia
LINCOLN DAVIS, Tennessee             BRIAN P. BILBRAY, California
CHARLES A. WILSON, Ohio              VACANCY
KATHY DAHLKEMPER, Pennsylvania         
ALAN GRAYSON, Florida                    
BART GORDON, Tennessee               RALPH M. HALL, Texas
                DAN PEARSON Subcommittee Staff Director
                  EDITH HOLLEMAN Subcommittee Counsel
            JAMES PAUL Democratic Professional Staff Member
       DOUGLAS S. PASTERNAK Democratic Professional Staff Member
           KEN JACOBSON Democratic Professional Staff Member
            TOM HAMMOND Republican Professional Staff Member


                            C O N T E N T S

                             April 22, 2010

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brad Miller, Chairman, Subcommittee 
  on Investigations and Oversight, Committee on Science and 
  Technology, U.S. House of Representatives......................     6
    Written Statement............................................     8

Statement by Representative Paul C. Broun, Ranking Minority 
  Member, Subcommittee on Investigations and Oversight, Committee 
  on Science and Technology, U.S. House of Representatives.......    17
    Written Statement............................................    18

                                Panel I:

Dr. William Hagan, Acting Director, Domestic Nuclear Detection 
  Office, Department of Homeland Security
    Oral Statement...............................................    20
    Written Statement............................................    21
    Biography....................................................    24

Dr. William Brinkman, Director of the Office of Science, 
  Department of Energy
    Oral Statement...............................................    24
    Written Statement............................................    25
    Biography....................................................    31

                               Panel II:

Mr. Tom Anderson, Product Manager, Reuter-Stokes Radiation 
  Measurement Solutions, GE Energy
    Oral Statement...............................................    42
    Written Statement............................................    43
    Biography....................................................    47

Mr. Richard Arsenault, Director, Health, Safety, Security and 
  Environment, ThruBit LLC
    Oral Statement...............................................    47
    Written Statement............................................    49
    Biography....................................................    51

Dr. William Halperin, John Evans Professor of Physics, 
  Northwestern University
    Oral Statement...............................................    51
    Written Statement............................................    53
    Biography....................................................    57

Dr. Jason Woods, Assistant Professor, Washington University
    Oral Statement...............................................    58
    Written Statement............................................    60
    Biography....................................................    75

             Appendix 1: Answers to Post-Hearing Questions

Dr. William Hagan, Acting Director, Domestic Nuclear Detection 
  Office, Department of Homeland Security........................    84

Dr. William Brinkman, Director of the Office of Science, 
  Department of Energy...........................................    90

Mr. Tom Anderson, Product Manager, Reuter-Stokes Radiation 
  Measurement Solutions, GE Energy...............................    96

Mr. Richard Arsenault, Director, Health, Safety, Security and 
  Environment, ThruBit LLC.......................................    99

Dr. William Halperin, John Evans Professor of Physics, 
  Northwestern University........................................   102

             Appendix 2: Additional Material for the Record

Corrections to Statements by Dr. William Brinkman and Mr. Richard 
  Arsenault......................................................   106

A Staff Report by the Majority Staff of the Subcommittee on 
  Investigations and Oversight of the House Committee on Science 
  and Technology to Subcommittee Chairman Brad Miller............   107

Documents for the Record Obtained by the Investigations and 
  Oversight Subcommittee Prior to the April 22, 2010, Helium-3 
  Hearing........................................................   131

Documents for the Record Obtained by the Investigations and 
  Oversight Subcommittee After the April 22, 2010, Helium-3 
  Hearing........................................................   243


  CAUGHT BY SURPRISE: CAUSES AND CONSEQUENCES OF THE HELIUM-3 SUPPLY 
                                 CRISIS

                              ----------                              


                        THURSDAY, APRIL 22, 2010

                  House of Representatives,
      Subcommittee on Investigations and Oversight,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brad 
Miller [Chairman of the Subcommittee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

              SUBCOMMITTEE ON INVESTIGATIONS AND OVERSIGHT

                     U.S. HOUSE OF REPRESENTATIVES

                          Caught by Surprise:

                       Causes and Consequences of

                       the Helium-3 Supply Crisis

                        thursday, april 22, 2010
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    The Subcommittee on Investigations and Oversight meets on April 22, 
2010, to examine the causes and consequences of the Helium-3 supply 
crisis. Helium-3 (He-3) is a rare, non-radioactive gas that has been 
produced in both the United States and Russia as a by-product of 
nuclear weapons development. Tritium, which helps boost the yield of 
nuclear weapons, decays into Helium-3 gas after approximately 12 1/2 
years. The gas was produced as a consequence of tritium production by 
the defense programs of the Department of Energy (DOE). As a valuable 
commodity, it was packaged, managed and sold through DOE's Isotope 
Program in the Office of Nuclear Energy (though the Isotope program was 
moved to the Office of Science in a reorganization during FY2009).

Background

    Helium-3 has wide-ranging applications as a neutron detector for 
nuclear safeguards, nonproliferation and homeland security purposes 
because it is able to detect neutron-emitting radioactive isotopes, 
such as plutonium, a key ingredient in certain types of nuclear 
weapons. Currently, almost 80 percent of its use is for safeguards and 
security purposes worldwide. It is also broadly used in cryogenics, 
including low-temperature physics; quantum computing; neutron 
scattering facilities; oil and gas exploration; lasers; gyroscopes; and 
medical lung imaging research.
    During the Cold War, the U.S. had a steady supply of He-3 gas 
resulting from weapons production, but tritium production was halted in 
1988. In the wake of the 9/11 terrorist attacks, however, the desire 
for radiation portal monitors and other nuclear detection equipment 
exploded. The Department of Homeland Security, for example, initiated a 
program to install more than 1,400 radiation portal monitors at ports 
and border crossings and also to supply smaller detectors to state and 
local governments. This enormous new demand came just as the available 
supply of Helium-3 was diminishing because of a reduction in nuclear 
weapons production. By early 2009, the total demand for helium was over 
213,000 liters, and the supply was 45,000 liters.
    The Department of Energy is the sole U.S. supplier of He-3 as part 
of its management of the nuclear weapons stockpile. They are also a key 
consumer of the gas because of their nuclear weapons detection program 
(the DOE Megaports and Second Line of Defense programs distribute PVT 
radiation portal monitors and other smaller detectors to nations around 
the world) and because of their support for spallation neutron sources. 
As the key supplier of He-3, as well as a consumer of the gas and a 
partner with agencies such as DHS and DOD in nuclear security, DOE was 
in a position to see the disconnect between an expanding demand and a 
declining supply. However, DOE failed to see the problem until the He-3 
stockpile was nearly expended. This guaranteed that the He-3 shortage 
would become a crisis, rather than a smoothly managed transition to 
conserving and allocating supply to the highest use and obtaining 
alternative technologies.
    It wasn't until late in 2008 that the Helium-3 supply shortage 
began to be identified as an issue by DOE when DNDO suppliers of He3 
and other non-safeguards users could not obtain enough He-3 for their 
work. The last major allocation of He-3 had occurred in 2008 when DOE 
set aside 35,000 liters for the Spallation Neutron Source, an advanced 
neutron science research center at DOE's Oak Ridge National Laboratory 
in Tennessee which the Department spent over $1 billion to construct.
    By January of 2009, an inter-agency phone conference between DNDO 
and DOE occurred in which DOE established restrictions on the use of 
He-3. DNDO agreed to develop priorities for He-3 use and initiate a 
working group on the issue; DOE said it would start investigating 
alternatives. In the wake of that meeting, an interagency task force 
developed with participation by DNDO, DOE and the Department of 
Defense. That task force first met in March 2009. In the discussion 
that ensued, total annual government and non-governmental demand for 
FY2009 was projected as in excess of 213,000 liters. The total 
available stockpile was, at that time, just 45,000 liters. Out years 
show similar levels of demand while annual production was projected at 
8,000 liters. As an appreciation of the scope of the problem developed 
among the key participants, other agencies were invited to participate. 
Work quickly began on allocation of He-3 for FY 09 and 10, research on 
alternatives and investigation of possible sources of additional He-3, 
such as obtaining tritium from Candu reactors in Canada, Argentina and 
other countries to harvest He-3 and recycling and re-use of existing 
He-3. The entire process was ``elevated'' to the National Security 
Council when the DOD staffer heading up their He-3 effort was detailed 
to the NSC.
    This process continued under the new Interagency Policy Committee 
(IPC), chaired by staff at the NSC. The Subcommittee has been told that 
allocation decisions for 2010 have been completed; the gas is now being 
processed and will soon be provided to those who have been approved to 
receive it.

Impact of the Shortage

    The domestic and global impact has been profound. The per-liter He-
3 have skyrocketed from $200 to in excess of $2,000 per liter. (The 
Subcommittee has been told of one sale of Russian He-3 to a German firm 
at a price of $5,700 a liter.) The U.S. has essentially halted all 
exports of Helium-3 gas, and recently told the International Atomic 
Energy Agency (IAEA) that they will no longer be able to rely solely on 
the U.S. to provide them with He-3 gas for use in non-proliferation 
enforcement and verification actions. The Canadian government had to 
receive special permission from the U.S. prior to the Vancouver 
Olympics to permit the export of a He-3 mobile neutron detector for use 
at the Olympic Games.
    For neutron scattering facilities that require tremendous amounts 
of Helium-3 gas, the situation is very grim. At least 15 of these 
multi-billion dollar research facilities are being or have been built 
in at least eight countries, including the U.S., United Kingdom, 
France, Germany, Switzerland, Japan, South Korea and China. By 2015, 
these facilities will require over 100,000 liters of He-3 gas, 
according to estimates provided to the Subcommittee. Most of those 
needs are unlikely to be met. There have been several international 
meetings of scientists discussing possible alternatives to He-3 for 
spallation neutron detection, but the research is in the very early 
stages.
    Within the U.S. government, no program appears to have been more 
significantly affected than the Domestic Nuclear Detection Office's 
(DNDO's) Advanced Spectroscopic Portal (ASP) radiation monitor program, 
which relies on He-3 as its neutron detection source. The scale and 
scope of the Helium-3 crisis, however, and its impact on the ASP 
program in particular was not clearly known outside the government 
until the Investigations & Oversight Subcommittee held its second 
hearing on the ASP program on November 17, 2009. During that hearing, 
Dr. William Hagan, acting director of DNDO, testified that the 
Interagency Policy Committee had decided in September 2009 that He-3 
would not be used radiation portal monitors. This was the first time 
the Subcommittee and the public were informed of the extent of the 
Helium-3 crisis. Surprisingly, even Raytheon, DNDO's prime contractor 
on the ASP program, did not become aware that a decision had been made 
to halt the supply of Helium-3 gas for their radiation portal monitors 
until they heard Dr. Hagan's testimony.

Summary

    The shortage of He-3 was an inevitable consequence of a declining 
source from the U.S. nuclear weapons enterprise and a growing demand. 
However, the crisis and its jarring impacts were avoidable. With 
foresight on the part of DOE, the kinds of prioritization efforts now 
happening through the IPC could have started years ago. Research into 
alternatives to He-3 could have been well along to success, with some 
areas (such as portal monitor systems) lending themselves to 
alternatives more readily than others (cryogenics). In short, the 
stockpile could have been managed in a way that allowed for non-
disruptive impacts to industry, researchers and the national security 
community. Instead, everyone is surprised and scrambling to identify 
alternatives, suspending their research and their production lines 
while hoping that a breakthrough in sources of He-3 or alternatives to 
He-3 happens very, very rapidly. The failure to manage the stockpile 
with an eye to demand, supply and future needs has had real 
consequences for many, many fields. Once the shortage became clear to 
all the key agencies, an interagency process that has laid out a 
rational guide to allocation and policies has emerged very quickly and 
appears to be well managed.

Witnesses

Panel I

Dr. William Hagan, Acting Director, Domestic Nuclear Detection Office 
(DNDO), Department of Homeland Security (DHS)

Dr. William Brinkman, Director of the Office of Science, Department of 
Energy (DOE)
(Dr. Brinkman will be accompanied by Dr. Steven Aoki, Deputy 
Undersecretary of Energy for Counterterrorism and a Member of the White 
House He-3 Interagency Policy Committee (IPC) Steering Committee.)

Panel II

Mr. Tom Anderson, Product Manager, Reuter-Stokes Radiation Measurement 
Solutions, GE Energy

Mr. Richard L. Arsenault, Director of Health, Safety, Security and 
Environment, ThruBit LLC

Dr. William Halperin, John Evans Professor of Physics, Department of 
Physics, Northwestern University

Dr. Jason C. Woods, Assistant Professor, Radiology, Mallinckrodt 
Institute of Radiology, Biomedical MR Laboratory, Washington University 
in St. Louis and Program Director, Hyperpolarized Media MR Study Group, 
International Society for Magnetic Resonance in Medicine (ISMRM)
    Chairman Miller. Good morning. This hearing will now come 
to order.
    Welcome to today's hearing called ``Caught by Surprise: 
Causes and Consequences of the Helium-3 Supply Crisis.''
    Five months ago, this Committee held a hearing that 
examined technical problems in the development of the Domestic 
Nuclear Detection Office's (DNDO's) new generation of radiation 
portal monitors called Advanced Spectroscopic Portals, or 
mercifully, ASPs. Among the issues that the Subcommittee had 
expressed an interest in or we had heard about as a potential 
problem was the effect of a reported shortage of helium-3 and 
whether that was affecting the ASP program, or might affect it, 
and at that hearing, Dr. Bill Hagan, the Acting Director of 
DNDO, who is with us again, testified that because of the 
shortage of helium-3, that the White House two months earlier 
had had barred DNDO from using helium-3 in radiation portal 
monitors. We would have liked to have known that before the 
hearing but we found out about it in the testimony at the 
hearing, not the prepared testimony submitted in advance but 
actually in the oral testimony at the hearing. It was a 
surprise to us. Also, the principal contractor, Raytheon, had a 
witness here who also was wondering about it in the oral 
testimony at the hearing.
    We have since learned that both the Department of Energy 
and the Department of Homeland Security should have known 
several years ago that it would be a disaster to rely on 
radiation-based equipment that used helium-3 technology. 
Helium-3 is a byproduct of tritium, and tritium's only purpose 
is to enhance the capability of nuclear weapons. Until 
recently, no tritium had been produced in this country since 
1988, and the reduction in our stockpile of nuclear weapons 
guaranteed a reduction in the stockpile of tritium and 
therefore helium-3.
    At the same time, or after 9/11, the demand for helium-3 
grew exponentially because of the use in radiation detection 
devices. DOE not only produces and sells helium-3, but is one 
of its largest consumers through the Megaports and Second Line 
of Defense programs and the Spallation Neutron Source at Oak 
Ridge. DOE never warned anyone that there was no long-term 
supply for all of these uses and everyone who used or counted 
on helium-3 should begin to make other plans, look for 
alternatives. In 2006, there was only 150,000 liters left in 
the stockpile and DOE told Homeland Security that there was 
enough for 120,000 liters then estimated for the first phase of 
the ASP program. The result was that in mid-2008 when 
commercial vendors began to warn of a helium-3 shortage, DHS 
didn't appear to take it seriously. It took several more months 
before there was a government-wide acknowledgement of the 
severity of the problem.
    The effects of the helium-3 shortage are real and painful 
and not just for radiation detection. Helium-3 also plays a 
crucial role in oil and gas exploration and in cryogenics 
including low-temperature physics, quantum computing, neutron 
scattering facilities and medical lung imaging research. 
Important science is on hold in a wide range of fields and 
commercial opportunities for American firms have been lost. 
Over the past year the cost of obtaining helium-3 has risen 
from around $200 per liter to more than $2,000 per liter.
    For many applications there are potential alternatives for 
some work, particularly the cryogenics. There is no known 
alternative for helium-3, so today we will examine the causes 
and the consequences of the helium-3 supply crisis with an eye 
to learn lessons to guide future resource management. We also 
want to hear about what we are now doing to manage the limited 
supply of helium-3, to set priorities for access to that 
stockpile and the search for alternative sources and 
alternative gases. I understand the allocations for 2010 have 
been determined, the gas is being processed and it will soon be 
distributed.
    Looking back, it is clear that the shortage was inevitable. 
If DOE had noticed the disconnect between supply and demand, 
they could have managed the stockpile with clear priorities 
that would have allocated it to the most important, most 
essential uses and led to an aggressive and timely search for 
alternatives. That might have helped avoid the crisis or 
mitigated the crisis.
    Why did DOE not see this coming? And also, why did DNDO not 
validate, ascertain that there was enough helium-3 for the ASP 
program? A cautious and reasonable analysis should have sought 
a complete accounting from DOE before wagering years of effort 
of research and hundreds of millions of dollars into a 
technology that depended upon a gas that would not be 
available.
    The current efforts of DNDO, DOE and DOD and other agencies 
working with the National Security Council staff do appear to 
be very well organized. Although there are many failures to get 
to this point, it does appear that all the relevant agencies 
are doing well now. They are identifying alternatives. They are 
trying to identify other sources, international sources of 
helium-3, and it really is a model, as I understand it, for 
interagency crisis management but the best crisis management is 
not to have a crisis, and I hope that DOE has learned and other 
agencies will learn from this and lead to wiser management of 
the unique isotopes they control and distribute.
    Finally, obviously we were mildly annoyed to learn that the 
technology that we had been investigating for some time was not 
going to be used, to learn that in oral testimony. We are also 
at least mildly annoyed that we had not gotten the documents 
that we have asked for. The agencies appear to be going through 
some extraordinary courtesies to each other of letting 
everybody review everybody's else's documents and there is no 
legal basis for that, and it may be a courtesy by each agency 
to the other but it is discourteous to us and makes it very 
difficult for us to do our job. We are not as well prepared 
today for this hearing as we would like to be and should have 
been had the documents that we requested in a timely way been 
provided in a timely way, and I certainly took the last 
Administration to task for their failures in that area and I 
intend to take this Administration to task as well.
    We are leaving--in consultation with Dr. Broun, we are 
leaving the record of this hearing open today to add additional 
documents that we receive, tardy production of documents, and 
it is very possible that there are questions that we should 
have asked had we had those documents that there will be 
another hearing. I know it is not convenient for us either.
    [The prepared statement of Chairman Miller follows:]

               Prepared Statement of Chairman Brad Miller

    Five months ago, the Subcommittee held a hearing titled: The 
Science of Security: Lessons Learned in Developing, Testing and 
Operating Advanced Radiation Monitors. That hearing examined technical 
problems in the development of the Domestic Nuclear Detection Office's 
(DNDO's) new generation of radiation portal monitors called Advanced 
Spectroscopic Portals or ASPs. Among the issues the Subcommittee had 
expressed an interest in was the impact a reported shortage of Helium-3 
was having on the ASP program.
    At that hearing, Dr. Bill Hagan, the Acting Director of DNDO, (who 
joins us again today) testified that the shortage of Helium-3 was so 
severe that two months earlier a White House Interagency Policy 
Committee (IPC) had barred DNDO from using Helium-3 in radiation portal 
monitors. Since the Department had not informed the Subcommittee of 
this situation, and the written testimony submitted to the Subcommittee 
also failed to make reference to the decision, we were surprised by the 
testimony. We were not the only ones to be surprised, among others 
taken by surprise was DNDO's the main ASP contractor, Raytheon.
    What we have learned since is that both the Department of Energy 
and the Department of Homeland Security should have known several years 
ago that it would be a disaster to base radiation-detecting equipment 
on helium-3 technology. Helium-3 is a byproduct of tritium, and 
tritium's only purpose is to enhance the capability of nuclear weapons. 
Until recently, no tritium had been produced in this country since 
1988, and the reduction in the nation's stockpile of nuclear weapons 
guaranteed a reduction in the stockpile of tritium--and helium-3.
    After 9/11--at the same time the supply was significantly 
decreasing--the demand for helium-3 grew exponentially for use in 
radiation detection devices. It was also expanding for spallation 
neutron facilities worldwide, cyrogenic and medical research, and oil 
and gas exploration. The Department of Energy, which not only produces 
and sells helium-3, but is one of its largest consumers through the 
Megaports and Second Line of Defense programs and the Spallation 
Neutron Source at Oak Ridge, never--not once--warned anyone that there 
was no long-term supply for all of these uses, and they should begin 
looking for alternatives. In fact, in 2006, when there was only 150,000 
liters left in the stockpile and many other users lined up, DOE told 
the Department of Homeland Security that there was enough for the 
120,000 liters then estimated for the first phase of the ASP program. 
The result was that in mid-2008 when commercial vendors began to warn 
of a He-3 shortage, DHS didn't appear to have taken them seriously. It 
took several more months before there was government-wide 
acknowledgement of the severity of the problem.
    The impacts of the helium-3 shortage are real and painful and 
extend well beyond Megaports, the Second Line of Defense and the ASP 
programs. Because of its unique physical properties, helium-3 plays a 
crucial role in oil and gas exploration, cryogenics (including low-
temperature physics), quantum computing, neutron scattering facilities 
and medical lung imaging research. Important science is on hold in a 
wide range of fields and commercial opportunities for American firms 
that sell products using helium-3 have been lost. Over the past year 
the cost of obtaining Helium-3 has risen from around $200 per liter to 
more than $2,000 per liter.
    The ongoing crisis has drastically delayed the ability of 
researchers and others to obtain helium-3 and prevented many firms and 
researchers from acquiring helium-3 at all, at any price. For many 
applications there are potential He-3 alternatives including boron-10 
and lithium. For some work, particularly cryogenics-related 
applications, however, there are no known alternatives to using Helium-
3 and these industries will need to continue to be supplied with He-3 
if these industries and their scientific research programs are to 
continue.
    Today, we will examine the causes and consequences of the Helium-3 
supply crisis with a desire to learn lessons to guide future resource 
management. We also want to hear about the processes that are now in 
place to manage the limited supply of helium-3, to set priorities for 
access to that stockpile and the search for alternative sources and 
alternative gases. It is my understanding that allocations for 2010 
have been determined, the gas is being processed and it will soon be 
distributed.
    Looking back, it is clear that the shortage was inevitable. Helium-
3 has been captured by the Department of Energy from the decay of 
tritium. With the end of the Cold War and the arms reduction agreements 
going back all the way to the Reagan Administration, the stockpile of 
tritium was not growing and so the production of Helium-3 would 
inevitably decline. Since 1991, DOE has allocated over 300,000 liters 
of helium-3, drawing the reserve down to a very low level by 2009. The 
annual production of Helium-3 from the U.S. tritium stockpile is now in 
the range of 8,000 liters per year and demand is orders of magnitude 
higher.
    At the same time that production was declining, the demand for 
Helium-3 has been increasing since 9-11. Helium-3 has been a critical 
component in the portal radiation monitor programs at DHS and 
approximately 60,000 liters have been used in the current PVT systems 
alone. The ASP systems that Raytheon designed would have required, if a 
full acquisition had gone forward, approximately 200,000 liters of 
helium-3. The Department of Energy has its own radiation detection 
program in mega-ports with additional liters of helium-3 used in that 
program. Handheld and backpack radiation detection systems at DHS, DOE 
and also DOD are another ongoing source of expanded demand since 9-11.
    In addition to this new security-related source of demand, the 
Spallation Neutron Source project, also a DOE program was moving 
towards conclusion, with its main detector requiring an additional 
17,000 liters. With countries around the world all pushing to get into 
SNS-style research, the global demand in coming years for Helium-3 from 
these detectors alone is expected to exceed 100,000 liters.
    Since the shortage was inevitable, does it matter that DOE failed 
to see that their stockpile was evaporating? Yes, it absolutely does 
matter. If DOE had noticed the disconnect between growing demand and 
declining supply, they could have managed the stockpile with clear 
prioritization for highest use, and led an aggressive and timely search 
for alternatives to helium-3. These actions would have helped us avoid 
this crisis. It is astonishing that DOE did not see this coming.
    It also astonishes me that DNDO did not validate that sufficient 
resources of helium-3 were available for the ASP program. A cautious 
and reasonable analyst would have sought a complete accounting from DOE 
before wagering years of effort and hundreds of millions of dollars.
    Good crisis management is an inspiring thing to see in the 
government and I have to say that the current efforts of DNDO, DOE, DOD 
and other agencies under the orchestration of the National Security 
Council staff appears to be very well organized. They have set out to 
do a thorough survey of demand and have attempted to identify all 
outlying sources of supply. They are identifying alternative gases and 
locating international opportunities to temporarily expand the supply 
of Helium-3. All of this is laudatory, and can serve as a nice model 
for future interagency management of crises, but even better is to 
avoid a situation requiring crisis management in the first place. I 
hope that DOE has learned a lesson with Helium-3 that will lead to 
wiser management of the unique isotopes they control and distribute.
    The final lesson I hope the agencies and the White House learn is 
that when a Subcommittee asks for your documents, you have to produce 
them or explain why you cannot. The Subcommittee wrote to both the 
Department of Energy and the Department of Homeland Security on March 8 
requesting materials by March 29. Neither agency responded in a timely 
fashion. Neither agency has produced all of their materials, nor 
offered anything approaching a comprehensible explanation of the 
situation. Allegedly, some small set of documents were originally 
produced by White House staff and distributed to the agencies, and I 
have been surprised at the difficulty of getting the White House and 
the agencies to simply do the reviews that the precedents of 
legislative-executive relations suggest should properly occur for these 
documents, which do not appear to rise to the level of an executive 
privilege claim. I am hopeful that we will break this impasse soon.
    The implications of the situation are that the Subcommittee is not 
as prepared for this hearing as we should properly be. The agencies 
have gone through elaborate fictional inter-agency courtesies allowing 
for duplicative, time-consuming reviews. There is no legal basis for 
these reviews. This has not only wasted time but is discourteous to the 
Committee. As a result, it is my intention to leave the hearing record 
open and, in consultation with my Ranking Member, Dr. Broun, to include 
in the record relevant materials that are responsive to my original 
letter. I will not rule out a second hearing on this subject if the 
documentary record contradicts testimony we receive today nor would I 
rule out taking any other steps necessary to compel production of 
agency records. I hope it won't come to that, but I had enough of 
stonewalling and slow rolls by the last Administration to have much 
patience with it from this Administration.

    Chairman Miller. I am attaching for the record two letters 
sent to the Subcommittee on the subject. One is from an oil and 
gas industry representative and one is from a researcher at the 
Lawrence Livermore National Lab.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Miller. The Chair now recognizes our Ranking 
Member from Georgia, Dr. Broun, for his opening statement.
    Mr. Broun. Thank you, Mr. Chairman.
    Let me welcome our witnesses here today and thank you all 
for attending. I wish I could say that I was glad that we are 
holding this hearing, but unfortunately, I am not.
    During a hearing last fall, as the Chairman has already 
mentioned, the hearing was on the Domestic Nuclear Detection 
Office's ASP program, Advanced Spectroscopic Portal program. 
This Subcommittee was notified of the state of the Nation's 
helium-3 supply and the shortfall's effects on our national 
security, particularly in nuclear detection. This by itself was 
a troubling revelation, but the impact of insufficient helium-3 
supplies is not limited to the national security sector. 
Medical treatments, oil and gas exploration, cryogenics and 
other research endeavors have all come to depend upon helium-3 
because of its historical abundance as a byproduct of our 
nuclear weapons program.
    For years helium-3 was a cheap and plentiful resource that 
was ideal for many applications because of its intrinsic 
properties. Until only recently the United States was 
continually building up its stockpile but a number of issues 
combined to change that trend. The breakdown of our Nation's 
nuclear weapon stockpile after the Cold War, the increased 
priority on domestic nuclear detection brought about by 
September 11, 2001, the demand created by neutron scattering 
facilities and Russia's decision to cease exports all combined 
to create the perfect storm for helium-3. DHS, DOE, DOD 
initiated processes to limit demand, ration existing supplies 
and find alternatives but these actions were after the fact. As 
this Committee has seen before with rare earth elements, 
medical isotopes and plutonium-238, mitigation efforts were 
taken after the crisis has already emerged.
    In the future, the Federal Government needs to do a better 
job of projecting both the demand for isotopes in its control 
and its own needs of those isotopes and elements that are not. 
This becomes even more important with the President's recent 
nuclear arms reduction pact with Russia.
    I look forward to working with the Chairman to ensure that 
the Federal Government does a better job of predicting and 
mitigating these supply shortages. I congratulate the Chairman 
on his efforts to help do just that.
    To this end, I hope that the agencies assist this Committee 
in meeting its oversight responsibilities in a more cooperative 
fashion. To date, the documents provided to this Committee in 
response to the Chairman's request contained unexplained 
redactions. It is also my understanding that not all documents 
have been provided. In order for this Committee to do its work, 
the agencies and the Administration need to either provide the 
documents requested or claim a legally recognized privilege so 
that we can move forward. I hope we will see some radical 
changes on that issue.
    Thank you, Mr. Chairman, and I yield back the balance of my 
time.
    [The prepared statement of Mr. Broun follows:]

           Prepared Statement of Representative Paul C. Broun

    Let me welcome our witnesses here today and thank them for 
appearing. I wish I could say that I was glad we were holding this 
hearing, but unfortunately I'm not.
    During a hearing last fall on the Domestic Nuclear Detection 
Office's (DNDO's) Advance Spectroscopic Portal Program (ASP), this 
subcommittee was notified of the state of the Nation's helium-3 supply 
and the shortfall's effect on national security--particularly nuclear 
detection. This by itself was a troubling revelation, but the impact of 
insufficient helium-3 supplies is not limited to the national security 
sector. Medical treatments, oil and gas exploration, cryogenics, and 
other research endeavors have all come to depend on helium-3 because of 
its historical abundance as a byproduct of our nuclear weapons program.
    For years, helium-3 was a cheap and plentiful resource that was 
ideal for many applications because of its intrinsic properties. Until 
only recently, the U.S. was continually building up its stockpile, but 
a number of issues combined to change that trend. The drawdown of our 
nation's nuclear weapons stockpile after the cold war; the increased 
priority on domestic nuclear detection brought about by September 11th, 
2001; the demand created by neutron scattering facilities; and Russia's 
decision to cease exports all combined to create the perfect storm for 
helium-3.
    DHS, DOE, and DOD initiated processes to limit demand, ration 
existing supplies, and find alternatives, but these actions were after 
the fact. As this committee has seen before with rare earth elements, 
medical isotopes, and plutonium-238, mitigation efforts are taken after 
the crisis has already emerged. In the future, the federal government 
needs to do a better job of projecting both the demand for isotopes in 
its control, and its own needs of those isotopes and elements that are 
not. This becomes even more important with the President's recent 
nuclear arms reduction pact with Russia.
    I look forward to working with the Chairman to ensure that the 
federal government does a better job of predicting and mitigating these 
supply shortages. To this end, I hope that the agencies assist this 
committee in meeting its oversight responsibilities in a more 
cooperative fashion. To date, the documents provided to the committee 
in response to the Chairman's requests contain unexplained redactions. 
It is also my understanding that not all documents have been provided. 
In order for this committee to do its work, the agencies and the 
Administration need to either provide the documents requested, or claim 
a legally recognized privilege so that we can move forward.
    Thank you, I yield back the balance of my time.

    Chairman Miller. Thank you, Dr. Broun.
    All additional opening statements or any additional opening 
statements submitted by Members will be included in the record. 
Without objection now, I would enter a packet of documents into 
the record.\1\ The majority of those materials were drawn from 
the documents produced by the Department of Homeland Security 
and the Department of Energy in response to the request, the 
Subcommittee's request on March 8, 2010. As is our common 
practice, those materials were shared between the majority and 
minority staffs before the hearing.
---------------------------------------------------------------------------
    \1\ Please see Appendix 2: Additional Material for the Record.
---------------------------------------------------------------------------

                                Panel I:

    Chairman Miller. I am now pleased to introduce our 
witnesses today. Dr. William Hagan is currently the Acting 
Director of the Domestic Nuclear Detection Office, DNDO, the 
Department of Homeland Security. Dr. William Brinkman is the 
Director of the Office of Science at the Department of Energy 
and has been in his position at DOE since 2009.
    As our witnesses should know, you each will have five 
minutes for your spoken testimony. Your written testimony will 
be included in the record for the hearing. When you have all 
completed your spoken testimony, we will begin with questions 
and each member will have five minutes to question the panel.
    It is our practice to receive testimony under oath. Do any 
of you have any objection to taking an oath? The record should 
reflect that all the witnesses nodded their head that they did 
not. You also have the right to be represented by counsel. Do 
any of you have counsel here? And the record should reflect 
that all the witnesses nodded their head that they did not have 
counsel present. If you would all please now stand and raise 
your right hand? Do you swear to tell the truth and nothing but 
the truth?
    Dr. Brinkman, would you introduce Dr. Aoki just quickly?
    Dr. Brinkman. This is Dr. Steven Aoki, who is from the 
NNSA, part of the DOE, and I want him to be here to represent 
his half if you have questions.
    Chairman Miller. Okay. Well, he has just taken the oath, so 
not only will what you tell us be under oath but what he tells 
you will be under oath as well. You should do that with your 
staff all the time. I should try it with mine.
    Mr. Broun. Mr. Chairman, I ask unanimous consent that we 
allow Mr. Rohrabacher to sit in on this hearing.
    Chairman Miller. Without objection.
    Okay. The record should reflect that all the witnesses and 
the witnesses' helpers have taken the oath, and we will start 
with Dr. Hagan. Dr. Hagan, you are recognized for five minutes.

   STATEMENT OF DR. WILLIAM HAGAN, ACTING DIRECTOR, DOMESTIC 
   NUCLEAR DETECTION OFFICE, DEPARTMENT OF HOMELAND SECURITY

    Dr. Hagan. Good morning, Chairman Miller, Ranking Member 
Broun and distinguished Members of the Subcommittee. On behalf 
of DNDO, I would like to thank the Committee for the 
opportunity to discuss the helium-3 supply. My testimony today 
will address the following points: what was done at the 
beginning of the Advanced Spectroscopic Portal program to 
ensure there was adequate supply of helium-3, how we became 
aware of the shortage of helium-3, how we responded to it, the 
impact of the shortage on DNDO's programs and the status of the 
work to identify alternative neutron detection technologies.
    In the past, helium-3 was a relatively low-cost commodity 
and its use has increased greatly in recent years. Its 
increased demand was driven largely by the expanded use of 
large radiation portal monitors that are being deployed around 
the world. An RPM consists of a neutron detector using helium-3 
gas in tubes and a gamma detector using a plastic scintillator. 
In addition, helium-3 is used in scientific research and 
medical and industrial applications.
    Unfortunately, as the demand was rising, the supply was 
declining. The current and future helium-3 supply will fail to 
satisfy the demand of interagency partners and the commercial 
sector.
    In February 2006, as DNDO was planning for the Advanced 
Spectroscopic Portal program, program staff contacted DOE to 
ensure adequate supplies of helium-3 for up to 1,500 systems 
over five years. At that time there was no indication that the 
supply of helium-3 would be problematic. Similarly, vendor 
responses to the ASP request for proposals showed no concerns 
over the availability of helium-3 to meet manufacturing needs.
    DNDO first became aware of the potential problem with 
helium-3 supply in the summer of 2008. However, it was unclear 
whether the problem was a result of delays in the supply chain 
or an actual shortage of helium-3. In the fall of 2008, DOE 
issued a report verifying existence and seriousness of the 
overall supply shortfall.
    In February of 2009, DNDO took the lead in forming an 
interagency helium-3 Integrated Product Team, or IPT, with 
participation of major users of helium-3 for neutron detection 
applications. The IPT aimed to assess the true impact of the 
shortage and to ensure that the most crucial government and 
commercial programs would receive helium-3. DNDO had 
simultaneously begun negotiations in January 2009 to secure 
helium-3 for its programs. The sale was finalized in June, but 
one month later DNDO ceded control of the helium-3 to be 
allocated in accordance with interagency determinations.
    Further, in September, DNDO ceased to make any new 
allocations of helium-3 for RPMs. Based on current funding and 
guidance, however, the helium-3 shortage has had no appreciable 
short-term impact on the deployment of RPMs. The program has a 
sufficient inventory of systems to support deployments through 
2011. Additionally, a number of technical and management 
solutions are further reducing potential impacts. For instance, 
if ASP units are certified, the helium-3 from the existing RPMs 
that are being replaced can be reused in the ASP units.
    Devices that utilize smaller volumes of helium-3 such as 
handhelds and backpacks may also be impacted by this shortage. 
To mitigate the impact, industry has been purchasing helium-3 
from other sources and recycling gas from obsolete equipment. 
However, a redesign of current equipment to utilize new neutron 
technologies will eventually be necessary, and DNDO plans to 
work with industry to catalyze this development. DNDO will also 
request modest allocations from the government stockpile to 
continue deployment of these systems until alternatives are 
available.
    DNDO has been funding programs to identify alternative 
neutron detection technologies for several years. However, 
because helium-3 was widely available until only recently, 
alternatives are still somewhat early in their development. 
DNDO is working with the commercial sector to identify 
technologies that have potential for near-term 
commercialization and recently tested several available 
alternatives. DNDO has also accelerated exploratory research 
projects to identify other potential materials suitable for 
neutron detection. I brought a few examples here on the table 
today if you would like to discuss later.
    My testimony has outlined the course of action DNDO took to 
initially ensure the availability of helium-3 when we became 
aware of the shortage, the steps we took in response, the 
impacts of the shortage and the alternative technologies under 
development. Chairman Miller, Ranking Member Broun and Members 
of the Subcommittee, I thank you for your attention and we will 
be happy to answer your questions.
    [The prepared statement of Dr. Hagan follows:]

                 Prepared Statement of William K. Hagan

Introduction:

    Good morning Chairman Miller, Ranking Member Broun, and 
distinguished members of the Subcommittee. As Acting Director of the 
Domestic Nuclear Detection Office (DNDO) at the Department of Homeland 
Security (DHS), I would like to thank the Committee for the opportunity 
to discuss the helium-3 (He-3) supply.
    As requested, my testimony today will address the following points:

        <bullet>  How we became aware of the shortage of He-3;

        <bullet>  How we responded to it;

        <bullet>  What was done at the beginning of the Advanced 
        Spectroscopic Portal (ASP) program to ensure there was an 
        adequate supply of He-3 to meet the program's needs;

        <bullet>  The impact of the shortage on DNDO's radiological and 
        nuclear detection programs; and

        <bullet>  The status of the work we are doing to identify 
        alternative technologies to replace He-3 as a neutron detector.

    Since National Security Staff has recently briefed the Committee 
staff regarding the He-3 shortage, I have limited my remarks today to 
DNDO actions related to He-3.

Helium-3 Supply

    The United States' supply of He-3 has traditionally come from the 
decay of tritium, which the nation previously produced in large 
quantities as part of the U.S. nuclear weapons enterprise. The 
suspension of U.S. production of tritium in the late 1980s, however, 
resulted in a reduction in the amount of He-3 available for harvest. 
Currently, a significant portion of He-3 is used for neutron detection 
to aid in the prevention of nuclear terrorism. He-3 has become the 
overwhelmingly predominant technology used for this purpose; the 
Departments of Homeland Security, Defense (DoD), and Energy (DOE) each 
have nuclear detection programs that use He-3-based sensors. 
Additionally, He-3 is finding increasingly widespread use in areas 
beyond homeland security, including scientific research, medical, and 
industrial applications. Some of these applications may require 
relatively large volumes of He-3 for which there may be no known 
alternative. In the past, He-3 was a relatively low-cost commodity, and 
its use increased particularly with the advent of large radiation 
portal monitors both domestically and abroad. The limited supply of He-
3, which is based on the nation's current stores of tritium, has been 
overwhelmed by this increase in demand. The current and future He-3 
supply will fail to satisfy the demand of interagency partners and the 
commercial sector. Only approximately one tenth of the current demand 
for He-3 will be available from DOE/National Nuclear Security 
Administration (NNSA) for the foreseeable future, and neutron detectors 
using He-3 are already becoming difficult to procure.
    Since the inception of DHS in 2003, the majority of He-3 used was 
for the Radiation Portal Monitor (RPM) program. An RPM consists of a 
neutron detector, using He-3 gas in tubes, and a gamma detector, using 
large slabs of plastic scintillator. When DNDO was established in 2005, 
the RPM program was transferred from U.S. Customs and Border Protection 
(CBP). In FY 2006, when preparing to start a program for an advanced 
portal system, called the Advanced Spectroscopic Portal (ASP), DNDO met 
with DOE to discuss strategic resources that would be required for the 
ASP. DOE gave no indication that the supply of He-3 would be 
problematic, even with the amount of units we were envisioning.
    Until recently, DHS acquired systems using He-3 by publishing an 
RFP and then reviewing responses to select a vendor or vendors. The 
bidders, in preparing their responses, would check the resources 
required to fulfill the order, including He-3. When this process was 
used at the beginning of the ASP program, none of the proposals 
indicated any issue with He-3 supply.
    In the summer of 2008, DNDO first became aware of a potential 
problem with the He-3 supply through an email from a neutron detector 
tube manufacturer. Although DNDO investigated this issue, it was 
initially unclear whether the problem was a result of delays in the 
supply chain or an actual shortage of He-3. DOE, which traditionally 
has been responsible for managing and allocating the supply of He-3, 
issued a report verifying the existence and seriousness of the overall 
supply shortfall in the fall of 2008.
    In February 2009, DNDO took the lead in forming the He-3 
Interagency Integrated Product Team (IPT), with participation of DOE/
NNSA and DoD, to assess the true impact of the shortage and to ensure 
that the most critical government and commercial programs would 
preferentially receive He-3. The IPT also began exploring opportunities 
to manage the existing He-3 stockpile; increase the supply of He-3; 
account for the entire demand for He-3; investigate alternative 
technologies to replace He-3 for neutron detection; adapt old 
technologies for retrofit into existing equipment; and examine policy 
issues that may impact the use, distribution, or production of He-3.
    The IPT took steps to secure the He-3 necessary for high-priority 
programs, which included the RPM Program. DNDO also began negotiations 
in late January 2009 to secure He-3 for the ASP and other DNDO 
programs. This He-3 sale, which would have covered initial deployments 
of ASP, was finalized in June 2009. In July 2009, DNDO ceded control of 
this He-3 purchase to the National Security Staff Interagency Policy 
Committee to be allocated in accordance with interagency determinations 
in order to optimally satisfy the competing needs of He-3 users. As the 
He-3 is allocated to other agencies and departments, DNDO will be 
financially reimbursed. DNDO has continued to coordinate with 
interagency efforts to manage the He-3 shortage and actively 
participates in interagency working groups to address He-3 supply, 
demand, alternative technologies, and policy.

Impact of the Helium-3 Shortage

    Because of the volume of He-3 required in the construction of RPMs 
and the desire to make sure that He-3 was being used for the highest 
interagency priorities, DNDO ceased to allocate any additional He-3 for 
RPMs in September 2009. Based on current funding and guidance for the 
RPM Program, the He-3 shortage has had no appreciable impact on the 
deployment of systems in FY 2010. The program has a sufficient 
inventory of RPM systems with He-3 tubes available to support 
deployments through FY 2011. Additionally, a number of solutions--
including both the identification of new detector materials and 
management solutions to most effectively utilize existing supplies--are 
yielding results. If ASP units are certified for secondary scanning 
applications, DHS can reuse the He-3 from the existing RPMs that are 
being replaced and use it for the ASP units. Simultaneously, DNDO is 
leading interagency efforts to identify alternative neutron detectors 
that may eventually replace He-3 in these applications.
    While other devices (for example, handheld radioisotope 
identification devices and backpack detectors used by the U.S. Coast 
Guard, CBP and the Transportation Security Administration) use smaller 
volumes of He-3, they are also impacted by this shortage. To mitigate 
the shortage and ensure supply to government customers, industry has 
been purchasing He-3 from other sources, such as private companies that 
have stored He-3, and recycling gas from obsolete equipment. This has 
offset some of the shortfall in the near-term, but a redesign of 
current equipment will be necessary over the next several years, once 
new neutron detection technologies have been identified. As such, DNDO 
plans to work with the device manufacturers to develop new 
technologies, integrate them into systems, and test them for 
suitability in the field. In the meantime, DNDO will also request 
modest allocations from the government stockpile to continue deployment 
of current human portable systems until alternatives are available.

Alternative Neutron Detection Technologies

    As I mentioned earlier, the U.S. government is also exploring 
options to resolve this situation through the development of new types 
of neutron detectors. DNDO is at the forefront of these efforts and had 
been funding programs to address alternative neutron detection 
technologies as part of their mandate, prior to any knowledge of the 
He-3 shortage. We are also working with the interagency to engage the 
technical, commercial, and international communities to solicit ideas 
to address alternative materials for neutron detection. We are 
confident that the government, private industry, and international 
stakeholders are making progress on a prudent path forward. At present, 
we are working with the commercial sector to identify alternative 
detection products that have potential for near-term commercialization. 
Our DNDO Exploratory Research projects that address other detection 
materials with neutron capabilities have also been accelerated.
    DNDO recently tested many known commercial off-the-shelf (COTS) and 
near-COTS alternatives for neutron detection and remains committed to 
working with the interagency to identify potential solutions. For RPMs 
that require large volumes of He-3, four technologies have been 
identified as being potentially viable candidates. Boron Trifluoride 
(BF<INF>3</INF>)-filled proportional counters were widely used for 
neutron detection before He-3-based detectors were available. DNDO 
conducted testing at a national laboratory to compare the performance 
of BF<INF>3</INF> with the performance of He-3; while this testing 
validated the neutron detection capabilities of BF<INF>3</INF> as a low 
cost replacement technology, we continue to seek additional 
alternatives because the hazardous material classification of BF<INF>3</INF> 
makes it less attractive for end users.
    Other promising technologies under development include Boron-lined 
proportional counters; Lithium-loaded glass fibers; coated non-
scintillating plastic fibers; and a new scintillating crystal composed 
of Cesium-Lithium-Yttrium-Chloride, (Cs<INF>2</INF>LiYCl<INF>6</INF>) 
or CLYC, commonly pronounced ``click'', that has both neutron and gamma 
detection capabilities. Some of these new technologies may have neutron 
detection capabilities that meet or even exceed the abilities of 
current He-3-based detectors. Before any alternative is commercialized, 
we will check the availability of the key components to avoid another 
shortage issue.
    Since He-3 was widely available and relatively inexpensive until 
only recently, alternatives are still somewhat early in their 
development, although these development efforts have been accelerated 
in the last year or so. DNDO will continue funding of exploratory 
research and early development, testing of new COTS and near-COTS 
alternatives, and acquisition of samples of promising technologies for 
more extensive testing and evaluation.
    Chairman Miller, Ranking Member Broun, and Members of the 
Subcommittee, I thank you for your attention and will be happy to 
answer your questions.

                     Biography for William K. Hagan

    Dr. William Hagan is the Acting Director of the Domestic Nuclear 
Detection Office (DNDO), a position he has held since December 2009. 
Prior to this position, Dr. Hagan served as the Acting Deputy Director 
from January through December 2009. Dr. Hagan was initially appointed 
to the Senior Executive Service and joined DNDO in 2006 as the 
Assistant Director for Transformational Research and Development (R&D), 
where he was responsible for long-term R&D, seeking technologies that 
can make a significant or dramatic positive impact on the performance, 
cost, or operational burden of detection components and systems.
    Prior to DNDO, Dr. Hagan had a long career with Science 
Applications International Corporation (SAIC), where he worked from 
1977 through 2006. He served in many positions during his tenure with 
SAIC, culminating with a position as the Senior Vice President and 
Deputy Business Unit Manager for Operations of the Security and 
Transportation Technology Business Unit (STTBU). Specifically, STTBU 
focused on securing the supply chain by applying technologies such as 
neutron interrogation, gamma- and x-ray imaging, passive radiation 
detection, ultrasound, radio frequency resonance, and chemical agent 
detection using data fusion of ion mobility spectrometry and surface 
acoustic waves. The radiation portal monitors that are currently used 
to screen 99% of all cargo entering the country were built by STTBU, 
using technology from a company whose acquisition was led by Dr. Hagan 
in 2003.
    Previous positions with SAIC included work as a senior scientist, 
operations manager, Group Manager of the Technology Development Group 
(TDG) of the SAIC's Commercial Business Sector, and Senior Vice 
President for Technology Commercialization and acting Chief Technical 
Officer for SAIC's Venture Capital Corporation.
    Dr. Hagan earned a Bachelor of Science in Engineering Physics in 
1974, Master of Science in Physics in 1975, and Master of Science in 
Nuclear Engineering in 1977 from the University of Illinois at Urbana. 
He received his Ph.D. in Physics from the University of California-San 
Diego in 1986. He holds three patents.

    Chairman Miller. Thank you.
    Dr. Brinkman, you are now recognized for five minutes.

 STATEMENT OF DR. WILLIAM BRINKMAN, DIRECTOR OF THE OFFICE OF 
                 SCIENCE, DEPARTMENT OF ENERGY

    Dr. Brinkman. Thank you. Thank you, Chairman Miller, 
Ranking Member Broun and Members of the Committee. I appreciate 
the opportunity to come before you and provide testimony on 
DOE's action in response to the national helium-3 shortage.
    Within the DOE, both NNSA and the Office of Science play a 
role in helium-3 production. NNSA provides the helium-3 supply 
and the Isotope program now within the Office of Science 
distributes helium-3 from NNSA to the marketplace. Even before 
the DOE Office of Science assumed responsibility for the 
Isotope program in fiscal year 2009, we undertook measures to 
educate the various communities of users including national 
security, medical, industrial and research communities of 
isotope shortages in general.
    Our Office of Nuclear Physics within the Office of Science 
organized a major workshop in August 2008. The purpose of this 
workshop was to identify critical isotopes for the Nation that 
are in short supply. Following this workshop, the community of 
users became aware of the imminent shortage of helium-3 and the 
DOE began coordinating future allocations of helium-3 with 
other agencies. We and others in the government have reinforced 
this message through presentations at major scientific 
societies including the American Association for the 
Advancement of Science, for example.
    Since assuming responsibility for the Isotope program one 
year ago, the Office of Science has worked very closely with 
NNSA and other federal agencies to develop a coordinated 
response. In March 2009, we joined NNSA, DOD and DHS to form an 
interagency group with the purpose of identifying demand, 
supply and R&D options for the future. Since July 2009, this 
interagency effort has been under the auspices of an official 
Interagency Policy Committee formed by the White House national 
security staff.
    Our approach has been straightforward. We have reached out 
to the various communities that use helium-3 and asked them to 
refine their needs in light of the shortage so that we can 
allocate resources as rationally as possible across various 
sectors. We also identified portal monitors as a vital but 
disproportionate source of demand for helium-3 and recognized 
the need for alternative detection technologies. These 
alternative detectors, although not quite as good as helium-3, 
will enable us to support these applications without the use of 
helium-3 and will provide our country with a strong nuclear 
detection program. We are cautiously optimistic that 
alternative detection approaches can be evaluated and put into 
production in the next few years, avoiding major disruption of 
planned deployment of portal monitors as seen by the evidence 
on the table here.
    We worked hard to develop accurate needs for other 
communities that use helium-3, cryogenic research, lung imaging 
and other communities, and found that with recycling the 
helium-3 we could further reduce the demand. The guidance 
developed by the IPC for allocation of available helium-3 
supply assigns high priority to scientific applications that 
depend on the unique physical properties of the isotope.
    Working on the supply side, we have developed a plan that 
will allow us to keep in balance the supply and demand for the 
next five to six years. To do this, we need to increase our 
supply by one of two approaches. The first would be to use 
helium-3 that results from heavy-water reactors that exist 
around the world but particularly in Canada. The second would 
be to produce commercial tritium using the current 
infrastructure but separately from the weapons program and 
harvest the helium-3 from tritium decay. We are currently 
getting cost estimates, et cetera, for these two approaches. If 
we can capture the helium-3 from Canada, we believe that we 
have a balanced program over the next five to six years.
    Another possibility is extracting helium-3 from helium 
sources such as natural gas deposits. Since the fraction of 
helium-3 captured from natural gas wells is only 200 parts per 
billion, further study is needed to determine whether this 
approach can be cost competitive. We believe we have organized 
a well-defined proactive interagency approach to meeting this 
challenge and mitigating its impact to the extent possible. 
Thank you.
    [The prepared statement of Dr. Brinkman follows:]

               Prepared Statement of William F. Brinkman

    Thank you Mr. Chairman, Ranking Member Broun, and Members of the 
Committee. I appreciate the opportunity to appear before you to provide 
testimony on the DOE's role and reaction to the national Helium-3 
(<SUP>3</SUP>He) shortage. Both the National Nuclear Security 
Administration (NNSA), and the DOE Isotope Development and Production 
for Research and Applications Program (Isotope Program) recently 
transferred to the Office of Science in the FY 2009 Appropriation, play 
a role in Helium-3 production and distribution. I have served as the 
Director of the Office of Science since June 2009, and I am pleased to 
share with you my perspectives on the role of the DOE Isotope Program 
in <SUP>3</SUP>He production and distribution.

Overview of the Role of DOE in Helium-3 Production and Distribution

    The DOE has supplied isotopes and isotope-related services to the 
Nation and to foreign countries for more than 50 years. Since its 
transfer to the Office of Science in 2009, the Isotope Program has 
continued to produce a suite of isotopes for research and applications 
that are in short supply, as well as technical services such as target 
development, chemical conversions, and other isotope associated 
activities. As part of this mission, the Isotope Program is responsible 
for the sale and distribution of <SUP>3</SUP>He on behalf of DOE, but 
not for the production of <SUP>3</SUP>He. <SUP>3</SUP>He is a rare, 
non-radioactive and non-hazardous isotope of helium. Due to its low 
natural abundance, recovery from natural deposits has not been 
economically viable thus far. Instead, the sole production of 
<SUP>3</SUP>He in the United States results from the refurbishment and 
dismantlement of nuclear weapons. The natural radioactive decay of 
tritium used in these weapons creates <SUP>3</SUP>He, which is 
separated and stored during processing at the NNSA Savannah River Site 
(SRS) in South Carolina. To date, the only other commercial source of 
<SUP>3</SUP>He has been from the decay of tritium that was produced 
within the former Soviet Union for its nuclear weapons program. Because 
the primary, current source of <SUP>3</SUP>He is the decay of tritium, 
current supplies of this important gas are limited by the quantities of 
tritium on hand and being produced. Without development of alternative 
sources for <SUP>3</SUP>He, use of this gas will be constrained 
seriously in the foreseeable future as accumulated stockpiles are drawn 
down.
    The U.S. distribution of <SUP>3</SUP>He for commercial consumption 
started in 1980. <SUP>3</SUP>He production for commercial use, has 
never been a mission of the DOE. However, DOE made this byproduct of 
its operations available to scientific and industrial users at a price 
designed to recover extraction, purification, and administrative costs. 
Currently, the need for <SUP>3</SUP>He in the United States is 
outpacing production.
    The major application of <SUP>3</SUP>He is for neutron detection, 
principally for national security purposes, nuclear safeguards 
measurements, oil and gas exploration, and in scientific 
experimentation. It is the preferred detector material for these 
applications because it is non-reactive/non-corrosive and it has the 
highest intrinsic efficiency for neutron detection. It is also 
important in low-temperature physics research and increasingly in 
medical diagnostics. A major use of <SUP>3</SUP>He in U.S. research is 
for neutron detection in the Spallation Neutron Source (SNS), a one-of 
-a-kind, accelerator-based neutron source that provides intense pulsed 
neutron beams for scientific research, materials research, and 
industrial development. <SUP>3</SUP>He is also used in dilution 
refrigeration in low-temperature physics experiments; there is no known 
alternative for this use.
    The U.S. Government ceased reactor-based production of tritium for 
the nuclear weapons stockpile in 1988. Due to the downsizing of the 
world's nuclear stockpiles and the increase in the demand for 
<SUP>3</SUP>He, we have reached a critical shortage in the global 
supply of <SUP>3</SUP>He.

Realization of <SUP>3</SUP>He Shortage

    From 1980 to 1995, <SUP>3</SUP>He collected by the NNSA at the 
Savannah River Site (SRS) was purified at the Mound Laboratory along 
with other stable isotope gases for distribution by the Isotope 
Program. NNSA ceased operations at Mound, a laboratory used primarily 
for weapons research during the Cold War, in 1995. Between 1980 and 
2003, the SRS had accumulated about 260,000 liters of unprocessed 
<SUP>3</SUP>He. For security purposes, this total was closely held, and 
not known widely beyond DOE. Sales of this raw <SUP>3</SUP>He by SRS 
began in 2003 as a remediation test project with the commercial firm, 
Spectra Gases (now named Linde LLC); Linde invested in excess of 
$4,000,000 to establish purification capability of <SUP>3</SUP>He. In 
August of 2003, NNSA and the DOE Office of Nuclear Energy, in which the 
Isotope Program resided at that time, entered into a Memorandum of 
Understanding for the sales of raw <SUP>3</SUP>He derived from tritium 
processing. On October 2, 2003, the first invitation to bid on the sale 
of <SUP>3</SUP>He was published in a FEDBIZOPS notice. There were three 
competitive auctions from 2003 until 2006. Some of the 2006 shipment 
occurred in 2007 and 2008. There were a total of 146,000 liters 
supplied primarily to two vendors. During this time period, the Isotope 
Program advised both vendors that the supply was limited to about 
10,000 liters annually by NNSA. Between 2004-2008, an average of 25,000 
liters of Russian <SUP>3</SUP>He was entering the U.S. market annually. 
Since 2003, DOE has sold over 200,000 liters of <SUP>3</SUP>He, drawing 
down a significant portion of the Department's inventory. In addition, 
allocations totaling 58,000 liters were provided to SNS directly from 
NNSA in 2001 and 2008 in support of the high priority neutron 
scattering basic research program.
    In March 2006, Isotope Program was briefed by Systems Development 
and Acquisition, Domestic Nuclear Detection Office (DNDO) on the 
development and acquisition of the deployment of their domestic 
detection system. The goal was to award contracts by July 2006. There 
was discussion that additional <SUP>3</SUP>He would be required by 
DNDO, but final quantities could not be provided at that time. Some 
quantities were discussed prior to the meeting, particularly taking 
into account the availability at the time of additional supply from 
Russia. In the fall of 2007, vendors expressed interest to the Office 
of Nuclear Energy Isotope Program about the timing of the next bid of 
<SUP>3</SUP>He and the probability of increased needs, but actual 
quantities were not known. While it was becoming apparent that a gap 
between supply and demand was emerging the magnitude of the projected 
demand was still unknown, as was the future availability of 
<SUP>3</SUP>He gas from Russia. A combination of <SUP>3</SUP>He loading 
enhancements at SRS in 2007, which delayed <SUP>3</SUP>He distribution 
capabilities, and a lack of detailed information on demand caused the 
planned 2007 bid to be delayed.
    In 2008, concerned that the overall demand would surpass the 
available supply, even though the U.S. was not the sole source at the 
time, the Isotope Program delayed all further bid sales until 
additional information could be obtained. The Office of Nuclear 
Physics, in anticipation of the transfer of the Isotope Program from 
the Office of Nuclear Energy to the Office of Science, organized a 
workshop on the Nation's needs for isotopes for research and 
applications. This August 2008 workshop was attended by national 
laboratories, universities, industry, and federal agencies, including 
the Department of Homeland Security, and NNSA. At the workshop, the 
community discussed a demand for <SUP>3</SUP>He approaching 70,000 
liters annually'. The projected U.S. supply in the out years was 
estimated, at that time, to be about 8,000 liters annually. The results 
of the workshop were subsequently released in a report to the 
interagency community. During the same time period, Russia ceased 
offering <SUP>3</SUP>He to the commercial market, informing U.S. 
vendors that it was reserving its supplies for domestic use.

DOE Response to <SUP>3</SUP>He Shortage

    With the estimated magnitude of the shortage becoming clear in 
August 2008, the Isotope Program coordinated sales in 2008 among the 
Department of Homeland Security (DHS), the NNSA Second Line of Defense 
(SLD) program, and industry, and did not distribute <SUP>3</SUP>He 
through an open bid process. A briefing by the Isotope Program was held 
at DHS, with attendance by Department of Defense, DHS and NNSA, to 
discuss the projected <SUP>3</SUP>He shortage. The DOE was instrumental 
in the development of the self-formed interagency group that was 
established in March 2009, with the objective of identifying the 
<SUP>3</SUP>He demand and supply and R&D efforts on alternative 
technologies.
    DOE quickly implemented a number of actions. NNSA and Office of 
Science agreed that no further <SUP>3</SUP>He allocations would be made 
without interagency agreement. Together with DHS, they decided not to 
provide additional gas for portal monitor systems, which accounted for 
up to 80 percent of projected future demand. DOE accelerated plans for 
the development and deployment of alternative neutron detection 
technology to reduce demand, with the aim to begin implementation 
within the next few years. DOE started investigating the identification 
of new sources of <SUP>3</SUP>He from other countries, including 
Canada, which could increase the domestic supply starting in two to 
three years. Together with DHS, DOE also started examining additional 
new <SUP>3</SUP>He production from either natural gas distillation or 
new reactor-based irradiation. These options were seen as a long-term 
and expensive, but potentially necessary if demand continues to outpace 
supply in the future.
    A targeted public outreach campaign was instituted to help ensure 
that the <SUP>3</SUP>He user community was made aware of the current 
shortage. The DOE Isotope Program published the Workshop Report, which 
articulated the <SUP>3</SUP>He shortage, and broadly disseminated the 
report to stakeholders and interested parties in December 2008. Both 
NNSA and the Office of Science made a formal inquiry in July 2009 to 
national laboratories and universities supported by their programs, 
explaining the shortage and asking for input on use, demand and 
alternatives. The public outreach campaign included letters to 
scientific associations involved in cryogenics, nuclear detection, 
medicine, and basic research, alerting them and their members of the 
shortage. Dedicated <SUP>3</SUP>He sessions at technical association 
meetings such as the American Association for the Advancement of 
Science, National Academy of Sciences, American Nuclear Society, 
Institute of Nuclear Materials Management and Institute of Electrical 
and Electronics Engineers were arranged. The Isotope Program posted a 
fact sheet on the <SUP>3</SUP>He shortage on both the Office of Nuclear 
Physics Website and the Isotope Business Office website in August 2009, 
notifying stakeholders of the shortage and informing them of the 
interagency efforts.
    In July 2009, the White House National Security Staff (NSS) formed 
an Interagency Policy Committee (IPC), with broad federal 
representation, to investigate strategies to decrease overall demand 
for <SUP>3</SUP>He, increase supply, and make recommendations to 
optimally allocate existing supplies. Both NNSA and the Office of 
Science are members of the IPC and the working groups that subsequently 
have been formed. The DOE, through its Isotope Program, presently is 
distributing the 2010 allocations of <SUP>3</SUP>He to federal and non-
federal entities, based on the recommendation of the IPC. The 
allocation process gives priority to scientific uses dependent on 
unique physical properties of <SUP>3</SUP>He and to maintaining 
continuity of activities with significant sunk costs. It also provides 
some supply for non-government sponsored uses, principally oil and gas 
exploration. The Isotope Program is working closely with <SUP>3</SUP>He 
industrial distributors to ensure that the available He is being 
distributed in accordance with the Interagency Working Group decisions.
    Preliminary results obtained by the interagency group, projected FY 
2010 U.S. demand to be 76,330 liters, far outpacing the total available 
supply of 47,600 liters or projected annual production of 8,000 liters. 
Based on guidance developed by the group, agencies have reduced their 
projected needs to 16,549 liters. A second review produced further 
reductions to 14,557 liters for FY 2010. At a December 10, 2009 
meeting, the task force agreed to allocate a portion of this revised 
amount.
    To achieve this reduction in demand, DHS and DOE have agreed to 
make no new allocations of <SUP>3</SUP>He for use in portal monitors, 
which employ the largest quantities of this material in the allocation 
process. The NNSA Second Line of Defense program will continue carrying 
out its mission to deploy portal monitors, by using past allotments 
that provide sufficient <SUP>3</SUP>He to support SLD activities 
through early FY 2011.

Impact of <SUP>3</SUP>He Shortage

International Safeguards
    The current shortage has had the most severe impact on U.S. 
international safeguards efforts. Historically, due to the low cost of 
<SUP>3</SUP>He, the U.S. has been the major supplier of <SUP>3</SUP>He 
in support of International Atomic Energy Agency (IAEA) safeguards 
efforts. <SUP>3</SUP>He is the neutron detector material in systems 
used for nuclear material accountancy measurements that help assure 
that nuclear materials have not been diverted. Except for the U.S. 
mixed oxide fuel (MOX) facility, which received its full request, all 
other U.S. international safeguards support is currently on hold as a 
result of the <SUP>3</SUP>He supply shortage. Concern about undermining 
the U.S. Government international safeguards efforts at the Japan MOX 
(JMOX) facility resulted in further investigation of international 
options for <SUP>3</SUP>He supply and verification of the operational 
timeline for JMOX. The IAEA is currently reaching out to Member States 
requesting they support JMOX by making <SUP>3</SUP>He available. The 
U.S. has offered to work with potential <SUP>3</SUP>He suppliers on 
extraction processes. NNSA's Office of Nonproliferation and 
International Security also has been working with Japan on an updated 
operational timeline. The original 2,800 liter request for FY 2010 has 
been scaled back to 1,000 liters and approved.
    In the case of international safeguards, it is DOE's view that the 
shortage should not be viewed as just a U.S. problem, but rather one 
that will require international cooperation to solve. The U. S. has met 
with IAEA representatives, including Director General Amano, and has 
obtained full and active IAEA support for outreach to potential 
international suppliers. DOE also suggested that Russia provide 
<SUP>3</SUP>He from its reserves in support of these international 
safeguards efforts. The safeguards community both in the U. S. and 
internationally has reexamined its <SUP>3</SUP>He needs and the timing 
of those needs, with a view to phasing in installation of detectors 
that use non-<SUP>3</SUP>He technology, without negative impact to 
safeguards requirements.

Second Line of Defense (SLD)
    Portal monitors have been the largest use of <SUP>3</SUP>He in the 
past few years, accounting for about one-third of the total annual use. 
Given that most of the alternative development work is focused portal 
monitors, the IPC allocation process eliminated <SUP>3</SUP>He 
allocations for this use. Past FY 2011, this decision could potentially 
impact the SLD program.
    SLD has a sufficient number of <SUP>3</SUP>He-loaded detection 
tubes to complete its planned deployments through FY 2011. After that, 
SLD would be dependent on alternative technology for neutron detection. 
However, boron tri-fluoride (BF3), the neutron detection technology in 
use before <SUP>3</SUP>He became the preferred alternative, is toxic 
when exposed to air, leading to difficulties with handling, 
international shipping, and deployment of monitors in foreign 
locations. Several new neutron detection technologies are currently 
being tested by DHS and DOE. However, these need to be brought to full 
deployment readiness, married with portal technology, and formally 
tested by SLD for detection capability and robustness, in accordance 
with the SLD mission and standards. It is estimated that two to three 
more years of development will be required before detection systems 
based on these technologies will be available for deployment.

Other users
    <SUP>3</SUP>He is used in support of lung imaging research. 
Constraining allocations or increased gas costs may have an impact on 
future pulmonary research efforts, particularly long term studies that 
use and provide historical data. For FY 2010, the medical community 
received 1,800 liters of gas which supports current activities. The 
medical research community is working with industry to recapture, 
recover and recycle <SUP>3</SUP>He used for pulmonary research.
    <SUP>3</SUP>He is used as the refrigerant for ultra-low-temperature 
coolers for physics research, such as nanoscience and the emerging 
field of quantum computing. <SUP>3</SUP>He is unique in that there are 
no materials other than helium that remain liquid at temperatures 
closely approaching absolute zero, and <SUP>3</SUP>He's nuclear 
properties provide a handle to do cooling that <SUP>4</SUP>He doesn't 
provide, allowing for cooling down to the milli-Kelvin level. In FY 
2010, the full U.S. cryogenics request for 1,000 liters was approved. 
The true impacts to both R&D and operational programs will be better 
quantified in the upcoming months, as users with small volume 
requirements place orders for their projects.
    <SUP>3</SUP>He is a component of ring laser gyros, used in guidance 
and navigation equipment utilized by the DoD for strategic and tactical 
programs. These systems are utilized in guidance for smart munitions 
and missiles and in military aircraft and surface vehicle and 
navigation systems. They are also used in space guidance and navigation 
systems. <SUP>3</SUP>He is required until current testing and 
qualification tests to assess an alternative gas are completed.
    <SUP>3</SUP>He plays an important role in basic research. Neutron 
scattering provides unique information about the structure and dynamics 
at the atomic and molecular level for a wide variety of different 
materials. Neutron scattering instruments have the requirements of high 
efficiency, very good signal-to-background ratio, and high stability of 
signal and background. Many neutron instruments depend on the use of 
<SUP>3</SUP>He detectors because of their insensitivity to gamma rays, 
which permits measurements spanning very large dynamic ranges. They 
have high efficiency (>50%) for thermal neutrons, and their high 
stability permits precise measurements over long periods of time or 
with different sample conditions. No other detector technology 
currently comes close to matching these capabilities. A number of the 
neutron scattering instruments at the Office of Science High Flux 
Isotope Reactor (HFIR) and the SNS at ORNL already use <SUP>3</SUP>He-
based detectors. The shortage has not yet impacted the U.S. neutron 
scattering research community. It is projected that their 
<SUP>3</SUP>He allocation will support experiments through FY 2014.
    In addition, the international neutron scattering community is 
developing and installing new facilities that are projected to require 
approximately 120,000 liters of new <SUP>3</SUP>He over the course of 
this decade. The U.S. neutron scattering community has been actively 
engaged with their international counterparts in investigating ways to 
reduce the total demand, make better use of available supply, and 
develop alternative technologies. The U.S. has insisted that 
international partners take responsibility for securing new sources of 
<SUP>3</SUP>He, that the U.S. can no longer be the major supplier 
satisfying these needs.

Alternative Sources of <SUP>3</SUP>He

    The DOE is pursuing multiple approaches to identify alternative 
sources of <SUP>3</SUP>He.

Reuse and recycle
    In the medium term (1-3 years), the focus is on investigating ways 
to increase and/or improve use of <SUP>3</SUP>He supplies. DOE 
programs, such as the Emergency Response Program which uses backpack-
sized <SUP>3</SUP>He-based detection equipment for their nuclear search 
mission, and the international safeguards program have instituted 
recycle and recovery efforts. These efforts, have led to reductions in 
their overall demands for new <SUP>3</SUP>He by about 10 percent. Other 
programs, such as SLD, have been able to reduce the total amount of 
<SUP>3</SUP>He required in each system and still meet required 
specifications. The Office of Science also has been developing 
recycling approaches for its uses of <SUP>3</SUP>He.
    To help identify stray inventories of <SUP>3</SUP>He, DOE/NNSA and 
Office of Science have issued a call to the laboratories and plants, 
directing that they inventory unused/excess bulk <SUP>3</SUP>He 
quantities and equipment containing <SUP>3</SUP>He. This could be used 
in the preparation of a DOE/NNSA recycling program that could be 
expanded to other government agencies. The DOE laboratories are 
analyzing the extraction process used to remove <SUP>3</SUP>He from 
tritium to determine if it can be further optimized. Savannah River 
National Laboratory is developing a process to extract <SUP>3</SUP>He 
from retired tritium equipment that otherwise would have been 
discarded. The process may provide as much as an additional 10,000 
liters of <SUP>3</SUP>He.

New supply
    Tritium is produced by neutron capture in heavy-water-moderated 
reactors, such as those used in Canada, Argentina and other countries. 
Because tritium is radioactive, utilities using these types of reactors 
often need to separate and store tritium in sealed containers, where it 
decays to produce <SUP>3</SUP>He. Typically these containers have been 
designed to support permanent storage, not future extraction. DOE/NNSA 
is discussing with these countries how much, if any, <SUP>3</SUP>He 
they have in storage and how best to secure and make available. 
Investigations into possible ways to secure that material include 
transporting the storage containers to the U.S. for extraction in the 
U.S. or licensing the U.S. extraction process at the foreign facility. 
These are on-going negotiations; additional details can be provided 
once agreements have been reached with potential partners. Based on 
preliminary estimates, DOE/NNSA believes it would be possible to 
extract approximately 100,000 liters of <SUP>3</SUP>He over a 7-year 
period. The results of technical feasibility and cost studies are 
expected to be available by early FY 2011 as a basis for decisions by 
DOE and other interested agencies.
    Over the longer term, it may be possible to produce <SUP>3</SUP>He 
rather than derive it as a byproduct of other activities. DOE/NNSA is 
currently examining the feasibility of two possible pathways. However, 
both of these options would require capital investment by DOE or 
another agency, and would likely involve a substantial increase in the 
cost of <SUP>3</SUP>He to the end user.
    First, it may be possible to extract <SUP>3</SUP>He from natural 
gas. A 1990 Department of Interior (DOI) Study entitled, ``Method and 
Apparatus for Direct Determination of <SUP>3</SUP>He in Natural Gas and 
Helium'' found wide variations in the amount of <SUP>3</SUP>He at 
various drilling sites, ranging from less than 1 part per billion to 
over 200 parts per billion.
    Secondly, the NNA Office of Defense Programs is evaluating the cost 
and feasibility of conducting reactor-based irradiations to produce 
tritium for the primary purpose of subsequent <SUP>3</SUP>He 
harvesting. This approach would utilize the facilities currently 
employed to generate tritium for the nuclear weapons stockpile. 
Although the necessary infrastructure currently is in place, additional 
costs would be incurred for target fabrication and subsequent 
processing. Because of the 12.3-year half life of tritium, there would 
be a delay of a number of years before any new <SUP>3</SUP>He would 
become available.

Non <SUP>3</SUP>He based detectors
    In FY 2009, NNSA initiated a program to address the shortage of 
<SUP>3</SUP>He that focuses on non-<SUP>3</SUP>He replacement 
technologies for neutron detectors in portal monitors deployed by the 
SLD Program. The NNSA Office of Nonproliferation and Verification 
Research and Development has, for many years, been developing 
alternative neutron detection technologies, but these efforts were not 
focused on portal monitoring applications that require large-area 
detectors. Since FY 2009, this application has become the principal 
focus of this neutron detection R&D program. Several promising 
technologies are being investigated that could supplement the use of 
the older BF<INF>3</INF> technology as substitutes for <SUP>3</SUP>He 
neutron detectors.

Current Actions and Allocation Process for Helium-3

    The NSS IPC met in September 2009 and concurred on a strategy that 
decreases overall demand for <SUP>3</SUP>He, including conservation and 
alternative technologies, increases supply through exploring foreign 
supplies/inventories and recycling, and optimally allocates existing 
supplies. Furthermore, the IPC agreed to defer all further allocation 
of <SUP>3</SUP>He for portal monitors, beginning in FY 2010, and would 
not support allocating <SUP>3</SUP>He for new initiatives that would 
result in an expanding <SUP>3</SUP>He infrastructure. The IPC 
stipulated that <SUP>3</SUP>He requests should be ranked according to 
the following priorities:

        1.  programs requiring the unique physical properties of 
        <SUP>3</SUP>He have first priority.

        2.  programs that secure the threat furthest away from US 
        territory and interests have second priority.

        3.  programs for which substantial costs have been incurred 
        will have third priority.

    Adoption of this approach for managing the U.S. <SUP>3</SUP>He 
inventory produces allocations for Fiscal Years 2010 through 2017 that 
can be met by projected reserves. This is in contrast to the original 
allocation approach, which would have resulted in large and increasing 
shortages over the same period of time.
    For FY 2010, allocations were as follows:

    a.  DOE (Safeguards)
    b.  DOE (Detection)
    c.  DOE (Emergency Response)
    d.  DOE (NIF/NNSA)
    e.  DOE-Science
    f.   NIST
    g.  Oil and Gas
    h.  NIH (Med Imaging)
    i.  Cryogenics
    j.  NASA
    k.  Environ Management
    l.  IC
    m.  DoD
    n.  DHS
    o.  DOS
800 liters (+1000 liters) *
1,520 liters
1,750 liters
80 liters
341 liters
832 liters
1,000 liters
1,800 liters
1,800 liters
80 liters
0 liters
0 liters
882 liters (+648 liters) **
772 liters
100 liters

* DOE requested and was approved for an additional 1000 liters for the 
JMOX facility in FY10.
** DoD requested and was approved for an additional 648 liters in FY10. 
325 liters will be used for the guidance and navigation systems, and 
323 liters will be used by the DoD laboratories for cryogenic dilution 
refrigeration.

Concluding Remarks

    The DOE is committed to working with other agencies, the community 
and the White House in reducing the demand of <SUP>3</SUP>He, 
increasing the supply of <SUP>3</SUP>He, and distributing 
<SUP>3</SUP>He in accordance to the Nation's highest priorities.
    Thank you, Mr. Chairman and Members of the Committee, for providing 
this opportunity to discuss the national <SUP>3</SUP>He shortage and 
DOE's roles and reaction to the shortage. I'm happy to answer any 
questions you may have.

                   Biography for William F. Brinkman

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Dr. William F. Brinkman was confirmed by the Senate on June 19, 
2009 and sworn in on June 30, 2009 as the Director of the Office of 
Science in the U.S. Department of Energy. He joins the Office of 
Science at a crucial point in the Nation's history as the country 
strives toward energy security--a key mission area of the Department of 
Energy.
    Dr. Brinkman said during his confirmation hearing that he looked 
forward to working ``tirelessly to advance the revolution in energy 
technologies, to understand nuclear technologies and to continue basic 
research in the 21st century.''
    Dr. Brinkman brings decades of experience in managing scientific 
research in government, academia, and the private sector to the post. 
He leaves a position as Senior Research Physicist in the Physics 
Department at Princeton University where he played an important role in 
organizing and guiding the physics department's condensed matter group 
for the past eight years.
    He joined Bell Laboratories in 1966 and after a brief sojourn as 
the Vice President of Research at DOE's Sandia National Laboratories, 
where he oversaw the expansion of its computer science efforts, Dr. 
Brinkman returned to Bell Laboratories in 1987 to become the executive 
director of its physics research division. Dr. Brinkman returned to 
Bell Laboratories in 1987 to become the executive director of its 
physics research division. He advanced to the Vice President of 
Research in Bell Laboratories in 2000, where he directed research to 
enable the advancement of the technology underlying Lucent 
Technologies' products. Brinkman led a research organization that 
developed many of the components and systems used in communications 
today, including advanced optical and wireless technologies.
    He was born in Washington, Missouri and received his BS and Ph.D. 
in Physics from the University of Missouri in 1960 and 1965, 
respectively. Since this time, he has served as a leader of the physics 
community. He has spent one year as a National Science Foundation 
postdoctoral fellow at Oxford University. He has served as president of 
the American Physical Society and on a number of national committees, 
including chairmanship of the National Academy of Sciences Physics 
Survey and their Solid-State Sciences Committee. He is a member of the 
American Philosophical Society, National Academy of Sciences, and the 
American Academy of Arts and Sciences.
    He has worked on theories of condensed matter and his early work 
also involved the theory of spin fluctuations in metals and other 
highly correlated Fermi liquids. This work resulted in a new approach 
to highly correlated liquids in terms of almost localized liquids. The 
explanation of the superfluid phases of one of the isotopes of helium 
and many properties of these exotic states of matter was a major 
contribution in the middle seventies. The theoretical explanation of 
the existence of electron-hole liquids in semiconductors was another 
important contribution of Brinkman and his colleagues in this period. 
Subsequent theoretical work on liquid crystals and incommensurate 
systems are additional important contributions to the theoretical 
understanding of condensed matter.

    Chairman Miller. Thank you, Dr. Brinkman.
    We will now begin with our first round of questions and the 
Chair now recognizes himself for five minutes.
    Dr. Brinkman, I know that you joined in DOE in 2009 so the 
obvious criticisms don't apply to you personally. I know that 
you probably don't want to be harshly critical, publicly of the 
people who now work for you but it does seem obvious with 
benefit of hindsight that this was coming and that DOE not only 
as the only domestic source for helium-3 but is a major 
consumer of helium-3 should obviously have known what the 
demand was and what the supply was and seen this coming, and 
even apparently DHS, we might fault them for not being more 
aggressive about assuring that there was a sufficient supply, 
apparently did inquire and DOE said no problem. How did that 
happen?
    Dr. Brinkman. As you point out, I wasn't around to witness 
that. The only thing I can say is that at the time the Russians 
were putting a lot of helium-3 onto the market as well as the 
DOE and I think that confused the picture somewhat as to what 
was actually going on in the marketplace and it was only around 
2008 when people started to really realize what was happening 
and then the Russian source dried up and so there was a 
sequence of events that happened there that--look, I don't want 
to defend the situation because it is unfortunate that this 
wasn't recognized earlier but there was a sequence of events 
there that led to some confusion.
    Chairman Miller. You mentioned earlier that you have now 
had a conference on isotopes, rare isotopes. Although I know 
that helium-3 was discussed at that, it doesn't appear that the 
participants in the conference came away with an oh, crap kind 
of feeling about it. There was an understanding that there was, 
you know, some shortage but not quite a crisis. What are you 
all doing now to identify whether there are other isotopes that 
may have a supply or demand that greatly exceeds the supply and 
that we aren't developing technologies that will depend upon a 
material that is not there?
    Dr. Brinkman. Well, first of all, the program has been 
moved to the nuclear physics office rather than the nuclear 
energy office. The nuclear energy organization is really 
interested in reactors, not isotopes. However, the nuclear 
physics organization is an organization which is very much 
interested in isotopes, rare isotopes of various types to learn 
more about nuclear physics and nuclear structure, and so it has 
a much bigger presence in isotope development and now of course 
manages all of our isotope development that we do internally. 
So it is responsible for exactly what you are asking for, where 
things will go wrong.
    We of course, have had another crisis as you know in moly 
99, and it was ameliorated again by an interagency office, and 
we are working at looking very carefully for future ways of 
generating that particular isotope and have made progress on 
how to do that commercially.
    Chairman Miller. The Chair now recognizes Dr. Broun for 
five minutes.
    Mr. Broun. Thank you, Mr. Chairman.
    Coming back to Dr. Brinkman, you mentioned moly 99 as a 
problem. Helium-3 obviously from this hearing is a problem. How 
about other isotopes? Have you identified other isotopes that 
are susceptible to similar shortages, and if so, what other 
technologies should we be utilizing to seek alternatives to 
those isotopes?
    Dr. Brinkman. Those are the only two known to me that we 
have to worry about, but we have a workshop report in which we 
have gone through all the different isotopes that are used 
commercially and looked to see whether they are in short supply 
and what we need to supply them. So we have a full report on 
that, and we have gone through all of them. These two are the 
ones that I know have created recent crises, anyway. I don't 
believe we are in trouble on any others.
    Mr. Broun. Are you continuing an inventory on an ongoing 
basis of those just to make sure that we do not have a repeat 
of what we are having on helium-3?
    Dr. Brinkman. We sure try to.
    Mr. Broun. I certainly hope so.
    Dr. Brinkman, part of the reason we found ourselves in the 
current situation is the drawdown of nuclear weapons after the 
Cold War. What impact will the recently signed nuclear 
agreement with Russia have on helium-3 supplies?
    Dr. Brinkman. It is bound to reduce them further because 
the weapons program will eventually draw down the tritium 
supply that they need and so we really will have to find 
alternative sources, and that is what we are working on right 
now.
    Mr. Broun. What other isotopes are potentially impacted by 
that?
    Dr. Brinkman. I don't think there are any other isotopes 
impacted by the production of tritium, which is what you have 
to produce to make helium-3.
    Mr. Broun. All right, sir. Are we the only nation that 
provides helium-3 for IAEA monitors?
    Dr. Brinkman. Primarily, that is true.
    Mr. Broun. Is the United States bound by international 
agreements to supply helium-3 to the IAEA?
    Dr. Brinkman. You will have to answer that.
    Dr. Aoki. Well, the United States is not bound by 
international agreement but traditionally we have been the 
primary source of supply for the IAEA nuclear safeguards 
program. One of the things that we have done as the magnitude 
of the problem have become clear, we have encouraged the IAEA 
to actually pursue supplies from other countries. In 
particular, Russia would be one place they could go look, 
possibly some other countries, but we have really made sure 
that the IAEA is aware that we are probably not going to be in 
a position that we have been in the past to be the primary 
source of supply or sole source of supply for the material.
    Mr. Broun. Very good.
    Dr. Hagan, after helium-3 alternatives are developed for 
neutron detection, do you believe that further testing will 
need to be done at the Nevada test site?
    Dr. Hagan. You are talking about alternatives to helium-3?
    Mr. Broun. Yes, sir.
    Dr. Hagan. Yes. I would think that we would do that. We are 
testing a lot of--we tested some systems already at Los Alamos 
using relevant sources. With the type of--some of these 
detectors you can test them without having to actually use 
special nuclear material. You can use other sources of neutron. 
So it kind of depends on the particular technology. But if it 
is appropriate, we would certainly do that.
    Mr. Broun. And that will be an ongoing basis?
    Dr. Hagan. Oh, yes.
    Mr. Broun. How about the cost and schedule and impacts on 
them?
    Dr. Hagan. The cost of testing or cost of development of--
--
    Mr. Broun. All of it.
    Dr. Hagan. Well, I have got 47 seconds.
    Mr. Broun. No, I have 47 seconds, so you can take what you 
need.
    Dr. Hagan. Good point. All right. The costing varies of 
course with each technology so we have some that are more near 
term than others, some are longer term, and so I can't really 
give you an answer for all that we have approximately within 
DNDO, and there are other projects going on elsewhere in the 
government. But within DNDO, we have some two dozen projects to 
develop alternatives. On the average, I would say those are 
probably a million dollars now a--no, that is probably too 
high, half a million dollars a year, in that range, for that 
development. The testing, as I said, would depend on what type 
of sources we would need. If we could get by with so-called 
californium source to test for thermal neutron detectors, that 
could be done relatively cheaply and quickly. If we have to go 
to NTS or places where there is special nuclear material, that 
is very expensive. That is multimillions of dollars and many 
months.
    Mr. Broun. Okay. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Chairman Miller. Thank you, Dr. Broun.
    The Chair recognizes Mrs. Dahlkemper for five minutes.
    Mrs. Dahlkemper. Thank you, Mr. Chairman.
    Dr. Brinkman, how much money is the DOE spending to support 
the work being done by DNDO for looking at substitutes or other 
areas of research?
    Dr. Brinkman. I don't know that we are spending so much 
money on this. We are of course interested in alternative 
detectors too and we have this Second Line of Defense but I 
don't know the amount the Second Life of Defense program is 
spending on alternative detectors at this time. I just don't 
know that number. But that is one of the places where we are 
spending money. In addition, you know, one of the major users 
of helium-3 has been our neutron scattering and neutron 
experimental program at SNS at Oak Ridge. There we see some 
very big numbers that are needed but there is now an 
international community of people to do those kind of 
experiments and they are looking at alternative detectors too. 
So there is a fair bit of activity on the alternative detectors 
and a very broad base of work.
    Mrs. Dahlkemper. So you don't have any idea what you are 
spending? I mean, can you get back to me on that?
    Dr. Brinkman. We can get back to you on that, but I think 
Steve will have to an answer to that.
    Mrs. Dahlkemper. Mr. Aoki?
    Dr. Aoki. There is a research and development program 
within the National Nuclear Security Administration that 
includes funding for nuclear detector development which is now 
prioritized, the identification of new neutron detection 
technologies that would provide a substitute for helium-3, and 
I think I was told this morning that it is something like $7 
million a year but I would want to confirm that and get back to 
you.
    Mrs. Dahlkemper. If you could confirm that and get back to 
me, I would appreciate it.
    [The information follows:]

    There has been an ongoing research effort investigating non-He3 
based detectors (prior to the issue's being raised in 2008-2009). The 
level of funding in 2009 was increased to accelerate existing efforts, 
address the problem of large-area detectors, and fund a more serious 
look at possible longer term solutions. At this point, the researchers 
believe that increases in research funds beyond what is planned would 
experience diminishing returns on investment. Attached is a chart 
outlining the funding. The funds directed towards non-He3-based 
detectors were redirected from longer-term research and development 
efforts addressing other nonproliferation technologies such as fast-
neutron detectors and systems for active interrogation.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mrs. Dahlkemper. And so as you make that a priority, what 
happens to the funding for other pieces within that?
    Dr. Aoki. Well, you know, clearly one has to make some 
choices, and right now because of the time urgency, I think 
there has been a decision by that office to try to accelerate 
the work on the neutron detectors. Obviously there are possibly 
other detection systems that may therefore receive some lower 
priority.
    Mrs. Dahlkemper. And do you see that as being any kind of 
an issue going down the road similar to where we are at right 
now with the helium-3 issue?
    Dr. Aoki. I think, you know, clearly if one had no budget 
constraints, it would be nice to do all these.
    Mrs. Dahlkemper. Well, we do have budget constraints.
    Dr. Aoki. But since we do have budget constraints, we have 
to make these choices and this is one choice we have made in 
response to the current situation.
    Mrs. Dahlkemper. Dr. Hagan, I was interested in your 
statement that DNDO is funding programs to look at alternative 
neutron detection technology prior to even knowing of the 
helium-3 shortage. I didn't see any--I guess there was no 
evidence of this in the documents that we received here in the 
Subcommittee. I am just wondering what funding of alternative 
detection technologies you were engaged in prior to 2008, and 
if you can tell me about those efforts, their purpose and the 
amount that was being spent?
    Dr. Hagan. I would have to get back to you on exact 
numbers. I wouldn't want to--but it is on the order of a few 
million dollars starting in probably 2007, 2008 time frame.
    Mrs. Dahlkemper. Okay.
    Dr. Hagan. And the research was being done because it was--
you are always looking for better detectors and so even though 
helium-3 was not thought to be in short supply, we tend to do 
R&D to always make things better, or if not better, cheaper, 
and so that was sort of the thrust of the early research, and 
basically there are two ways--two common alternatives to 
detecting thermal neutrons. Instead of using helium-3, you can 
usually talk about using lithium-6 or boron-10 and so most of 
the work that was funded early on--not all of it, there are 
some other techniques.
    Mrs. Dahlkemper. Where was that funding coming from, I 
guess is what I am more trying to get at here?
    Dr. Hagan. It was form our transformational and applied 
research directorate. We had total funding for that effort back 
in 2006, I believe, was around $70 million and today is up 
around 109. So it has grown with time. And back in----
    Mrs. Dahlkemper. Where was this research being done at?
    Dr. Hagan. Oh, I see. Various places, universities, 
companies and laboratories, national laboratories, Los Alamos, 
Livermore. I don't know the--I have got the stuff here but I 
don't remember exactly.
    Mrs. Dahlkemper. If you could get back to me on that, that 
would be great. I would appreciate that. I know it is probably 
more information than you can really--any of us could keep in 
your heads. I appreciate that.
    I yield back. Thank you.
    Chairman Miller. Thank you, Mrs. Dahlkemper.
    The Chair recognizes Mr. Bilbray for five minutes.
    Mr. Bilbray. Mr. Chairman, with your pleasure, I would like 
to yield to the senior member of this panel, Mr. Rohrabacher, 
from the great city of Huntington Beach.
    Chairman Miller. Actually, Mr. Rohrabacher is not on this 
panel but he is recognized, I think without objection.
    Mr. Rohrabacher. He meant the senior member of the surfing 
caucus, is what he really meant.
    Chairman Miller. I think he just meant the oldest.
    Mr. Rohrabacher. That is good.
    Mr. Bilbray. To be blunt, I want to be nice to him while he 
is still around.
    Mr. Rohrabacher. The demand that we are talking about for 
helium-3 is how much per year now?
    Dr. Brinkman. Demand seems to be around 20,000 liters.
    Mr. Rohrabacher. Twenty thousand liters, and is that just 
the United States or that worldwide?
    Dr. Brinkman. That is the United States--well, pretty much 
worldwide. It involves cryogenics internationally.
    Mr. Rohrabacher. The entire demand for helium-3 worldwide 
is 20,000 liters. Is that what I'm getting here?
    Dr. Brinkman. That is roughly right.
    Mr. Rohrabacher. Okay. And what is the price per liter?
    Dr. Brinkman. Well, that is very variable. We think it is 
around between $350 and $400 a liter, but some of my friends 
out in the world claim that it is higher than that.
    Mr. Rohrabacher. Okay. So----
    Dr. Brinkman. But it is certainly not more than $1,000 at 
this point.
    Mr. Rohrabacher. Not more than $1,000, not less than $300?
    Dr. Brinkman. That is right.
    Mr. Rohrabacher. All right. And how much does a liter of 
helium-3 weigh?
    Dr. Brinkman. A liter is roughly one-twentieth of a mole, 
so it probably weighs three grams divided by 20, so what is 
that, .06 grams or something like that.
    Mr. Rohrabacher. Tell me in pounds. I am sorry.
    Dr. Brinkman. Pounds? Oh, my goodness. It weighs less than 
an ounce.
    Mr. Rohrabacher. Less than an ounce?
    Dr. Brinkman. Yes.
    Mr. Rohrabacher. Way less than an ounce? Does anyone here 
have a more accurate figure on that in terms of the weight?
    Dr. Aoki. A gram of helium-3 is seven liters.
    Dr. Brinkman. A gram of helium-3, but he wants it in 
ounces.
    Mr. Rohrabacher. Is what now?
    Dr. Brinkman. A gram is--an ounce is several grams, so it 
is very small.
    Mr. Rohrabacher. When you say less than an ounce per 
liter----
    Dr. Brinkman. It is a gas after all.
    Mr. Rohrabacher. A half an ounce or closer to----
    Dr. Brinkman. It is probably less than a tenth.
    Mr. Rohrabacher. A tenth of an ounce?
    Dr. Brinkman. I am thinking in my head.
    Mr. Rohrabacher. Okay. So I am trying to get a grip on----
    Dr. Brinkman. Yes, it is very small, but, you know, it is--
--
    Mr. Rohrabacher. So a tenth of an ounce would be $1,000?
    Dr. Brinkman. You are right. It is expensive.
    Mr. Rohrabacher. Now, the reason why I am trying to get to 
this is that we do know--and by the way, I have appreciated the 
testimony talking about the alternatives that we have and 
recycling and alternative approaches and et cetera, and also 
the concept of maybe getting this out of natural gas and seeing 
if we can explore that avenue, but one thing that we haven't 
talked about today is the possibility of helium-3 from the 
moon, which is something that has not escaped our international 
competitors. Now, if we are talking about $1,000 for a tenth of 
an ounce, and this is in what form at that point? Is it liquid 
or is gas at that point?
    Dr. Brinkman. At room temperature, it is obviously a gas. 
It is only a liquid at extreme low temperatures of a few 
Kelvin.
    Mr. Rohrabacher. So it would be in gas form, so if we 
actually had some type of system on the moon, you could 
actually put this into a tank and then transport it. Is that 
correct?
    Dr. Brinkman. You have to remember though, a tank is 20,000 
liters, so it is a fairly big tank, and it is a long way to the 
moon.
    Mr. Rohrabacher. Right, but I am not thinking about 
necessarily having the entire supply of helium-3 for the world 
transported in one moon mission, just like you wouldn't have 
one coal train providing all of the coal for the United States. 
It would seem to me that what you have told me would be--we 
right now have a group of entrepreneurs who are trying to 
decide what space programs, projects they will invest in that 
would have a future profit. It sounds like to me that that 
might be penciled out.
    Dr. Brinkman. Well, you could try that. You know, my own 
guess would be that I would rather generate tritium at some 
nuclear reactor and convert it into helium-3 than try to go all 
the way to the moon to get it.
    Mr. Rohrabacher. Okay. Let me ask you this. What would the 
cost of that be?
    Dr. Brinkman. We don't really have an accurate number for 
that yet. That is where we are.
    Mr. Rohrabacher. Could that also be up to $1,000----
    Dr. Brinkman. A liter?
    Mr. Rohrabacher. A liter.
    Dr. Brinkman. It could well be.
    Mr. Rohrabacher. Mr. Chairman, I would just suggest that in 
the world that we live in today, considering that we did go to 
the moon all those many decades ago that we might actually have 
a reason to go back to the moon if this can be done 
successfully.
    Dr. Brinkman. Well, let us be a little careful here. 
Remember that $1,000 a liter, that is only $20 million a year 
for the business, so that is not very big business.
    Mr. Broun. Mr. Chairman, I think we ought to have a CODEL 
to go check that out, and I want to sign up.
    Chairman Miller. And none of us weigh as much as what you 
would be bringing back.
    Mr. Rohrabacher. So you would say that the demand is 
actually--when you were looking at the scenario that I am 
creating here, that the demand is too low to actually justify 
some kind of a mission that would cost----
    Dr. Brinkman. My general impression, the mission is a 
billion dollars, at least, right? I mean, probably more. A 
billion dollars is one shuttle flight. And so if you----
    Mr. Rohrabacher. Well, that is when the government is doing 
it. The Administration is trying to privatize this now.
    Dr. Brinkman. More power to them.
    Chairman Miller. Mr. Rohrabacher's time is expired.
    Mr. Rohrabacher. Thank you very much.
    Chairman Miller. The Chair recognizes Mr. Davis for five 
minutes.
    Mr. Davis. We have one of the folks who will testify later 
that I really wanted to introduce, so for that reason, I will 
hang around but I would like to yield my time back to you or 
any other member on the majority side.
    Chairman Miller. I will accept that time just to ask one 
question of Dr. Brinkman. You said that the whole supply of 
helium was complicated by the fact that some was coming from 
Russia. It seems odd, although we are now trying to develop a 
better relationship than we had with the Soviet Union, a 
subject near and dear to Mr. Rohrabacher's heart, they are 
still not exactly our BFF. We are kind of natural competitors 
with Russia, not best friends forever, and it seems odd that we 
would rely upon Russian supply for something so obviously 
critical to our national security needs.
    Dr. Brinkman. I think they--I am sorry. I am not familiar 
with all this but I believe they dumped their helium-3 onto the 
market not through their government.
    Chairman Miller. And did you have any idea of how much more 
there was, how much more helium-3 there might be coming from 
that source? I mean, obviously there was a mistake in not 
seeing this coming, but it is odd that the supply from Russia 
did in fact complicate the ability to see this coming quite so 
much, particularly for something so obviously critical to 
national security needs.
    Dr. Brinkman. It is just one of the things. I would not 
want to claim that that was the only driving factor in this 
crisis at all, but it was certainly--it has played a role. Let 
us put it that way.
    Chairman Miller. Actually Mr. Rohrabacher used up Mr. 
Bilbray's time and now you----
    Mr. Rohrabacher. I will yield to Mr. Bilbray.
    Chairman Miller. All right.
    Mr. Bilbray. Thank you, Mr. Chairman.
    I would solicit comment from any one of the doctors for 
this. I have been in government since I was 25 years old. I was 
elected April of 1976, before Jimmy Carter. That is how long I 
have been hanging around. And the one thing that has become 
very obvious to me is, those of us in government in our quest 
to try to stop people from doing wrong, we have legislated 
ourselves into a position where so often we stop people from 
doing good and correcting. My question to you is that, you talk 
about this ability to somewhere in the future build and operate 
a facility that can then provide the service after--remember, 
we have 12 years we have to wait for a certain natural process 
to occur. Do we have any plans? Have we sited? Do we permit? 
What do we have online right now, Doctor, to be able to move 
the agenda to build the facility to produce the components that 
we need to keep the supply flowing?
    Dr. Brinkman. Well, presently we still have the processing 
capability that was part of the weapons program and probably 
you could use that for the private purpose of creating helium-
3. The issue is where do you get the tritium that you could use 
in that process. The process is available to us and so the big 
issue is what the source is, and even in the case of the 
source, we could go back to irradiating samples in reactors in 
this country. That is the way it was done in the weapons 
program, and create the tritium and let it decay and----
    Mr. Bilbray. My question is, we could go back, but where 
and has it been permitted? Is it legal for these facilities to 
go back and do that now? Does the regulatory process allow them 
to go back and are we--have we sited this? Because it is one 
thing to say we need to do this or we should do it. It is 
another thing when we sit there and say yeah, we ought to do it 
and come the 11th hour we block it from getting a permit to go 
into operation. We have seen that with this issue for the last 
30 years.
    Dr. Brinkman. I do not know of any legal blocking of this. 
The issue we are--the main issue with this approach is just how 
much it is going to cost because it looks like it is expensive.
    Mr. Bilbray. How many facilities do we have in the country 
that make it?
    Dr. Brinkman. The way the process used to work, we used 
various reactors to expose--to create the tritium and then 
everything moved--was moved to Savannah River and Savannah 
River did the processing.
    Chairman Miller. The gentleman's time has expired. We do 
have a second panel and we probably have votes at 11:30 or so.
    Dr. Hagan, there seems to be something you were burning to 
say.
    Dr. Hagan. Thank you. I appreciate that. I just wanted to 
comment that in addition to going back and making more helium-3 
through other means, I also wanted to answer a question from my 
own Congressman. I live in your district. I wanted to be able 
to say that. But these other technologies in the past may not 
have been as viable because of the cost but as the cost of 
helium-3 rises, they become more and more viable, so I think it 
may be quite likely in my mind that the future will lie with 
these kinds of things, not going back and having to sort of 
resurrect the helium-3 production through tritium decay. Thank 
you.
    Chairman Miller. Thank you. We will now take a short break 
and have our second panel, and I want to obviously thank this 
panel for your testimony today. Thank you.
    [Recess.]

                               Panel II:

    Chairman Miller. We are back. It is now time to introduce 
our second panel, and I will begin by recognizing Mr. Davis to 
recognize or introduce Dr. Woods.
    Mr. Davis. Mr. Chairman, thank you very much. Our good 
friend, John Tanner from West Tennessee, had other meetings and 
could not stay to make the introduction. We certainly welcome 
you here today and look forward to your testimony and look at 
the work you have performed and your impact. Thank you for 
being here and thank you for agreeing to join us today with 
your testimony. Welcome.
    Chairman Miller. Okay. I am now pleased to introduce the 
balance of our panel. Mr. Tom Anderson is the Production 
Manager at Reuter-Stokes Radiation Measurement Solutions at GE 
Energy. Mr. Richard Arsenault is Director of Health, Safety, 
Security and Environment at ThruBit LLC. And Dr. William 
Halperin is the John Evans Professor of Physics at Northwestern 
University of Illinois.
    As all of you should know from having been here before, we 
do allow five minutes for spoken testimony. Your written 
testimony will be included in the record. After your spoken 
testimony, each member will have five minutes to question the 
panel.
    It is our practice to take testimony under oath. Do any of 
you have any objection to taking an oath? The record should 
reflect that all of the witnesses shook their head to indicate 
they had no objection to taking an oath. You also have the 
right to be represented by counsel. Do any of you have counsel 
here? And the record should reflect that all the witnesses 
shook their heads that they did not have counsel here. If you 
would now please now stand and raise your right hand, and if 
anyone in the audience wishes to be sworn in, you may stand as 
well. Do you swear to tell the truth and nothing but the truth?
    The record should reflect that all the witnesses have now 
taken the oath. We will start with Mr. Tom Anderson. Mr. 
Anderson, you are recognized for five minutes.

   STATEMENT OF TOM ANDERSON, PRODUCT MANAGER, REUTER-STOKES 
           RADIATION MEASUREMENT SOLUTIONS, GE ENERGY

    Mr. Anderson. Mr. Chairman, members of the Subcommittee, my 
name is Tom Anderson and I am the product line leader for GE 
Energy's Reuter-Stokes Radiation Measurement Solutions. I 
appreciate the opportunity to provide my perspective on the 
helium-3 shortage.
    GE Energy's Reuter-Stokes legacy dates back to the early 
years of the nuclear industry. We manufacture in-core sensors 
and accurately measure neutron power levels under the extreme 
temperature and radiation conditions prevalent in boiling-water 
reactors. We also design and manufacture a variety of products 
that are used in oil and gas exploration including helium-3 
neutron detectors, gamma sensors and systems to navigate and 
locate oil and gas reservoirs thousands of feet under the 
earth's surface. We also use helium-3 to manufacture neutron 
detectors for homeland security, nuclear safeguards and neutron 
scattering research facilities.
    GE Energy's Reuter-Stokes facility in Twinsburg, Ohio, is 
the largest manufacturer of helium-3 neutron detectors in the 
world. In my written testimony, I described in detail the 
important systems and applications that have come to rely on 
GE's helium-3 neutron detectors. This morning I want to 
emphasize two points. First, an adequate supply of helium-3 
must be made available to support critical applications such as 
nuclear safeguards and oil exploration while replacement 
technologies are developed. Second, federal funding is 
essential to accelerate development of alternate neutron 
detection technologies.
    The need to act is critical. The Department of Energy's 
helium-3 reserves have been depleted to approximately 50,000 
liters. To put this in perspective, GE has purchased over 
100,000 liters of helium-3 from the DOE since 2003. Since 9/11, 
GE has manufactured over 40,000 helium-3 detectors which 
support homeland security and nuclear safeguards programs.
    DNDO and the Integrated Project Team have played a key role 
in responding to the helium-3 shortage. I believe DNDO is 
exploring the most practical options available to produce 
helium-3. Short of planning a trip to the moon, as was 
discussed this morning, to mine helium-3, the most promising 
near-term prospect is to accelerate work with the Canadian 
government to harvest the helium-3 from the tritium storage 
beds at Ontario Power Generation. Expeditious recovery and 
processing of this gas could be used to sustain helium-3 
detectors for applications such as oil exploration and nuclear 
safeguards while replacement technologies are developed.
    As we look for additional supplies, it is critical that the 
Federal Government strengthen its support of research and 
development for alternative technologies. There is currently no 
drop-in replacement technology and as many as six different 
technologies may be required to support the neutron detection 
needs in the various applications I just described. GE is well 
on the way to completing development of a boron-10 neutron 
detection panel for radiation portals used in homeland 
security. This required considerable investment by GE and will 
involve significant facility and process modifications.
    I have personally been involved in over 10 new technology 
and product development programs during my time at GE. Not all 
have been successful. If I leave you with one thought today, it 
would be this: It is one thing to invent a technology to solve 
our problem, but it is an entirely separate set of challenges 
that industry faces to then take that science, craft it into a 
product that is scalable in form, fit and function that can 
operate over the full range of environmental extremes, a 
product that is reliable with relatively long service life and 
minimal maintenance requirements, a product which thousands or 
even tens of thousands could be manufactured at a reasonable 
cost with quality and consistent performance.
    The magnitude of these challenges illustrates the need for 
federal investment. We must develop new technologies and 
maximize available helium-3 supplies to avoid being caught 
again by surprise.
    Thank you for inviting me to testify today. I look forward 
to your questions.
    [The prepared statement of Mr. Anderson follows:]

                Prepared Statement of Thomas R. Anderson

    Mr. Chairman and members of the Subcommittee, my name is Tom 
Anderson and I am the Product Line Leader for GE Energy's Reuter Stokes 
Radiation Measurement Solutions. I appreciate the opportunity to 
testify before this Committee today.
    I have been asked to speak about the impact the Helium-3 shortage 
has had on our business and our customers, and to share with the 
Committee our ideas on how to manage this problem in the future.
    GE Energy's Reuter Stokes has over 50 years of experience supplying 
radiation detectors. We design and manufacture detectors for Boiling 
Water Reactors (BWR), neutron scattering instruments, oil and gas 
exploration, homeland security and nuclear safeguards systems. Our BWR 
in-core detectors monitor reactor power levels and provide signals to 
initiate protective actions in the event of an abnormal condition. Our 
Helium-3 gas-filled neutron detectors are used to accurately account 
for nuclear materials during handling and processing. Over 35,000 GE 
Helium-3 detectors are installed in systems deployed around the world 
today to monitor for the illicit trafficking of smuggled nuclear 
materials. I look forward to providing you with GE's perspective on the 
consequences of the Helium-3 supply crisis.
    According to information presented at the Helium-3 Workshop hosted 
by the American Association for the Advancement of Science on April 6, 
2010, the Department of Energy's Helium-3 reserves have been depleted 
to approximately 50,000 liters, with future production rates expected 
to be less than 10,000 liters per year. With global demand now on the 
order of 70,000 liters per year, the total DOE reserve represents less 
than a one-year supply of Helium-3. As a consequence, GE is confronting 
the reality that Helium-3 for use in neutron detectors may soon no 
longer be available.
    In my testimony, I will address two points. First, a drop-in 
replacement technology for Helium-3 does not exist today. Furthermore, 
as many as six different neutron detection technologies may be required 
to best address the performance requirements of the neutron detection 
applications GE has served historically with technology using Helium3. 
Significant research is required immediately, and Federal funding is 
essential to accelerate development of new neutron detection 
technologies, and thereby preserve the remaining Helium-3 supply for 
other uses. Second, an adequate supply of Helium-3 must be made 
available by DOE and the Interagency Project Team (IPT) to support 
critical applications such as nuclear safeguards, homeland security and 
oil exploration while alternate technologies are developed.

Background

    GE Energy's Reuter Stokes business is located in Twinsburg, Ohio. 
Beginning with our first gas-filled neutron detector in 1956, GE has 
become a global leader in designing and manufacturing gamma and neutron 
detection technologies for a wide variety of applications.
    Many of the Boiling Water Reactors (BWR) in operation in the United 
States today rely on GE detectors to measure and monitor reactor power 
level. Several U.S. states, as well as South Korea and Taiwan, have 
installed networks of Environmental Radiation Monitors manufactured by 
GE to monitor low-level gamma radiation.
    GE also manufactures a variety of products for use in the oil and 
gas drilling and logging industry. These include sophisticated 
instruments to navigate a drill string; gamma radiation detectors to 
determine the type of rock and formation density; resistivity tools to 
measure formation properties and Helium-3 neutron detectors to measure 
formation porosity. The data from this full suite of detectors is 
integrated to optimize oil exploration.
    During its long history, GE has designed and manufactured an 
assortment of BF<INF>3</INF>, Boron-10 lined, and Helium-3 gas-filled 
neutron detectors. Over 100,000 of our Helium-3 neutron detectors have 
been put in service during the past four decades. Our neutron detectors 
have been utilized in a wide variety of neutron scattering research, 
nuclear safeguards, oil and gas, and homeland security systems.
    Recently in the media, there has been much excitement and 
speculation about the presence of water on the Moon and on Mars. Our 
Helium-3 detectors have been used for space exploration where the 
unique properties of Helium-3 support water exploration at temperatures 
approaching absolute zero.
    GE purchases the majority of its Helium-3 gas from the Department 
of Energy. The Helium-3 is processed and then used to manufacture 
Helium-3 neutron detectors. Our company does not otherwise bottle or 
package Helium-3 for sale.
    The following sections provide background on four of the larger 
applications that use Helium-3 neutron detectors.

Neutron Scattering Research

    Neutron scattering facilities conduct fundamental science, 
materials, electromagnetics, food and medical research by directing a 
beam of conditioned neutrons at a test specimen and accurately 
measuring the position and timing of the scattered neutrons. GE is the 
industry leader in engineering and manufacturing Helium-3 gas-filled, 
position-sensitive neutron detectors for neutron scattering research 
facilities located around the globe. The three largest facilities in 
the United States are the Spallation Neutron Source (SNS) located at 
Oak Ridge National Laboratory, the National Institute of Standards and 
Technology (NIST) Center for Neutron Research (NCNR) in Gaithersburg, 
MD and the Los Alamos Neutron Science Center (LANSCE) located at Los 
Alamos National Laboratory (LANL). International facilities include the 
Japan Proton Accelerator Research Complex (JPARC), Rutherford Appleton 
Laboratory (UK), and Institut Laue-Langevin (France) as well as 
facilities located in Germany, South Korea, the Netherlands, Australia, 
and China. The research conducted at neutron scattering facilities has 
led to a long list of landmark discoveries including a better 
understanding of neurological and genetic diseases such as Huntington's 
disease, potential improvements in solar energy conversion, and 
advances in superconducting materials, to name but a few.\1\
---------------------------------------------------------------------------
    \1\ Additional information is available on the Oak Ridge National 
Laboratory website: http://neutrons.ornl.govJfacilities/SNS/history/.
---------------------------------------------------------------------------
    Neutron scattering facilities represent a significant government 
research investment. The majority of the construction budget is used to 
build the neutron source, the accelerators and the infrastructure 
needed to support the scattering instruments. The construction cost for 
the SNS facility was $1.4 Billion.\2\ The design and construction of 
the individual scattering instruments, including the Helium-3 
detectors, is typically among the last tasks to be completed. The 
instrument arrays vary in size from tens of detectors to over 1,000 
Helium-3 detectors per instrument. Instrument construction at many 
scattering facilities located outside the United States is currently on 
hold due to the lack of Helium-3.
---------------------------------------------------------------------------
    \2\ Id.
---------------------------------------------------------------------------
    Neutron scattering instruments require detectors with extremely 
fast response, high neutron sensitivity and excellent gamma 
discrimination. The detectors must provide accurate position and timing 
information for the scattered neutrons.

Nuclear Safeguards

    The purpose of nuclear safeguards programs is to prevent diversion 
of nuclear materials for non-peaceful purposes. Nuclear safeguards 
systems are installed at facilities that process, handle, use and store 
plutonium, uranium, nuclear fuel, spent fuel or nuclear waste. 
Safeguards systems quantify and monitor nuclear material to enable 
facilities to precisely account for plutonium and uranium during all 
aspects of processing, storage and clean up. The International Atomic 
Energy Agency (IAEA) and the National Nuclear Security Administration 
(NNSA) via the National Laboratories sponsor a number of international 
safeguards programs such as the new reprocessing facility that is under 
construction at the Rokkasho Reprocessing Complex in Japan.
    Nuclear safeguards systems are typically compact. The detectors 
must have high neutron sensitivity and excellent gamma discrimination 
to enable accurate neutron measurements. The extremely fast response of 
Helium-3 detectors makes certain measurements possible. Helium-3 
detector performance can be further tailored to permit highly precise 
nuclear material assay. This is a key element in accurately accounting 
for nuclear materials.

Oil and Gas

    Helium-3 neutron detectors are also widely used in oil and gas 
exploration. These detectors are used in conjunction with a neutron 
source to locate hydrogenous materials such as oil, natural gas, and 
water. Neutron measurements in conjunction with inputs from other drill 
string instruments are used to locate hydrocarbon reservoirs during 
drilling, and to further delineate the reservoirs during logging 
operations. The overwhelming majority of nuclear porosity tools used in 
the oil and gas industry today depend on the unique properties of 
Helium-3 neutron detectors.
    Helium-3 neutron detectors have high neutron sensitivity, which 
enables them to be packaged to fit inside the tool string. The 
excellent gamma discrimination characteristic of Helium-3 means that 
background gamma radiation levels do not interfere with the accuracy of 
the neutron measurements. These detectors must also operate reliably 
and survive at temperatures up to 200C under severe vibration and 
shock levels up to 1,000 times the force of gravity. It is likely that 
without Helium-3, exploration for new reserves, development drilling of 
existing fields, and logging of both new and existing wells will be 
severely curtailed until an alternative technology is developed.

Homeland Security

    The demand for Helium-3 neutron detectors has increased 
significantly since 9/11. Helium-3 is used as a neutron detector 
technology throughout the full spectrum of homeland security 
instruments, ranging from small 3/8" diameter detectors installed in 
pager-sized systems to six-foot long detectors installed in large area 
Radiation Portal Monitors (RPM). GE's Helium-3 detectors are widely 
used in radiation pagers, handheld instruments, fission meters, 
backpacks, mobile systems and RPMs that are deployed to search for and 
detect the illicit trafficking of fissile radioactive materials. 
Homeland security systems, particularly the RPMs, require a significant 
amount of Helium-3.
    GE's Helium-3 neutron detectors are installed in systems supporting 
Customs and Border Protection (DHS), the Second Line of Defense (SLD)/
Megaports Program (DOE) and the Advanced Spectroscopic Portal (ASP) 
Program (DHS). We have also manufactured thousands of Helium-3 
detectors for other DHS, DOE (NNSA), Department of Defense (DoD), 
Department of Justice (DOJ), and other local and state security 
programs.

Helium-3 Supply Concerns

    The Department of Energy has been selling isotopes for several 
years. In December 2003, the DOE auctioned 95,800 liters\3\ of Helium-
3. An additional 50,848 liters were auctioned between 2005 and 2006.\4\ 
After the last auction sale of Helium-3 in July 2006, there were 
repeated delays in the periodic auction process. In May 2008, GE met 
with the DOE to request clarification on the next anticipated auction 
date. It was during this May 2008 meeting that GE first became aware of 
the potential shortage of Helium-3. In July 2008, the Department of 
Homeland Security's Domestic Nuclear Detection Office (DNDO) and the 
NNSA were briefed on the possibility that future supplies of Helium-3 
might be inadequate to fully support their programs.
---------------------------------------------------------------------------
    \3\ Invitation for Bids to Purchase He-3 gas, Amendment 2, posted 
November 20, 2003.
    \4\ US DOE Helium-3 (He-3) Sales Solicitations (2005, 2006).
---------------------------------------------------------------------------
    DOE suspended the anticipated 2008 auction and in December 2008 
made a direct allocation of approximately 23,000 liters of Helium-3 to 
GE and Spectra Gases, Inc. Seventy percent of the Helium-3 sold to GE 
was controlled by NNSA for the Second Line of Defense (SLD) Program. 
There has been no additional Helium-3 auctioned by the DOE, and since 
2008, all DOE gas supplied to GE has been allocated to specific 
projects or programs.
    The impact of the Helium-3 shortage was immediate. GE was no longer 
able to supply products to many programs and customers. The neutron 
scattering community has been hardest hit, with programs in Japan and 
Germany having the most immediate need. The construction of several 
scattering instruments outside the United States will be delayed until 
a source of Helium-3 can be identified or an alternate technology is 
made available.
    Upon learning of the Helium-3 shortage, GE designed and built 
equipment to more efficiently reclaim Helium-3 from unused detectors. 
Helium-3 is a stable gas, and therefore can be removed from old 
detectors, reprocessed and used to build new detectors. Recycled 
Helium-3 has been used over the past year to build neutron detectors 
for some systems.

Alternative Technologies

    A drop-in replacement for Helium-3 does not exist today. Federal 
research funding is essential to supplement private sector efforts to 
accelerate development of replacement technologies. I have discussed 
four applications that currently rely on Helium-3 neutron detectors. I 
have also briefly described the detector performance attributes 
required in each. Many of the applications share similar attributes, 
yet each has its own subtle differences. Up to six different neutron 
detection technologies may be required to replace Helium-3 detectors in 
these four applications.
    Three different technologies may be needed to support homeland 
security systems alone. The systems deployed for homeland security 
today range in size from large area portal systems and lightweight 
backpack instruments, to low-power pager-sized equipment. Neutron 
scattering detectors are even more complex due to the speed, timing and 
position measurement accuracies needed to support their research.
    Alternate technologies for nuclear safeguards and the extremely 
harsh conditions encountered during oil exploration also present unique 
development challenges.
    GE has been actively involved in developing alternate neutron 
detection technologies. GE's initial efforts have been focused on 
developing a replacement technology for portal monitors. RPMs have been 
the largest consumer of Helium-3 during the past seven years. GE 
recently completed development of a Boron-10 lined gas-filled neutron 
detection technology that meets the American National Standards 
Institute (ANSI), ANSI N42.35-2006 performance requirements for 
portals. This was an accelerated project, which from initial concept to 
first production is on track to be completed in 18 months. For this 
project, our Twinsburg team worked with scientists at the GE Global 
Research Center and leveraged production processes based on best 
practices from GE Consumer and Industrial businesses. GE is on schedule 
to begin production of Boron-10 lined neutron detection portal panels 
in July of this year.
    The research and new product development programs for the four 
neutron detection applications described will be challenging. Each new 
technology must the reliable and consistently meet the performance 
requirements needed for accurate neutron measurements under all system 
operating conditions. The technology must be scalable to fit the 
instrument and have a reasonable service life. Finally, the technology 
must be practical to manufacture in sufficient quantities at a 
reasonable cost, with consistent quality and performance.
    GE is well qualified to research and develop new neutron detection 
technologies. However, research and development programs of this scope 
are very expensive. DNDO has released Broad Agency Announcements (BAA) 
and a Request for Information (RFI) to seek information and provide 
funding for alternate neutron detection technologies for homeland 
security systems. I am not aware of similar programs at DOE. Nuclear 
safeguards, oil exploration, and neutron scattering facilities fall 
under different offices within DOE. Federal funding to support research 
in each of these areas is needed if replacement technologies are to be 
in place in time to avoid serious effects of the Helium-3 shortage.

Alternate Sources of Helium-3

    Helium-3 is generated from the radioactive decay of tritium. During 
the Cold War, both the United States and Russia produced tritium to 
support nuclear weapons stockpiles. Most of the Helium-3 available 
today was harvested from the tritium produced for the weapons program.
    Tritium is also produced as a byproduct of generating power in 
CANada Deuterium Uranium (CANDU) reactors. Four such reactors are 
located at Ontario Power Generation's (OPG) Darlington Generating 
Station in Ontario, Canada. GE has investigated the possibility of 
separating the Helium-3 from the tritium that is currently being stored 
at the Darlington facility. GE has been informed that the U.S. 
Government has initiated discussions with the Canadian government. If 
such discussions lead to an agreement, this might provide some 
additional Helium-3 to support critical applications while alternate 
technologies are developed.

Conclusion

    We have come to rely on Helium-3 for cutting-edge research, medical 
lung imaging, cryogenic cooling, oil and gas exploration, and the 
radiation monitors that protect our borders. The Department of Energy's 
Helium-3 reserve is nearly depleted and there are no short-term 
solutions available to rectify the shortage. An Interagency Project 
Team has been established to manage the shortage and to make the 
difficult decisions to allocate the remaining limited supply of Helium-
3.
    DNDO has played a key role in addressing the shortage, however, 
there is much more to be done. It is critical that the federal 
government strengthen its support of research and development for 
alternate technologies. Specifically, DOE funding of research and 
development programs for oil and gas exploration, neutron scattering 
and nuclear safeguards is essential. Funding and collaboration with the 
National Laboratories could help accelerate technology development. 
Also, additional funding from DNDO would help accelerate development of 
technologies for homeland security. Finally, it is extremely important 
that the Interagency Project Team allocate adequate supplies of the 
remaining Helium-3 to support critical applications such as oil 
exploration and nuclear safeguards while alternate technologies are 
developed. Given the limited Helium-3 supply, the Federal government 
should consider moving forward on negotiations with the Canadian 
government so that Helium-3 can be produced from the tritium currently 
being stored at the CANDU Darlington facility. This is not a long-term 
solution, but it may help provide a supplemental supply of Helium-3 
while alternative solutions are found.
    Thank you for holding this hearing on this critical issue. I will 
be glad to answer any questions you may have.

                    Biography for Thomas R. Anderson

    Tom Anderson is the Product Line Leader for GE Energy's Reuter 
Stokes Radiation Measurement Solutions. In this capacity, he is 
responsible for new product development, product quality, and all 
aspects of engineering and manufacturing for neutron detection products 
used in security and research applications. He reports to the General 
Manager of GE Energy's Reuter Stokes.
    From December 2000 until his current assignment in 2003, Tom served 
as Product Line Leader for GE Reuter Stokes Harley Electrical Equipment 
Group and GE's Silicon Carbide Gas Turbine Flame Sensor products.
    Prior to joining GE, Tom served in the U.S. Navy. He retired as a 
Commander in 2000. Tom served as Executive Office on the submarine USS 
Benjamin Franklin (SSBN 640) (GOLD) and submarine tender USS L.Y. SPEAR 
(AS 36). His shore assignments included a tour of duty at the On-Site 
Inspection Agency where he led weapons inspection teams into the former 
Soviet Union in support of the Intermediate Nuclear Forces (INF) and 
the Strategic Arms Reduction Treaties (START). Tom's naval career 
culminated with his assignment as the Deputy Assistant Chief of Staff 
for the Nuclear Weapons Inspection Center on the staff of Commander 
Submarine Forces, U.S. Atlantic Fleet. In this capacity, Tom was 
responsible for submarine force nuclear weapons policy, safety and 
security.
    Tom graduated from the U.S. Naval Academy in 1976 with a Bachelor 
of Science in Electrical Engineering. He later studied at the Naval 
Postgraduate School in Monterey, California where he earned a Master of 
Science in Electrical Engineering. Tom is also a 1997 graduate of the 
U.S. Army War College.

    Chairman Miller. Thank you.
    Mr. Arsenault is recognized for five minutes.

   STATEMENT OF RICHARD ARSENAULT, DIRECTOR, HEALTH, SAFETY, 
             SECURITY AND ENVIRONMENT, THRUBIT LLC

    Mr. Arsenault. Chairman Miller, Ranking Member Broun and 
members of the Committee, my name is Richard Arsenault. I am 
the Director of Health, Safety, Security and Environment along 
with being the Corporate Radiation Safety Officer of ThruBit 
LLC, which is a Shell Technology Ventures Fund I portfolio 
company formed in 2005. Today we offer logging solutions based 
on a unique patented through-the-bit deployment technique that 
provides significant advantage in many applications. We are a 
small company taking this new technology from proof of concept 
to commercial introduction with aspirations to grow into a much 
larger company. I have been involved in the oil well logging 
industry since 1979 starting out as an open hole wireline 
engineer in West Texas and later got involved in the early 
stages of logging while drilling in 1982.
    Neutron logging: Wells can be logged by wireline logging or 
LWD logging, known as logging while drilling. There are a 
number of formation measurements that are taken when a well is 
logged. Neutron logging is one of the primary measurements 
taken when a well is logged. The neutron measurement provides 
the hydrogen located in the pore space of the formation and the 
porosity is determined from neutron count rates in the 
detectors within the logging tool. The neutron measurement is a 
primary gas indicator which helps delineate gas and oil 
producing zones along with providing the porosity of the 
formation.
    Both wireline and LWD tools will in most cases have a long 
space and short space helium-3 detector which are located at 
different distances from the radioactive sources mounted in the 
logging tool. The helium-3 detectors are used with either 
americium-241 beryllium or californium-252 radioactive sources.
    The importance of helium-3 supply to the oil industry is 
critical and crosses into numerous sectors of the industry. 
Helium-3 is used in almost the entire neutron detectors 
incorporated into downhole tools in our industry. The neutron 
count rate measurement, from which the porosity measurement is 
derived, is used in oil and gas reservoir evaluations. Even 
small errors in the neutron measurement can make the difference 
in whether a reservoir is commercially viable or not.
    Oil and gas exploration within the United States is a vital 
part of our national security and lessens our dependence on 
foreign oil and gas. The shortage of helium-3 is starting to 
impact our entire industry. As rig counts increase and the 
request for well logging increases it will require more tools 
to be in service ready to go. Large companies can take 
stockpiles of tools not in service during the slowdown in the 
last two years and put them back in service. Smaller companies 
which have less of a stockpile of tools not in service to pull 
from are unable to do so. With small companies such as ThruBit 
trying to increase our market penetration, it creates an extra 
hardship limiting our ability to grow and bring our new 
technology to the marketplace. Large companies have financial 
and human resources to pursue extensive research and 
development in looking for potential alternatives in detector 
technologies. Smaller companies are not as fortunate. They 
cannot afford extensive research and development. Their 
commercial viability comes into question along with their 
ability to sustain their business. These smaller companies are 
also in a situation where they cannot afford the extensive 
research and development of looking at alternatives to their 
current supply of tools.
    I want to personally thank you for the opportunity to 
discuss this important issue involving the oil and gas well 
services industry today.
    [The prepared statement of Mr. Arsenault follows:]
               Prepared Statement of Richard L. Arsenault

Introduction

    Chairman Miller, Ranking member Broun, and members of the 
Committee, my name is Richard Arsenault and I am the Director of 
Health, Safety, Security and Environment along with being the Corporate 
Radiation Safety Officer for ThruBit LLC (ThruBit Logging Solutions) 
which is a Shell Technology Ventures Fund 1 BV Portfolio company formed 
in 2005. Today we offer complete logging solutions based on a unique 
patented ``through the bit'' deployment technique that provides 
significant advantages in many applications. We are a small company 
taking this new technology from proof of concept to commercial 
introduction with aspirations to grow into a much larger company. I 
have been involved in the Oil Well Logging industry since 1979 starting 
out as an Open Hole Wireline Engineer in West Texas and later got 
involved in the early stages of Logging While Drilling in 1982.

Well Logging

    Every well requires formation evaluation; well logging is a key 
part of this evaluation. The quality and accuracy of data is key to 
decide and ascertain if the well is a producer or dry hole. This 
evaluation supports and drives:

        <bullet>  Production Estimations,

        <bullet>  Well Economics,

        <bullet>  Reserve calculations

        <bullet>  Corporate and Government Energy Assets,

        <bullet>  Overall market fundamentals

    It supports ability to commit to long term projects with less than 
certain payback. Provides support for filing Company's statement of 
reserves. Helps value royalty payments back to state and federal 
government and drives legislation.
    The US is most affected:

        <bullet>  1/2 of worlds activity

        <bullet>  1/4 of world consumption

        <bullet>  < 5% of world reserves

        <bullet>  Greatest need for immediate continuity of supply

Neutron Logging

    Wells can be logged by Wireline Logging or Logging-While-Drilling 
(LWD). There are a number of formation measurements that are taken when 
a well is logged. Neutron logging is one of the primary measurements 
taken when a well is logged. The neutron measurement provides the 
hydrogen located in the pore space of the formation and the porosity is 
determined from neutron counting rates in the detectors within the 
logging tool. The neutron measurement is a primary gas indicator which 
helps delineate gas and oil producing zones along with providing the 
porosity of the formation.
    Both Wireline and LWD tools will in most cases have a ``Long 
Space'' and ``Short Space'' Helium-3 Detector which are located at 
different distances from the radioactive sources mounted in the logging 
tool. The Helium-3 detectors are used with either an Americum-241 
Beryllium or Californium-252 radioactive source.
    The importance of Helium-3 supply to the oil and gas industry is 
critical and crosses into numerous sectors of the industry. Helium-3 
gas is used in almost the entire neutron detectors incorporated into 
downhole tools in our industry. The neutron count rate measurement, 
from which the porosity measurement is derived, is used in all oil and 
gas reservoir evaluations. Even small errors in the neutron measurement 
can make the difference in whether a reservoir is commercially viable 
or not.
    It is difficult for our industry to determine the number of neutron 
detectors used in our course of business, especially since the neutron 
detector is used in open and cased hole compensated neutrons, single 
detector neutrons and other devices in our industry. There are numerous 
large well logging companies in the U.S. that also operate 
internationally along with medium to small size companies throughout 
the U.S. Each of these companies incorporates the use of He-3 neutron 
detectors in their tools. With the downturn in our industry over the 
last two years, most existing companies have been able to utilize 
existing tool stocks for replacement detectors and spare parts, which 
have lessened the impact over these years, but will eventually deplete 
the stock within those companies. They will be forced to buy additional 
detectors as the industry expands, for both new tools and for 
replacements in older tools. The detectors do have a limited life 
expectancy on the average of about 5 years depending on the downhole 
conditions they are exposed. So they do need to be replaced 
periodically to keep the tools working correctly. Companies introducing 
new technologies for logging wells, such as ThruBit, are limited to 
what is already available in house to build tools and what they can 
find available by the detectors suppliers with long leads time and a 
substantially higher price.

Pricing and Availability of He-3 Detectors

    We have personally seen almost a 3 times price increase and a 
quoted lead time of almost 6 months for delivery in an order recently 
placed this year. I have also received reports from others in the 
industry of pricing increases reported on neutron detectors in the 3 to 
10 times range due to the Helium-3 shortage. Pricing is not the only 
issue, but availability is also key. Lead times of 6-8 months have been 
reported. There have been reports of some detectors not being available 
due to the lack of Helium-3.
    There is a big difference in application of detector technology to 
applications that are located on surface, exposed to ambient 
temperatures and pressures and are not moved or exposed to conditions 
involving shock and vibration. Detector technology used in down hole 
tools used for well logging are subjected to more stringent 
requirements just to survive the environment and meet the engineering 
requirements of the design.
    Wireline Tools are operated at high temperature, have limited 
internal geometry to mount the detectors and experience medium shock 
and vibration. In the case of LWD tools they have all the same factors, 
but the shock and vibration is a lot higher. As result of the limited 
internal geometry small reliable detector packages are a must. In our 
particular case we have the smallest well logging tools in the industry 
with a 2-1/8" diameter tool. Any type of alternative technology would 
require the same or smaller foot print inside the tool. We could not go 
larger since we limited to our 2-1/8" diameter specification. We do not 
have the resources for an R&D effort to pursue another tool design with 
potential alternative detector technology.

Impact

    Being a small company bringing new technology to market is a 
challenge. We are in transition from a commercial introduction phase to 
commercialization with an aggressive plan to be a full blown viable and 
sustainable Formation Evaluation Service Company. The Helium-3 
detectors are all we have to put in our Neutron Porosity tools. We do 
not have a substitute detector for use in these well logging tools. It 
would take substantial development time (years) to pursue a substitute. 
We have neither the financial resources or R&D staff to pursue this 
effort. An extreme shortage or unavailability would be extremely 
detrimental in our ability to provide formation evaluation services and 
increase our tool fleet size allowing our company to grow. Other medium 
and small companies are in the same situation with a finite amount 
resources to pursue a pure R&D effort on alternatives. Some larger 
companies are looking at alternatives, but are finding the Boron 
Trifluoride with 1/7 the sensitivity of the Helium-3 type detectors 
will require increasing the activity of the Californium-252 or 
Americium-241 Beryllium source strengths.

Alternative to Helium-3

    The substitute for Helium-3 detectors, Boron Trifluoride (BF3), 
however it is much less sensitive to the thermal neutron detector as 
required by our industry. The majority of the sources used with neutron 
tools are Americium-241 Beryllium (Am-241Be), however, most recently 
due to Americium supplies being limited; more companies are utilizing 
Califorium-252 (Cf-252) in its place. Most all of these sources are in 
the 5 Curie (with some older 3 Curie sources used in cased hole 
operations) up to 20 Curies. With the decreased sensitivity of Boron 
Trifluoride, the strength of these neutron sources would have to be 
increased to achieve the statistical results needed for industry.
    There are other concerns with Boron Trifluoride. The USDOT has 
classified this gas has a hazardous material and cannot be shipped 
without a US DOT special permit. Shipping by air in the US also 
requires classifying it as Toxic Inhalation Class 2.3. For 
international shipment it is restricted to Cargo Only Aircraft and 
classified as Toxic Inhalation Hazard Class 2.3 and Corrosive Class 8. 
This provides for some packaging and logistic challenges moving tools 
with detectors with this type of gas in the detector. Not a good 
solution with the mobility required for well logging tools.

Conclusion

    Oil and gas exploration within the U.S. is a vital part of our 
national security and lessens our dependence on foreign oil and gas. 
The shortage of Helium-3 is starting to impact our entire industry. As 
rig counts increase and the request for well logging increases it will 
require more tools to be in service ready to go. Large companies can 
take stock piles of tools not in service during the slowdown in the 
last 2 years and put them back in service. Smaller companies will have 
less of a stock pile of tools not in service to pull from. With small 
companies such as ThruBit trying to increase our market penetration it 
creates an extra hardship limiting our ability to grow and bring our 
new technology to the market place.
    Larger companies have the financial and human resources to pursue 
extensive research and development to look at potential alternatives in 
detector technologies. Smaller companies are not as fortunate--they 
cannot afford extensive research and development. Their commercial 
viability comes into question along with their ability to sustain their 
business. These smaller companies are also in a situation where they 
cannot afford the extensive research and development of looking at 
alternatives to their current supply of tools.
    I want to personally thank you for the opportunity to discuss this 
important issue involving the Oil & Gas Well Services Industry today.

                   Biography for Richard L. Arsenault

    Richard L. Arsenault, CSP is the Director of Health, Safety, 
Security and Environment and Corporate Radiation Safety Officer for 
ThruBit LLC (ThruBit Logging Solutions). ThruBit Logging Solutions is 
an STV (Shell Technology Ventures) Fund 1 BV Portfolio company formed 
in 2005. Our innovative logging technology was developed in 1998 to 
provide market access to the benefits of Shell Oil Company proprietary 
drill bit advances. Today we offer complete logging solutions based on 
a unique ``through the bit'' deployment technique that provides 
significant advantages in many applications.
    Mr. Arsenault has been involved in the Oil & Gas Well Logging 
Industry since March of 1979 as a Dresser Atlas Open Wireline Engineer 
in West Texas and then got involved in May of 1982 with the Testing, 
Development and Commercialization of the first generation of Sperry-Sun 
Drilling Services Logging While Drilling (LWD) Tools. In addition led 
the Field Testing effort and Commercialization of the first generation 
Neutron Porosity and Density Porosity LWD Tools. Has also held 
Technical Support, Regulatory Compliance, HSE and Corporate Radiation 
Safety Officer Roles up to the fall of 1998. With the merger of Dresser 
Industries and Halliburton he was appointed as the Global Radiation and 
Explosive Safety Manager for Halliburton.
    He holds a Masters in Business Administration from the University 
of Houston and Bachelors Degree in Electrical and Electronic 
Engineering from the University of South Florida. He is a Certified 
Safety Professional holding a CSP Registration.
    He has been involved in the following industry related activities 
over the years:

        <bullet>  Established in April 2003 and chaired the Oilfield 
        Services Industry Forum for Radiation and Security. This now 
        resides in the Association of Energy Services Companies (AESC).

        <bullet>  Established in June 2005 and chaired the Oilfield 
        Services Subcommittee in the Institute of Makers of Explosives 
        (IME).

        <bullet>  Established a partnership between DOE (PNWL) and 
        Oilfield Services Industry to establish a baseline with the 
        ultimate goal of establishing a recommended practice for the 
        security of radioactive material. This was recommendation was 
        published by the DOE in 2008.

    Chairman Miller. Thank you, Mr. Arsenault.
    Dr. Halperin is recognized for five minutes.

  STATEMENT OF DR. WILLIAM HALPERIN, JOHN EVANS PROFESSOR OF 
                PHYSICS, NORTHWESTERN UNIVERSITY

    Dr. Halperin. Mr. Chairman and Members of the Committee, 
thank you for the opportunity to testify about the negative 
impact on scientific research caused by the shortage of helium-
3.
    I am a physics professor at Northwestern and I rely heavily 
on helium-3 to carry out scientific research at low 
temperatures. I have been involved in this kind of work since 
1970. Low-temperature research is essential for studying 
properties of materials such as superconductivity, magnetism 
and developing various advanced materials. Low-temperature 
research is also critical to future improvements in metrology 
and high-speed computation including quantum information 
technology. Shortages of helium-3 driven by increased homeland 
security demands and decreased production capability are 
already creating major difficulties in these areas of research.
    Let me briefly summarize the salient points. From 2001 to 
the present, the stocks of about 230,000 liters have been drawn 
down at a rate far in excess of today's global production 
estimated to be approximately 20,000 liters per year. The use 
of helium-3 as a detector of radioactive materials at airports 
and border crossings combined with the growth of medical, 
commercial and scientific applications is responsible for this 
extraordinary increase in demand.
    Now, absent new production sources, it is now impossible to 
serve the estimated need of 70,000 liters per year. It may be 
possible to find alternatives to the use of helium-3 for some 
applications but for others the unique physical properties of 
helium-3 are essential. Scientific research at low temperatures 
is the signature example of an area in which helium-3 is 
irreplaceable. Without adequate supplies, such research will 
cease entirely. To put the matter into context, I note that 
eight Nobel laureates in physics in the past 25 years owe their 
accomplishments in some important measure to the availability 
of helium-3. Cases in which substitutes might be found for 
helium-3 include neutron detection at facilities such as the 
Spallation Neutron Source at Oak Ridge National Laboratory, oil 
and gas well evaluation, building construction technology and 
the improvement of lasers.
    The issue perhaps is best illustrated by a personal 
experience in October of 2008. I sought information about 
availability and pricing from six well-known distributors of 
helium-3 gas. Only Chemgas and Spectra Gas had any supply but 
their prices were extraordinarily high, on the order of $2,000 
a liter, five to 10 times higher than I had expected, and well 
outside of my research budget.
    The following summer I received more bad news. Oxford 
Instruments, the largest supplier of low-temperature 
refrigerators, contacted me to say that the company could not 
obtain any helium-3 from their supplier, Spectra Gas. 
Discussions among attendees at a subsequent international low-
temperature physics conference revealed that this shortage was 
global. Although the shortage took many of us by surprise, I 
later learned that some government officials had been aware of 
this problem for some time but had not shared that information.
    In the fall of 2009, Nobel laureates Doug Osheroff and Bob 
Richardson, on behalf of a low-temperature working group of 
which I was a member, wrote to Bill Brinkman, Director of the 
Department of Energy's Office of Science, to express concern 
about the shortage of helium-3 for low-temperature research. 
Conversations with DOE ensued but to date, requests by 
scientists and refrigerator companies often go unanswered or 
unmet, and young scientists are especially vulnerable.
    Many of us are concerned that cryogenic instrumentation 
companies may soon be forced out of business. Janis Research is 
an example. Janis has been guaranteed an allocation but helium 
has not been delivered and sales interruptions place the 
company at risk. Should Janis and other companies stop 
providing refrigerators, low-temperature science will end.
    Dr. Brinkman requested that our working group assess the 
critical needs of low-temperature science, so I conducted a 
survey with the following principal findings. In a ten-year 
interval from 1999 to 2009, the purchase of helium-3 for low-
temperature science averaged 3,500 liters per year and was 
growing at approximately 12 percent per year worldwide. The 
details are in my written testimony.
    Now, on a personal note, I have an immediate need in my 
laboratory for 20 liters of helium-3. Spectra Gas, the sole 
provider of helium-3 released by the Department of Energy, has 
not responded in the five months since I made my request and my 
National Science Foundation support is now in jeopardy.
    In conclusion, we must recognize the diversity of needs for 
helium-3 and adopt the following strategies: Explore 
alternative technologies, establish effective communication 
among all the stakeholders, implement recycling and 
conservation, redesign critical need instrumentation to be more 
efficient, and finally, develop new sources of helium-3.
    I would be pleased to answer your questions.
    [The prepared statement of Dr. Halperin follows:]

               Prepared Statement of William P. Halperin

    Mr. Chairman and members of the committee, thank you for the 
opportunity to testify about the negative impact on scientific research 
caused by the shortage of helium-three. I am a physics professor at 
Northwestern University, and I rely heavily on helium-three to carry 
out scientific research at low temperatures and have been involved in 
this work since 1970. Low-temperature research is essential for 
studying properties of materials, such as superconductivity, and 
magnetism, and for developing various advanced materials. Low-
temperature research is also critical to future improvements in 
metrology and high-speed computation, including quantum information 
technology. Shortages of helium-three, driven by increased homeland 
security demands and decreased production capability, are already 
creating major difficulties in these areas of research.
    Let me briefly review the salient points. Helium-three is a gas and 
a byproduct of the radioactive decay of tritium, an essential element 
of nuclear weapons. Following the Second World War, as the nuclear 
stockpile grew, stocks of helium-three grew commensurately, reaching 
about 230,000 liters by the year 2000. From 2001 to the present, these 
stocks have been drawn down at a rate far in excess of today's global 
production, estimated to be approximately 20,000 liters/year. The use 
of helium-three as a detector of radioactive materials at ports, 
airports and border crossings, combined with the growth of medical, 
commercial and scientific applications, is responsible for the 
extraordinary increase in demand.
    Absent new production sources, it is now impossible to serve the 
estimated need of 70,000 liters/year. It may be possible to find 
alternatives to the use of helium-three for some applications, but for 
others the unique physical properties of helium-three are essential.
    Scientific research at low temperatures is the signature example of 
an area in which helium-three is irreplaceable. Without adequate 
supplies, such research will cease entirely. To put the importance of 
such research in context, I note parenthetically that twelve Nobel 
Laureates in physics in the past 25 years owe their accomplishments in 
some important measure to the availability of helium-three. Cases in 
which substitutes might be found for helium-three include neutron 
detection at facilities such as at the Spallation Neutron Source (SNS) 
at Oak Ridge National Laboratory, oil and gas well evaluation, building 
construction technology and the improvement of lasers.
    The issue perhaps is best illustrated by a personal experience. In 
October 2008 I sought information about availability and pricing from 
several well-known distributors of helium-three gas. I spoke with 
representatives of Sigma Isotec, Cambridge Isotope Labs, Icon Isotope 
Services, Isoflex USA, Chemgas, and Spectra gas (now Linde Electronics 
and Speciality Gases) and learned that only the latter two had any 
supply, but their prices were extraordinarily high: $800 to $2,000/
liter. It was 5 to 10 times higher than I had expected and well outside 
of my research budget plan.
    The following summer I received more bad news. Oxford Instruments, 
the largest supplier of low temperature refrigerators, contacted me, to 
say that the company could not obtain any helium-three from their 
supplier, Spectra Gas. Discussions among attendees at a subsequent 
international low-temperature physics conference revealed that the 
shortage was global. Although the shortage took many of us by surprise, 
I later learned that some government officials had been aware of the 
problem for some time but had not shared this information.
    In the fall of 2009, Nobel Laureates Doug Osheroff and Bob 
Richardson, on behalf of a low-temperature working group of which I was 
a member, wrote to Bill Brinkman, Director of the Department of 
Energy's Office of Science, to express concern about the shortage of 
helium-three for low temperature research. Conversations with DOE 
ensued, but to date requests by scientists and refrigerator companies 
often go unanswered or unmet. Young scientists, especially, find 
themselves without access to this essential resource.
    Many of us are also concerned that without adequate access to 
helium-three, instrumentation companies may soon be forced out of 
business. Janis Research is an example. Janis has been guaranteed an 
allocation, but the helium has not been delivered and the sales 
interruptions place the company at risk. Should Janis and other 
companies stop providing refrigerators, low-temperature science will 
end.
    Dr. Brinkman requested that our working group assess the critical 
needs in low temperature science. The principal finding of our recently 
completed survey is the following: In a ten year interval, from 1999 to 
2009, the purchase of helium-three for low temperature science averaged 
3,500 liters/year and was growing at approximately 12%/year world-wide. 
(Survey details are posted at http://www.qfs2009.northwestern.edu/
survey/ and attached to my written testimony.)
    On a personal note, I have an immediate need in my laboratory for 
20 liters of helium-three. Spectra Gas, the sole provider of helium-
three released by the Department of Energy, has not responded in the 
five months since I made my request, and my National Science Foundation 
supported research is now in jeopardy.
    In conclusion, we must recognize the diversity of needs for helium-
three and adopt the following strategies: explore alternative 
techn6logies; establish effective communication among all stake 
holders; implement recycling and conservation; redesign critical-need 
instrumentation to be more efficient; and develop new sources of 
helium-three.
    I would be pleased to answer your questions.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

                   Biography for William P. Halperin
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Miller. Thank you, Dr. Halperin.
    Dr. Woods for five minutes.

 STATEMENT OF DR. JASON WOODS, ASSISTANT PROFESSOR, WASHINGTON 
                           UNIVERSITY

    Dr. Woods. Chairman Miller, Ranking Member Broun, Members 
of the Subcommittee, I am honored to be asked to testify today. 
My name is Dr. Jason Woods. I am Assistant Professor of 
Radiology, Physics and Molecular Biophysics at Washington 
University, where I am also Assistant Dean of Arts and 
Sciences, and within the International Society for Magnetic 
Resonance in Medicine, I am the Program Director for our 
Hyperpolarized Media Study Group. I have been involved with 
helium-3 magnetic resonance imaging since 1997. My education 
and background are in nuclear-spin physics, helium-3 MRI, and 
the use of imaging for pulmonary physiology and 
pathophysiology. My research is focused on the use of helium-3 
as a diagnostic imaging tool to precisely quantify lung 
ventilation, lung microstructure, and to guide new 
interventions that are being developed. In my testimony, I 
attempt to represent the field of helium-3 MRI and the impact 
of the shortage on our field.
    Now, if we ask seasoned pulmonologists how much their field 
has changed in 25 years, responses will be that largely not 
much has changed. There are the same technologies for measuring 
pulmonary function. There are largely the same treatments. 
There are a few new drugs available but not much has changed, 
and these people see a large number of patients. Approximately 
35 million Americans suffer from obstructive lung disease. That 
is asthma and COPD [Chronic Obstructive Pulmonary Disease] 
together. And taken together, this is 35 million Americans. 
COPD alone is the fourth leading cause of death and the only 
major leading cause of death in the United States and in the 
world that is significantly rising.
    Helium-3 MRI is beginning to emerge as a new gold standard 
biomarker for measuring pulmonary function and structure. Its 
high signal creates extraordinarily detailed images of lung 
ventilation, which I have shown you right here, a healthy 
patient and a couple of volunteers with asthma and COPD.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    And its physical properties allow the determination of 
microstructure at the alveolar level. So here I have shown you 
a couple of images which are maps of lung microstructure, again 
at the alveolar level.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    So this kind of sensitivity to lung structure and function 
and the ability to get regional maps of lung microstructure are 
allowing us to basically lead a renaissance in pulmonary 
medicine, and I think that in the next ten years we are going 
to see significant advances within this field. A lack of 
helium-3 gas will stifle these advances.
    Now, to be clear, the shortage affects my research acutely 
and without any gas, my research as a young professor would be 
completely shut down and I would likely join the ranks of the 
unemployed. But I think the larger impact of helium-3 MRI is on 
much easier determination of the effectiveness of new drugs and 
devices and in guiding new minimally invasive interventions, 
which is my most recent work.
    The lack of big leaps forward in drugs and devices in 
pulmonary medicine over the last 10 and 20 years is largely due 
to the combination of two things: the exceptional cost to bring 
a drug or device to market and the lack of a precise biomarker 
to determine changes in lung function and structure, and one 
recent example illustrates this well.
    In 2007, GlaxoSmithKline released results of a study 
entitled ``Toward a Revolution in COPD Health,'' or TORCH. The 
total cost of the study was $500 million for 6,000 patients 
with moderate and severe COPD, and in this case the endpoint 
was final: It was death from all causes. It ranged from a high 
of 16 percent to a low of 12.6 percent, and they wanted to 
answer the question. Does Advair reduce mortality by as much as 
20 percent? And unfortunately for GSK, the question remains 
entirely unanswered because there was a 5.2 percent chance that 
the difference between the groups occurred randomly and the 
maximum accepted value is five percent. So by my calculation, 
if we had used helium-3 diffusion MRI that our group has 
developed as a biomarker and as an endpoint, then 6,000 
patients would have turned into approximately 500 patients and 
the $500 million study would have turned into a $50 million 
study, saving $450 million and the question of efficacy would 
likely have been answered. This is just one example of the 
significant impact that I think that helium-3 MRI will have.
    I firmly believe the helium that we use is 100 percent 
recyclable and we can begin to do this in the next few years 
with a commercially viable recycling scheme. From my 
perspective, the most important thing that I want to 
communicate to you today is that without approximately 2,000 
liters of helium-3 for our imaging community per year, we will 
basically curtail this revolution in pulmonary medicine which 
is currently in progress.
    [The prepared statement of Dr. Woods follows:]

                  Prepared Statement of Jason C. Woods

    Chairman Miller, Ranking Member Broun, Members of the Subcommittee, 
I'm honored to be asked to testify today. My name is Dr. Jason Woods; I 
am an Assistant Professor of Radiology, Physics, and Molecular 
Biophysics and Assistant Dean of Arts & Sciences at Washington 
University and an the Program Director for the Hyperpolarized Media 
Study group of the International Society for Magnetic Resonance in 
Medicine. I have been involved with medical imaging--specifically 
hyperpolarized <SUP>3</SUP>He MRI--since 1997. My education and 
background are in nuclear-spin physics, <SUP>3</SUP>He MRI, and the use 
of MR imaging for pulmonary physiology and pathophysiology. My research 
has focused on the use of <SUP>3</SUP>He as a diagnostic imaging tool 
to understand regional lung ventilation, to precisely quantify lung 
microstructure and acinar connectivity, and to use imaging to guide new 
minimally-invasive interventions. In my testimony I attempt to 
represent the field of <SUP>3</SUP>He MRI and the
    impact of the shortage on this field. I focus on the revolutionary 
way that <SUP>3</SUP>He MRI has illuminated pulmonary ventilation and 
microstructure, how its physical properties make it unique and 
irreplaceable in many instances, its potential for guiding 
interventions and drug development, and how a developing recycling 
technology can allow significant, sustained research into the future 
with approximately 2000 liters per year. In so doing I specifically 
address the questions outlined in your letter to me dated April 9, 
2010.

SUMMARY

    If we ask seasoned pulmonologists today how much the practice of 
pulmonary medicine has changed in the last 25 years, responses will 
largely be that very little has changed--a few new drugs are available, 
but there is largely the same technology for measuring lung function 
and for treatment. <SUP>3</SUP>He MRI, however, is beginning to emerge 
as a new ``gold standard'' and revolutionary biomarker for measuring 
pulmonary function and structure. Its high signal creates detailed 
images of lung ventilation and dynamics, and its physical properties 
allow precise measurement of alveolar size, microstructure, and 
regional lung function. This makes <SUP>3</SUP>He MRI particularly 
sensitive to changes in both global and regional lung function and 
structure. We are at the cusp of leading pulmonary medicine to a 
renaissance of new drug development and image-guidance of surgical 
interventions for various lung diseases, such as asthma, fibrosis, and 
COPD, which currently affect 11% of the US population. This imaging 
technology, as I speak, is currently serving as a catalyst for 
pulmonology to see significant advances in the next 10 years. A lack of 
supply of <SUP>3</SUP>He gas will stifle these advances.
    This <SUP>3</SUP>He shortage affects my research acutely; it 
affects my employees and collaborators, and the research and livelihood 
of MRI groups in at least 11 US universities and at least that many 
universities abroad. For me personally, a lack of gas will likely mean 
that my research is shut down, and I would join the ranks of the 
unemployed. To be clear, however, I think the larger impact of this 
technology is not on my research group but in drug development, in much 
easier determination of the effectiveness of new pharmacologic agents, 
and in guiding new minimally-invasive interventions (my most recent 
work). The lack of big leaps forward in drugs to treat lung diseases--
asthma, COPD, pulmonary fibrosis--has largely been due to the 
combination of the exceptional cost to bring drugs to market and the 
lack of a precise biomarker to determine changes in the lung. Pulmonary 
function tests, the decades-old standard in pulmonary medicine, have 
notoriously high measurement errors. Obstructive lung diseases (asthma 
and COPD), taken together, afflict approximately 35 million Americans; 
COPD alone is the 4th leading cause of death and is the only major 
cause of death that is steadily increasing [1, 2]. The financial and 
human impacts of the shortage are significant.
    One recent example of drug efficacy testing illustrates the lack of 
a precise biomarker and its impact: in 2007 GlaxoSmithKline released 
results of an Advair study, entitled ``Toward a revolution in COPD 
health (TORCH).'' The total cost was estimated at $500 million dollars 
for this study in over 6,000 moderate and severe COPD patients. The 
study endpoint was death from all causes, which ranged from a high of 
16% to a low of 12.6% for those on Advair. The key question was ``Does 
Advair reduce mortality by as much as 20%?'' Unfortunately for GSK, the 
question remained unanswered, because the statistical p-value of the 
difference was 0.052. This means the difference in mortality had a 5.2% 
chance of occurring randomly, whereas the generally accepted limit is 
5%. This $500M thus was largely wasted; the company couldn't answer the 
question about benefit, and patients and society received no benefit or 
increased understanding from the study. If the <SUP>3</SUP>He diffusion 
MRI techniques that our group has developed, for example, were used as 
a biomarker and endpoint (not possible when the study began), 6,000 
patients could have turned into fewer than 500 patients, saving around 
90% of the cost of the study, or $450M. And the question about efficacy 
would likely have been answered. This is only one example of the type 
of significant impact that I think <SUP>3</SUP>He MRI is going to have 
on pulmonary medicine.
    There has been some discussion in the scientific literature about 
using hyperpolarized <SUP>129</SUP>Xe instead of <SUP>3</SUP>He gas for 
specific future studies, and for some studies this may be a viable 
alternative within the next 5-10 years [3], though the intrinsic 
physical properties of <SUP>129</SUP>Xe reduce the signal by a factor 
or 3-5 compared to <SUP>3</SUP>He. Some damage to the field could be 
tempered by outside assistance in developing this infrastructure and 
technology. However, many studies, like my NIH-funded research, rely 
upon <SUP>3</SUP>He's large diffusion coefficient for large-distance 
measurements, and for this xenon will not be an alternative [4]. On the 
bright side, the <SUP>3</SUP>He that we use is nearly 100% recyclable, 
but we do not yet have the recycling technology in place to begin to do 
this. I believe firmly that the development of efficient and 
commercially viable recycling schemes will allow this important work to 
continue, with a total allotment of around 2,000 Liters STP per year.
    Lastly, I note that in 2009 an allocation of <SUP>3</SUP>He was 
made specifically for the NIH-funded medical imaging community. This 
was offered through Spectra Gases (now Linde Gas) at $600/L STP--an 
approximately 500% increase over previous years. Because the price of 
<SUP>3</SUP>He increased so quickly and by so much, research groups 
(who have strict budgets from federal or private grants) were not able 
to plan for the cost increase and are now scrambling for supplementary 
funding sources. This is the reason why all of the <SUP>3</SUP>He 
recently set aside for various medical imaging groups has not been 
instantly purchased.

BACKGROUND

    Conventional MRI relies upon a large magnetic field to generate a 
net alignment of nuclear spins (generally within the hydrogen atoms of 
water molecules), which can be manipulated to create images with high 
contrast. The technology allows images to answer specific questions 
about structure and function of the brain, joints, or other parts of 
the body [5, 6]. MRI of gas is not generally used, since the density of 
a gas is about 1000 times less than tissues, and there is not enough 
signal to generate an image. The unique properties of the 
<SUP>3</SUP>He atom allow us to align a large fraction of its nuclear 
spins via a laser polarization technique with a magnetic field; this is 
often called ``hyperpolarization'' [7, 8]. Hyperpolarized 
<SUP>3</SUP>He gas has signals enhanced by a factor of 100,000 or 
more--allowing detailed images of the gas itself to be generated in an 
MRI scanner. Since helium gas (either <SUP>4</SUP>He or <SUP>3</SUP>He) 
has a solubility of essentially zero and is arguably the most inert 
substance in the universe, inhaled hyperpolarized <SUP>3</SUP>He allows 
the generation of exceptional quality, gas-MR images of ventilated lung 
airspaces with no ionizing radiation or radioactivity [9]. Further, 
traditional technologies for measuring pulmonary function (e.g., 
pulmonary function tests or nuclear ventilation scans) have either high 
errors on reproducibility or low content of regional information. While 
x-ray CT has some potential for quantifying lung structure (not 
function), its large amount of ionizing radiation raises cancer risks 
and prevents it from being used in longitudinal studies for drug 
development or in vulnerable populations, such as children [10, 11]. 
<SUP>3</SUP>He is inert and has proven to be very safe in studies to 
date (helium-oxygen mixtures[12] are used routinely in pulmonary and 
critical care); it is, however, currently regulated as an 
investigational drug by the US FDA.

THE REVOLUTION OF <SUP>3</SUP>HE MRI ON PULMONARY IMAGING

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Ventilation
    Previous technologies for imaging pulmonary ventilation generally 
involved the inhalation of radioactive gas over a period of one to 
several minutes, and then detecting what parts of the chest emitted the 
most radioactivity over several minutes. This technology (nuclear 
ventilation scans) had low spatial and temporal resolution (Figure 1). 
<SUP>3</SUP>He ventilation MRI represented a clear step forward in 
depicting not only precise, 3-D regional ventilation, but also in 
beginning to understand the regional dynamics of human ventilation in 
health and disease.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    At present, <SUP>3</SUP>He ventilation imaging is being used in a 
wide variety of studies and holds high promise in increasing our 
understanding of the regional effects of asthma and its treatment [13-
16], in addition to COPD, and various types of lung fibrosis [17, 18]. 
For example, it was recently found (Figure 2) that many ventilation 
defects persisted over time, opening the door to new regional 
treatments for asthma--an idea not previously pursued [19]. Because 
asthma is the most prevalent pulmonary disease in the US, improved 
medical and interventional therapies, facilitated by <SUP>3</SUP>He 
MRI, can significantly improve care and lower health care costs.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Diffusion and In-vivo Morphometry
    Three unique physical properties of <SUP>3</SUP>He make it 
particularly well suited for measuring lung airspace size, geometry, 
and connectivity, by quantifying its restriction to thermal diffusion 
in the lung. These properties are 1) its small size (and thus large 
thermal diffusion coefficient), 2) its lack of solubility in tissue, 
and 3) its long relaxation time, T<INF>1</INF>. Since <SUP>3</SUP>He is 
insoluble and has a large diffusion coefficient, collisions with airway 
and alveolar walls restrict the movement of the gas. This restriction 
can be measured and quantified using diffusion MRI. In fact, our group 
in particular has had a focus on <SUP>3</SUP>He diffusion MRI; we have 
shown that the technique is extraordinarily sensitive to airspace 
enlargement and has better discrimination than quantitative histology--
the gold standard for airspace quantification in lung parenchyma 
(Figure 3). We have recently shown that the technique can be used to 
measure the size and geometry of alveolar ducts--allowing regional 
morphometry of the human lung, in vivo (Figure 4). These types of 
measurements are not available by any other noninvasive technique and 
represent a leap forward in our understanding of lung microstructure 
and our ability to quantify early disease.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Airspace enlargement (emphysema) is a significant component of 
chronic obstructive pulmonary disease (COPD)--the only leading cause of 
mortality with dramatic increases in the US and the world [2]. 
Quantifying this airspace enlargement in a reliable and precise way, as 
<SUP>3</SUP>He MRI easily can, has enormous potential therapeutic 
benefit for patients with COPD. No other measurement modality has such 
potential to detect early disease, disease progression, or to quantify 
microstructural parameters in the <SUP>3</SUP>He MRI can. Figure 4 
demonstrates this in two volunteers with normal lung function by 
pulmonary function test and with normal CT scans; <SUP>3</SUP>He MRI, 
however, can distinguish early lung disease in the smoker at right. 
This extraordinary sensitivity to early disease makes it a prime 
biomarker for use in drug development and efficacy testing.
    One particularly unique quality of <SUP>3</SUP>He comes from the 
combination of its large gas diffusion coefficient and insolubility in 
tissue. This allows us to the diffusion of the gas over very long 
distances (2-5 cm) and has been called ``long-range diffusion''. 
Because these distances are larger than any acinar dimension, the 
technique is sensitive to the extent of ``collateral'' or short-
circuits pathways other than the airway tree in the lung. These 
collateral pathways are essential to quantify for two minimally-
invasive interventions that are being developed for end-stage COPD: 
transbronchial stents (Broncus Technologies, Inc.; Mountain View, CA) 
and one-way exit valves in segmental bronchi (Spiration, Inc.; Redmond, 
WA). My most recent NIH-funded research involves the use of long-range 
<SUP>3</SUP>He diffusion to guide and predict the efficacy of these 
minimally-invasive interventions under development. Early results are 
quite promising, and demonstrate that the imaging will do quite well at 
guiding the therapy, but the shortage of <SUP>3</SUP>He has had a 
negative impact on the study.

Regional Pulmonary Oxygen Monitoring
    The long relaxation time T<INF>1</INF> of <SUP>3</SUP>He and its 
sensitive dependence on oxygen concentration allow us to measure the 
regional partial pressure of oxygen in the lung. Maps of this partial 
pressure (pAO<INF>2</INF>) in the lung can be used to understand 
regional pulmonary blood flow and diffusion of oxygen into 
capillaries--the essential purpose of the organ. Not only can pAO<INF>2</INF> 
be used to measure deficiencies in the partial pressure of oxygen, but 
it can be employed to understand the regional relationship between 
structure and function in the lung, at its most fundamental level 
(oxygen and CO<INF>2</INF> transfer). Again, this is a technique only 
possible via <SUP>3</SUP>He MRI.

Partial List of Currently Funded <SUP>3</SUP>He Imaging Projects in 
        North America
    The following list of current <SUP>3</SUP>He MRI research projects 
is far from complete but represents the broad range of lung diseases 
studied and research funded by both the NIH and by US-based private 
industry:

Assessing drugs for treatment of cystic fibrosis: University of 
        Massachusetts (Dr. Albert, et al.)

Detecting early and preclinical COPD: Washington University (Dr. 
        Yablonskiy, et al.)

Detection of pulmonary metastases with <SUP>3</SUP>He: Duke University 
        (Dr. Driehuys, et al.)

Detecting and treating pulmonary embolism: University of Massachusetts 
        (Dr. Albert, et al.)

Diffusion kurtosis imaging in asthma, COPD and in the lungs of 9/11 NYC 
        firefighters: New York University (Dr. Johnson, et al.)

Drug Efficacy in preclinical models of asthma and COPD: Duke University 
        (Dr Driehuys, et al.)

Early detection of bronchiolitis obliterans syndrome in lung transplant 
        recipients: Washington University (Dr. Woods, et al.)

Evaluation of endobronchial interventions for COPD: Washington 
        University (Dr. Woods, et al.), Robarts Imaging Institute (Dr. 
        Parraga, et al., University of Virginia (Dr. Altes, et al.)

Evaluation of a novel treatment for asthma: University of Virginia (Dr. 
        Altes, et al.)

Evaluation of a novel treatment for cystic fibrosis: University of 
        Virginia (Dr. Mugler, et al.)

Imaging of small-animal models of diseases: Duke University (Dr. 
        Johnson et al.), Washington University (Dr. Woods, et al.)

In-vivo morphometry with <SUP>3</SUP>He diffusion MRI: Washington 
        University (Dr. Yablonskiy, et al.)

Measuring regional pulmonary oxygen pressure by <SUP>3</SUP>He MRI: 
        University of Pennsylvania (Dr. Rizi, et al)

Monitoring Progression of COPD: Duke University (Dr Driehuys, et al.), 
        Robarts Imaging Institute (Dr. Parraga, et al.), University of 
        Virginia (Dr. Mugler, et al.), Washington University (Dr. 
        Yablonskiy, et al.)

Neonatal ventilation and dynamics under mechanical ventilation: Harvard 
        University (Dr. Patz et al.), University of Virginia (Dr. 
        Miller, et al.)

Noninvasive methods for measuring alveolar surface area: Harvard 
        University (Dr. Patz, et al.), Washington University (Dr. 
        Yablonskiy, et al.)

Persistence of Ventilation Defects in patients with asthma: University 
        of Virginia (Dr. Altes, et al.), University of Massachusetts 
        (Dr. Albert, et al.)

Predicting ventilation changes caused by radiation therapy: Robarts 
        Imaging Institute (Dr. Parraga, et al.), University of Virginia 
        (Dr. Mugler, et al.)

Probing the fundamental limits of MRI resolution by diffusion: Duke 
        University (Dr. Johnson, et al.)

Pulmonary Gas flow Measurements and Dynamic <SUP>3</SUP>He MRI of the 
        Lungs: New York University (Dr. Johnson, et al.)

A Specialized Clinically Oriented Center of Research for COPD: (Dr. 
        Holtzman and Dr. Woods, et al.)

THE <SUP>3</SUP>HE SHORTAGE AND ITS EFFECTS

Timeline
    Late in 2008 our research group and others became aware that there 
was a supply issue with <SUP>3</SUP>He gas, through conversations with 
Spectra Gases, Inc. We immediately purchased some gas to continue 
imaging studies in COPD patients. In March, 2009, we were told there 
was no gas available for medical applications and that the price of 
non-medical <SUP>3</SUP>He had risen to near $400/L STP. Conversations 
with colleagues at the University of Virginia, Harvard University, and 
the University of Pennsylvania confirmed that others were also unable 
to purchase <SUP>3</SUP>He gas. In April-June of 2009, we worked with 
Spectra Gases and other universities to state our <SUP>3</SUP>He 
requirements to continue NIH- and NSF-funded research in 2009; Spectra 
Gases then met with the Department of Energy (DOE) in July and August 
to make clear that US Government-funded research was being affected. In 
August 2009, Spectra approached me and the other officers of the 
Hyperpolarized Media Study Group of the International Society for 
Magnetic Resonance in Medicine (the primary professional organization 
for <SUP>3</SUP>He MRI researchers) to write a letter to the Isotope 
Work Group of the DOE, stating how <SUP>3</SUP>He is unique in medical 
imaging and that a significant amount of NIH-funded research would be 
effectively shot down without access to the small amount of gas that 
our community uses (2000 L STP/year, approximately). Dr. William 
Hersman and I drafted this letter, dated September 4, 2009; it is 
attached to the end of this written testimony. In October 2009 we were 
notified by Spectra Gases that an algorithm for obtaining a small 
amount of <SUP>3</SUP>He gas for NIH-funded studies had been achieved. 
In order to obtain any gas, we were to list each federally-funded 
grant's title and number, and for each a requested amount of gas for 
the subsequent 6 months of usage. <SUP>3</SUP>He was offered to our 
group for $600/L STP, an approximately 500% increase from previous 
years. I also drafted a letter in support of Spectra's modification of 
their permit for 3H (tritium) limits with <SUP>3</SUP>He, in addition 
to letters of support for allocation of <SUP>3</SUP>He to two non-US 
researchers who do important work; these are also attached to this 
testimony. At a recent AAAS meeting (April, 2010), it was made clear 
that the White House Office of Science and Technology Policy (OSTP) had 
been diligently and actively pursuing a solution to this shortage by 
facilitating discussions between DOE and DHS. My understanding is that 
OSTP was helpful in (perhaps in large part responsible for) the 2009 
and 2010 allocation of <SUP>3</SUP>He gas to NIH-funded projects.

Impact of the Shortage upon Medical Imaging Research
    While I have stated that I think the biggest impact of 
<SUP>3</SUP>He MRI technology is in drug development, efficacy 
monitoring, and in guiding new minimally-invasive interventions, the 
impact of the shortage was most keenly felt by those of us in the 
middle of performing NIH- and industry-funded research studies. Some of 
us (like our group at Washington University) were able to continue to 
perform studies at a lower rate and were able to purchase gas at $600/L 
STP, once it became available. Other groups, such as the Robarts 
Imaging Institute, have not been able to continue <SUP>3</SUP>He 
studies, even if these studies were funded by US companies. Even for 
US, NIH-funded researchers, however, the price of <SUP>3</SUP>He 
increased so quickly and by so much that research groups were not able 
to plan for the cost increase and are now scrambling for supplementary 
funding sources. This is the reason why all of the <SUP>3</SUP>He 
recently set aside for various medical imaging groups has not been 
instantly purchased. The shortage has had a significant negative impact 
on the continued productivity of our research community and on the 
probability of future research. Importantly, if sufficient 
<SUP>3</SUP>He is not allocated to medical imaging at reasonable cost, 
this will likely curtail the revolution in pulmonary medicine currently 
in progress.

Financial and Scientific Impact
    It is difficult to gauge the precise financial impact of the 
<SUP>3</SUP>He shortage on the field of hyperpolarized-gas MRI. It is 
clear that fewer studies are being conducted and planned as a result of 
this shortage. It is probably safe to say that all studies mentioned 
previously have been scaled back by a factor of 2 or more. By my count, 
the National Institutes of Health are currently supporting at least 25 
active projects requiring <SUP>3</SUP>He, with over $4M allocated for 
FY2010. If we assume similar funding for the past 8 years, with less 
funding before that, this represents an investment of over $32M via NIH 
funding alone. When added to the significant (but more difficult to 
quantify) investment from the NSF, private and public universities, and 
private industry, the total investment in <SUP>3</SUP>He MRI is likely 
between $60M and $100M over the past 10 years.
    While the above numbers represent an enormous investment in 
<SUP>3</SUP>He polarization and MRI infrastructure, it is my opinion 
that the biggest financial impact of the shortage is on future drug 
development, efficacy monitoring, and in guiding new surgical and 
minimally-invasive interventions. Through the use of more precise 
biomarkers, such as we have developed via <SUP>3</SUP>He MRI, the 
number of patients required to determine the true efficacy of a drug or 
device can be reduced by large fractions (up to 90% by a recent 
calculation from our techniques), which would translate directly into 
proportionate cost savings. The GSK example of the TORCH study 
mentioned in the Summary is illustrative. The key question was ``Does 
Advair reduce mortality by as much as 20%?'' Unfortunately for GSK, the 
question remained unanswered after studying 6000 patients and expending 
$500M, because the statistical significance was not high enough to 
determine an answer to the vital question. If the <SUP>3</SUP>He 
diffusion MRI techniques that have been discussed here were used as a 
biomarker and endpoint (not possible when the study began), 6,000 
patients could have turned into fewer than 500 patients, saving around 
90% of the cost of the study, or $450M. The question about efficacy 
would likely have been answered, and the company could have devoted its 
efforts to the marketplace, if successful, or to newer and more 
innovative solutions, if unsuccessful.
    The scientific impact of the shortage is serious. Scientific 
studies and investigations into lung physiology and pathophysiology and 
new treatments are being scaled back; without a clear solution in 
place, the revolution in pulmonary medicine will be at least partially 
curtailed. In one case that I'm very familiar with, research has ceased 
entirely because of a lack of <SUP>3</SUP>He gas. The Robarts Research 
Institute in London, Canada was established in part with capital 
funding provided by and research partnerships with Merck Research 
Laboratories (Imaging, Westpoint PA USA) and General Electric Health 
Care (GEHC, Milwaukee WI). They have been performing <SUP>3</SUP>He MRI 
studies in animal models of respiratory disease, in healthy volunteers, 
and patients with lung disease (COPD, asthma, cystic fibrosis, 
radiation-induced lung injury). Their human studies are funded by 
Merck, GEHC, the Canadian Lung Association and Canadian Institutes of 
Health Research. Without a small allocation of <SUP>3</SUP>He to this 
institution, their entire pulmonary MRI operation will be shut down, 
and further investment by US companies will be lost.

POTENTIAL ALTERNATIVES TO <SUP>3</SUP>HE

    Two noble gas isotopes (<SUP>3</SUP>He and <SUP>129</SUP>Xe) were 
originally identified as having potential for use in pulmonary MRI, 
since they could be hyperpolarized to 10% or more with sufficient laser 
power (originally very expensive and technically complex). Other gases 
(e.g. <SUP>83</SUP>Kr, <SUP>21</SUP>Ne) have potential for low levels 
of hyperpolarization, but their nuclear and physical properties will 
prevent high polarizations in bulk gas or their widespread use in human 
MRI. When high-power, low-cost diode laser technology became available 
in the 1990s, these lasers were used to produce macroscopic quantities 
of <SUP>3</SUP>He at high polarization (50-60%), and <SUP>129</SUP>Xe 
at much lower polarization (T 10%). The comparative physical properties 
of the gases and early hyperpolarization technology led to near-
universal adoption of <SUP>3</SUP>He as the gas of necessity for 
pulmonary gas MRI. These properties are outlined below.
    1. The magnetic moment of <SUP>129</SUP>Xe is only about 1/3 that 
of <SUP>3</SUP>He; this is directly related to the signal strength in 
MRI. Further, the natural abundance of <SUP>129</SUP>Xe is only 26%; 
both of these reduce the available signal in the hyperpolarized gas 
intrinsically by a factor of 6. Enrichment of the isotope (at 
significant cost, since <SUP>129</SUP>Xe is close in weight to the 
abundant isotopes of Xe) can reduce this intrinsic signal reduction to 
a factor of 3 below <SUP>3</SUP>He. The achievable polarization with 
xenon has also been historically lower than with <SUP>3</SUP>He, and 
the delivered dose of xenon gas is limited by its anesthetic activity. 
In short, hyperpolarized xenon does not yield the high signal-to-noise 
that <SUP>3</SUP>He does, which means that xenon delivers poorer 
quality images and less physiological information. The sum of the 
effects of lower magnetic moment (gyromagnetic ratio), lower abundance, 
lower polarization, and lower dose add up to an approximate reduction 
in signal by a factor of 50. The efforts of Dr. William Hersman (XeMed, 
LLC) have helped to increase <SUP>129</SUP>Xe polarizations, but this 
new technology requires new, significant capital investment by each 
hyperpolarized group wishing to switch to <SUP>129</SUP>Xe. Even with 
``perfect'' new technology which achieves comparable polarization and 
with isotopically enriched gas, the signal reduction is still 
intrinsically limited by the magnetic moment and limited dose--a factor 
of 3-5--and many experiments and clinical trials are not possible with 
<SUP>129</SUP>Xe. This is particularly true for measurements of lung 
morphometry and connectivity.
    2. The free diffusivity of <SUP>3</SUP>He is extremely large, 
because of its low mass and small collisional cross-section. This 
property is crucial to measurements of long-range diffusivity in lungs, 
which have been shown to be more sensitive to emphysema than short-
range diffusivity. By comparison, the much lower free diffusivity of 
xenon greatly reduces the distances that can be explored with the long-
range technique. To our knowledge, no one has even reported long-range 
diffusion measurements in lungs with hyperpolarized xenon for this 
reason. Several of our NIH-funded projects rely upon a measurement of 
long-range <SUP>3</SUP>He diffusion and would not be completed without 
the <SUP>3</SUP>He isotope. Further, larger field gradients are 
required even for short-range diffusion experiments; this may require 
further capital costs.
    3. The long T<INF>1</INF> of <SUP>3</SUP>He allows it to be shipped 
by air freight. This has been demonstrated in Europe and the Mayo 
Clinic (in addition to a current proposal by Dr. Hoffman's group at the 
University of Iowa) as a feasible business-model for polarized gas use 
in hospitals, removing the necessity of each hospital having its own 
dedicated polarizer (a requirement that has so far limited the clinical 
utilization of polarized gas). By comparison, the T<INF>1</INF> of 
xenon is shorter (of order 2 hours), making air shipment virtually 
impossible to orchestrate.
    <SUP>3</SUP>He will remain a necessity for MRI researchers because 
of the physical properties mentioned above (specifically its high 
diffusion coefficient). The intrinsic properties of <SUP>129</SUP>Xe 
will necessarily limit the images to have a factor of 3 reduction in 
signal compared to <SUP>3</SUP>He images. The polarization of 
<SUP>129</SUP>Xe has seen significant improvement in the past 3-4 
years, however, and some recent images of ventilation have had 
acceptable contrast, even though the signals were not as high as for 
<SUP>3</SUP>He. And while the relatively large solubility in tissue has 
an anesthetic effect on animals and humans, this property can be 
capitalized upon in an attempt to quantify diffusion across gas-tissue 
barriers. There is thus a potential role for t29Xe in perhaps half of 
the future hyperpolarized-gas MRI studies.

RECYCLING <SUP>3</SUP>HE

    Since helium is not soluble in the tissues of the body, it can be 
very highly recoverable, yet most research groups do not have systems 
currently in place to recapture and compress exhaled gas. The 
hyperpolarized helium research community has demonstrated in the past 
that inexpensive technologies can be assembled for easily solvable 
problems within the field, and the technology for recycling of 
<SUP>3</SUP>He is straightforward. (For example, since <SUP>3</SUP>He 
is a liquid at 4 K [4 degrees above absolute zero], all other gases, 
particulate and biological matter can be frozen out by passing through 
a liquid <SUP>4</SUP>He bath at 4 K.) Both Washington University (Dr. 
Woods, et al.) and the University of Virginia (Dr. Miller, et al.) are 
currently collaborating with Walter Whitlock, of Conservation Design 
Services, Inc., in North Carolina, to develop commercially-viable 
recycling for wide use in the <SUP>3</SUP>He MRI community. This 
recycling collaboration is not yet funded but is currently underway. I 
believe that the important and significant scientific research outlined 
in this testimony can be sustained and performed with around 2,000 
total STP liters of <SUP>3</SUP>He per year, after development of good 
recovery/recycling systems for <SUP>3</SUP>He.

REFERENCES

1. Bednarek, M., et al., Prevalence, severity and underdiagnosis of 
        COPD in the primary care setting. Thorax, 2008. 63(5): p. 402-
        7.

2. Mannino, D.M. and A.S. Buist, Global burden of COPD: risk factors, 
        prevalence, and future trends. Lancet, 2007. 370(9589): p. 765-
        73.

3. Hersman, F.W., et al., Large production system for hyperpolarized 
        129Xe for human lung imaging studies. Acad Radiol, 2008. 15(6): 
        p. 683-92.

4. Woods, J.C., et al., Long-range diffusion of hyperpolarized 
        <SUP>3</SUP>He in explanted normal and emphysematous human 
        lungs via magnetization tagging. J Appl Physiol, 2005. 99(5): 
        p. 1992-7.

5. Callaghan, P.T., Principles of nuclear magnetic resonance 
        microscopy. 1991, Oxford [England]; New York: Clarendon Press; 
        Oxford University Press. xvii, 492 p.

6. Talagala, S.L. and I.J. Lowe, Introduction to magnetic resonance 
        imaging. Concepts Magn Reson, 1991. 3: p. 145-159.

7. Gamblin, R.L. and T.R. Carver, Polarization and relaxation processes 
        in 3He gas. Phys Rev 1965. 138: p. 946-960.

8. Walker, T.G. and W. Happer, Spin exchange optical pumping of noble-
        gas nuclei. Rev Mod Phys, 1997. 69: p. 629-642.

9. Lutey, B.A., et al., Hyperpolarized <SUP>3</SUP>He MR imaging: 
        physiologic monitoring observations and safety considerations 
        in 100 consecutive subjects. Radiology, 2008. 248(2): p. 655-
        61.

10. Berrington de Gonzalez, A., et al., Projected Cancer Risks from 
        Computed Tomographic Scans Performed in the United States in 
        2007. Arch Intern Med, 2009. 169(22): p. 2078-2086.

11. Smith-Bindman, R., et al., Radiation Dose Associated With Common 
        Computed Tomography Examinations and the Associated Lifetime 
        Attributable Risk of Cancer. Arch Intern Med, 2009. 169(22): p. 
        2078-2086.

12. Frazier, M.D. and I.M. Cheifetz, The role of heliox in paediatric 
        respiratory disease. Paediatr Respir Rev. 11(1): p. 46-53; quiz 
        53.

13. Wang, C., et al., Assessment of the lung microstructure in patients 
        with asthma using hyperpolarized <SUP>3</SUP>He diffusion MRI 
        at two time scales: comparison with healthy subjects and 
        patients with COPD. J Magn Reson Imaging, 2008. 28(1): p. 80-8.

14. de Lange, E.E., et al., Evaluation of asthma with hyperpolarized 
        helium-3 MRI: correlation with clinical severity and 
        spirometry. Chest, 2006. 130(4): p. 1055-62.

15. Fain, S.B., et al., Evaluation of structure function relationships 
        in asthma using multidetector CT and hyperpolarized He-3 MRI. 
        Acad Radiol, 2008. 15(6): p. 753-62.

16. Altes, T.A. and E.E. de Lange, Applications of hyperpolarized 
        helium-3 gas magnetic resonance imaging in pediatric lung 
        disease. Top Magn Reson Imaging, 2003. 14(3): p. 231-6.

17. Woods, J.C., et al., Hyperpolarized 3He diffusion MRI and histology 
        in pulmonary emphysema. Magn Reson Med, 2006. 56(6): p. 1293-
        300.

18. van Beek, E.J., et al., Assessment of lung disease in children with 
        cystic fibrosis using hyperpolarized 3-Helium MRI: comparison 
        with Shwachman score, Chrispin-Norman score and spirometry. Eur 
        Radiol, 2007. 17(4): p. 1018-24.

19. de Lange, E.E., et al., Changes in regional airflow obstruction 
        over time in the lungs of patients with asthma: evaluation with 
        3He MR imaging. Radiology, 2009. 250(2): p. 567-75.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

                      Biography for Jason C. Woods
    Dr. Jason C. Woods received an undergraduate degree from Rhodes 
College in 1997 and his Ph.D. in physics from Washington University in 
St Louis in 2002. He is currently an Assistant Professor of Radiology, 
Physics, and Molecular Biophysics and Assistant Dean of Arts & Sciences 
at Washington University. He is also the Program Director for the 
Hyperpolarized Media Study group of the International Society for 
Magnetic Resonance in Medicine, where much of the world's 
hyperpolarized-gas MRI is reported. His internationally recognized, 
NIH-funded research has focused on the production and application of 
hyperpolarized gases (<SUP>3</SUP>He in particular) to the study of 
lung ventilation, structure, and function in health and disease--COPD 
in particular. This interdisciplinary work has involved national and 
international collaborations with physicists, radiologists, 
pulmonologists, and surgeons--most recently in using imaging to guide 
new minimally-invasive interventions.
    In his role as Assistant Dean within Arts & Sciences at Washington 
University, his multidisciplinary research is mirrored by 
multidepartmental administrative efforts in biomedically-related 
science fields and in the retention and graduate-school pursuits of 
STEM majors. He is Program Director for the MARC uSTAR program at 
Washington University--an NIH-funded program intended to increase the 
pipeline and diversity of biomedical scientists at the PhD level.

    Chairman Miller. Thank you, Dr. Woods.
    I now recognize myself for the first round of questions. 
All of you have described your uses for helium-3. All of you 
obviously have relied upon technology or used or developed 
technologies that assumed the availability of helium-3. The 
only domestic supplier was the Department of Energy. Were any 
of you advised by the Department of Energy, by DOE of any 
future shortage? Mr. Anderson.
    Mr. Anderson. Mr. Chairman, we had discussions with the 
isotope office who has been distributing helium-3 through the 
years, going back to the first auction back in the 2003 time 
frame. We were not aware of any shortages. At the time, we were 
under the impression that to understand exactly how much 
helium-3 was available might be, you know, sensitive 
information because of the nature of the generation of it.
    Chairman Miller. Anyone? Mr. Arsenault.
    Mr. Arsenault. No, we were not notified. We rely on our 
vendors to let us know if there are any supply problems.
    Chairman Miller. Anyone else? Dr. Halperin.
    Dr. Halperin. In the case of cryogenics, eight months ago, 
speaking on behalf of that entire community summarized at a 
recent conference, that there was no knowledge other than 
anecdotal from the marketplace. Nothing from the DOE 
specifically, and to the present date, nothing from the DOE.
    Chairman Miller. Dr. Woods?
    Dr. Woods. No, we were not notified by DOE. Our information 
came directly from the marketplace.
    Chairman Miller. Dr. Brinkman, we have heard that probably 
the current use of helium-3 that is going to be the hardest to 
find or substitute for is cryogenics. Is there any substitute 
in your work in cryogenics? I am sorry, Dr. Halperin. That is 
what I meant to say.
    Dr. Halperin. There is absolutely no substitute. The reason 
is, it depends on the very interesting physical properties of 
helium-3, below one degree Kelvin. The range of materials and 
applications below the temperature of one degree Kelvin are not 
accessible unless you use refrigerators that depend on helium-3 
and use helium-3.
    Chairman Miller. I am assuming that none of you are in a 
position to manufacture tritium or really to engage in any kind 
of research for alternatives. Do you have a sense of whether 
there should be research into manufacturing helium-3 if there 
is no substitute or finding alternatives, whether that is 
something that should be funded by some agency of the 
government? Mr. Anderson.
    Mr. Anderson. Mr. Chairman, we have responded to a request 
for information from the DNDO with regard to processing helium-
3 from natural gas, so we have looked at it and we do have an 
organization within GE that has the capability to explore that.
    Chairman Miller. Anyone else? We can go down and have 
everyone--Mr. Arsenault.
    Mr. Arsenault. We are a small company, 70 employees, so we 
don't have a very large R&D group so we cannot pursue that. We 
have to use detectors and incorporate them in our tools. Our 
tools are 2-1/8, the smallest in the industry, so we have 
limited geometry, so we have to rely on technology that is 
existing, and it is used throughout the whole industry.
    Chairman Miller. Dr. Halperin.
    Dr. Halperin. Yes. I had just mentioned that it turns out 
in cryogenics there isn't an alternative based on quantum 
mechanics, but the agencies could help extensively by 
supporting communication among all of those who are involved 
such that planning at the base level as well as in the agencies 
can take place, and this does not exist at the present time, 
and furthermore, the agencies, meaning the research agencies, 
could help significantly in recycling and conservation or 
funding suggestions for recycling and conservation.
    Chairman Miller. Dr. Woods, you may answer. You are not 
required to answer.
    Dr. Woods. Well, Chairman Miller, thank you. By my 
estimation, approximately 30 percent of the studies that are 
currently underway with helium-3 may be replaced with xenon-129 
but that technology is still under development and some grants 
from the NIH or from NSF or development of xenon-129 would 
facilitate the transition of some of those studies to xenon-
129.
    Chairman Miller. The Chair now recognizes Dr. Broun for 
five minutes.
    Mr. Broun. Thank you, Mr. Chairman.
    Mr. Anderson, in your testimony you state that, ``Federal 
research funding is essential to supplement private sector 
efforts to accelerate development of replacement 
technologies.'' Why is federal R&D essential when there is a 
clear and sizable market demand ready to pay for alternative 
technologies?
    Mr. Anderson. It is a fairly significant endeavor to 
research these products. The first one, the boron-10 solution 
we are working on today, has come at quite a significant cost 
to GE and there is a fairly large market there, but as you 
start looking at the neutron scattering applications, the oil 
and gas applications and the nuclear safeguards applications, 
the technology development there is going to be very, very 
significant. I don't even know at this point what that is going 
to involve, and then again to commercialize it into a product 
that can be fielded is going to be very significant. So without 
funding, you know, we will do what we can do but it would 
certainly help accelerate our development programs.
    Mr. Broun. But in the private sector, isn't this part of 
the cost of development? Why can't it be rolled into the cost 
of just doing business, just roll it into the cost of what you 
are doing?
    Mr. Anderson. Again, we have to look at the cost-benefit 
when we decide to engage in those programs, and for instance, 
the nuclear safeguards program, although it is incredibly 
important is still a relatively small program.
    Mr. Broun. All right, sir.
    Dr. Woods, in order to mitigate demand for helium-3, 
guidance was issued to no longer allocate helium-3 for purposes 
that would lead to further increases in helium-3 demand. As a 
physician, I certainly appreciate the research that you are 
doing and I treated a lot of patients with COPD and asthma and 
other things that you are trying to find some better 
diagnostics as well as treatment modalities. The use of helium-
3 for lung imaging was just beginning to take off. What would 
happen if helium-3 became so effective for medical purposes 
that demand increased?
    Dr. Woods. Clearly, if helium-3 were used as a routine 
diagnostic imaging tool in the clinic, then the total demand 
for helium-3 within the medical imaging community would 
increase. My opinion is that technology is more likely to be 
used in efficacy testing and in saving money for bringing drugs 
and devices to market and then in guiding interventions. And so 
my estimate, our community can probably survive on 
approximately 2,000 liters per year given that we would recycle 
100 percent of the helium that is inhaled.
    Mr. Broun. So you are saying that you don't foresee an 
increase in demand above that level, the 2,000 liters, at this 
point. Is that correct?
    Dr. Woods. At this point, I do not foresee that increase.
    Mr. Broun. Okay. So if you had that amount of supply, then 
through recycling efforts it could be reutilized or recycled 
and that you wouldn't need any further increase in the supply 
of helium-3 as far as what you know right now. Is that correct?
    Dr. Woods. Correct, assuming that we had the approximately 
2,000 liters per year.
    Mr. Broun. Okay. So if you were supplied that demand, we 
would need not be searching for alternatives but you don't have 
that demand. Is that correct?
    Dr. Woods. Correct.
    Mr. Broun. I mean, you don't have that demand met. So 
should we be seeking alternatives at this point?
    Dr. Woods. I think that we should be seeking alternatives 
in the same way that we are always seeking alternatives for 
diagnostic imaging. The main alternative, the only alternative 
is xenon-129 and I see it as an alternative in only 30, 40, 50 
percent of the studies that we can perform, and that is mainly 
ventilation.
    Mr. Broun. Okay. How about negative impacts of xenon?
    Dr. Woods. They exist. Xenon has an anesthetic effect and 
so you have to limit the dose. I don't think that that is going 
to be a significant impediment to breathing in xenon, and the 
fact that xenon absorbs in human tissue can be used to 
advantage in certain scenarios.
    Mr. Broun. All right, Mr. Chairman. My time is up and I 
will yield back. Thank you.
    Chairman Miller. Thank you, Dr. Broun.
    Mrs. Dahlkemper is recognized for five minutes.
    Mrs. Dahlkemper. Thank you, Mr. Chairman.
    Mr. Anderson, you testified that there is no drop-in 
replacement technology for helium-3 detectors. In what 
application do you think replacement is the easiest and which 
areas are most difficult?
    Mr. Anderson. Certainly the easiest is the radiation portal 
monitors, and that is because you have a lot of space. For 
measurement requirements are, you are just trying to detect 
whether neutrons are there. As far as the most difficult, that 
is going to be very difficult. It is going to come somewhere 
between, I believe, between oil and gas potentially or neutron 
scattering. Well, for oil and gas you have very high 
temperatures, very high shock conditions and you have to have a 
very good ability to detect the neutron signal. For neutron 
scattering, you have to be able to do timing, and you have to 
be able to do very precise location of where those neutrons 
scattered into the array so that you can get the scientific 
measurements that are needed.
    Mrs. Dahlkemper. I also wanted to ask you a little bit 
about the Russian supplies, and we were told yesterday that the 
Japanese neutron scattering facilities intend to obtain their 
future helium-3 needs from Russia. Is this a reliable long-term 
source in your opinion?
    Mr. Anderson. The information that I have is that there is 
somewhere on the order of 8,000 to 10,000 liters per year 
coming out of Russia. The information is very sketchy, though, 
because there is a certain amount of it that becomes available 
on the open market and that is kind of a historical perspective 
on what has been released. I don't know what will be released 
in the future. And the other thing I don't know, is how much of 
it is actually being used within the former Soviet Union 
countries at this point.
    Mrs. Dahlkemper. Mr. Arsenault, can helium-3 be recycled 
from the old tools?
    Mr. Arsenault. Yes. If the tube is intact, it can be sent 
back and they can harvest the helium-3. The life expectancy in 
the downhole conditions that we are running at, the life 
expectancy is about five years and they have to be replaced.
    Mrs. Dahlkemper. So they can be recycled but----
    Mr. Arsenault. They can be recycled but if you are 
increasing your tool build, you are going to have increased 
supply of those tubes.
    Mrs. Dahlkemper. I am from Pennsylvania. I am assuming this 
will be used in the Marcellus shale.
    Mr. Arsenault. Marcellus shale, yes, which is very active 
right now.
    Mrs. Dahlkemper. Right. Exactly.
    Dr. Halperin, I have a question for you. We have been 
informed by the White House sources that helium-3 for research 
purposes has been provided to Spectra Gas and is being purified 
for release in May. Has this been conveyed to you? Are you 
aware of this?
    Dr. Halperin. Yes. However, the schedule that has been 
established by Spectra Gas is that you sign up in a queue. That 
is a one-way street. That is to say, no information back. 
Occasionally there are releases. We know that from Spectra Gas, 
so there have been some deliveries. Leiden Cryogenics has 
received 100 liters or so. But the majority of those who are 
users, including other cryogenic instrumentation supplies, also 
including Leiden Cryogenics, do not have any word back as to 
whether the helium-3 gas will be provided even when they are in 
the queue. So this is--for a period of six months, this is a 
very difficult situation, particularly for junior faculty 
starting their research careers.
    Mrs. Dahlkemper. So you have no idea if you will be 
receiving a supply?
    Dr. Halperin. No idea. No information, no status.
    Mrs. Dahlkemper. Thank you, Mr. Chairman. I yield back.
    Chairman Miller. The Chair now recognizes Mr. Rohrabacher 
for five minutes.
    Mr. Rohrabacher. Thank you very much, and Mr. Chairman, let 
me begin by suggesting, Mr. Chairman, that you are to be 
complimented, as soon as he gets done getting it from Dr. 
Broun. Mr. Chairman, you are to be complimented for bringing 
this hearing today and bringing forth a great panel of 
witnesses and discussing an issue that may be obscure to a lot 
of people but obviously has tremendous implications, so thank 
you, Mr. Chairman, for putting this together today.
    About the oil and gas, how much do you use of this helium-
3? How much does the oil and gas industry use?
    Mr. Arsenault. I don't have an exact amount of how much is 
used. You know, a manufacturer would have to provide that. But, 
you know, every neutron logging tool has two detectors and you 
have got several small companies and four very large companies 
that provide this service around the world, not only in the 
United States, so it is a very large fleet of tools that are 
being used. You know, manufacturing would have to provide the 
number of tubes that are being sold and what volume of gas is 
filled into each tube but I believe it is about less than a 
liter per tube, if I remember right.
    Mr. Rohrabacher. Now, you say a liter per tube. Are we 
saying per time you drill?
    Mr. Arsenault. Well, no. Each detector is approximately a 
liter of helium-3 per tube, as I recall. Each tool would have 
two detectors, and typically when you go out to a well you will 
have two tool strings you can bring to a well. So, you get two 
tools, which means you have got four detectors per job on these 
tools.
    Mr. Rohrabacher. So you are using at least four liters per 
job?
    Mr. Arsenault. Yeah, and the average life expectancy, we 
are running at 300-plus degrees, harsh downhole conditions, a 
lot of shock and vibration, so the best life you are typically 
getting out of them is about five years and they have to be 
swapped out.
    Mr. Rohrabacher. Okay. So we are talking about nationally 
and internationally?
    Mr. Arsenault. Yeah, it is nationally and internationally.
    Mr. Rohrabacher. It is a very significant product to the 
production of energy.
    Mr. Arsenault. Yes.
    Mr. Rohrabacher. And shale oil in particular. Is that what 
you are involved in?
    Mr. Arsenault. Well, Marcellus shale is very active right 
now in drilling. There is a lot of drilling going up there. 
There is a lot of shale places throughout the United States 
that are very active right now. If they open up the Atlantic 
continental shelf, Eastern gulf, you will see a very----
    Mr. Rohrabacher. Okay. So we are talking about more and 
more. Now, already we have noted that Dr. Halperin said that he 
was buying it at $2,000 a liter. Now, I would like to go back 
to my questions from the last panel. I think the--Mr. Chairman, 
I think the cost factor that we have been given is dramatically 
lower than the reality of what it costs to produce this 
material and the value of the material. The fact is that the 
$1,000 a liter may be based on what it costs right now, meaning 
if they were trying to say how much does it cost to take 
natural gas out of a landfill and all they did was calculate 
the cost of putting the tubes down and the natural gas that is 
coming up, well, that doesn't take into account the cost of 
filling the landfill, all the trucks necessary to produce the 
landfill, all the digging produced that made the landfill in 
itself. What we are talking about is something which is a lot 
more expensive if we are just taking a look at the cost of 
actually producing this, than $1,000 a liter, I would suggest, 
and especially as the demand goes up, and Dr. Woods is 
suggesting to us that the demand, if we are going to save money 
and we are going to do a job that is necessary to make our 
health care--you cited one study where the cost went from $500 
million to $50 million--that we have got a huge market for this 
product and yet we are going through a shortage.
    Now, I would suggest, and I know that everybody would like 
to not make light of this but I have read, many people in the 
field of space transportation suggest that we may have a market 
here, if you are talking about not $1,000 a liter but $3,000 or 
$4,000 a liter or even less than a liter what we are talking 
about, this may well provide the incentive for the type of 
private sector effort on the moon that would be necessary. Now, 
I am saying that we can do that for today. In the meantime, we 
have heard a lot of good evidence today and testimony about 
recycling and other alternatives, and some of the things that--
other suggestions that have been right on target, but I don't 
think we should leave out the potential that space-based assets 
can be brought to use here on our planet for the very things 
that we have heard about through testimony today.
    And I know Dr. Halperin is doing wonderful work for the 
benefit of humankind, as is Dr. Woods, and I think that 
providing energy is certainly an important element to 
prosperity and a good life for our people and we have private 
sector companies trying to do that job, so thank you very much 
again, Mr. Chairman. You have given us a very good perspective 
on this issue.
    Chairman Miller. Thank you, Mr. Rohrabacher, for only 
exceeding your time by 25 seconds, a new record for Mr. 
Rohrabacher.
    I think the IAEA might have something to say about it if we 
allowed commercial manufacturing of tritium, but certainly the 
need is very much there.
    We don't really have time for a second round, but without 
objection, I do have a couple of questions without having an 
entire second round of questions.
    Mr. Anderson, you said you are recycling helium-3. Can you 
tell us how much you have been able to recycle and do you have 
a source of recycled helium-3, and if so, from whom are you 
getting it and how much are you getting of recycled helium-3?
    Mr. Anderson. Yes, Mr. Chairman, we do recycle helium-3 and 
it comes from a number of different places. In some cases it 
would be a customer that may have some detectors that they are 
not using that they would send in. We would recover the gas and 
build a new detector for them to the design that they need. 
Other than that, there are a lot of detectors that are in 
inactive systems out at the national laboratories and several 
different places, and we bring those in and recover the gas 
from those detectors. Also, some of the oil and gas companies 
have started sending in detectors to recover the gas, and we 
have recovered well over 1,000 liters at this point. It is a 
fairly significant amount of gas that is out there that is not 
being used.
    Chairman Miller. And you spoke also of identifying 
substitutes. Do you have any idea at all where we can--what we 
can substitute, when those substitutes will be available in a 
sufficient quantity to make a difference?
    Mr. Anderson. Well, for homeland security in the portal 
area, I think that a substitute will come fairly quickly, which 
is very important because it is the largest consumer and it is 
a very, very important application to protect our borders. 
Second, possibly some of the smaller homeland security 
instruments, because again, you are just doing basic counting, 
will probably be relatively straightforward. I think it is 
going to become more difficult, much more difficult when we 
start getting into oil and gas, neutron scattering and nuclear 
safeguards-type instruments because those are performing very 
specific functions.
    Chairman Miller. Thank you. Before we bring this hearing to 
a close, I want to thank all of our witnesses, this panel and 
the previous panel who I have already thanked. The record will 
remain open as it usually does for two weeks for Members to 
submit any additional statements and also remain open for 
answers to any follow-up questions from the Subcommittee to any 
of the witnesses, and somewhat unusually in consultation with 
Dr. Broun, we are leaving the record open until the end of days 
for the production of documents from the agencies that we have 
requested. We will pursue that and assure that we receive the 
documents to which Congress is entitled based upon a long 
history on the topic.
    So I thank you all for appearing, and the hearing is now 
adjourned.
    [Whereupon, at 11:47 a.m., the Subcommittee was adjourned.]


                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   Answers to Post-Hearing Questions
Responses by Dr. William Hagan, Acting Director, Domestic Nuclear 
        Detection Office, Department of Homeland Security

Questions submitted by Representative Paul C. Broun

Q1.  After He-3 alternatives are developed for neutron detection, do 
you believe further testing will need to be done at the Nevada Test 
Site (NTS) to verify the system? What are the cost and schedule impacts 
of returning to NTS?

A1. No alternative technology will be used for Advanced Spectroscopic 
Portal (ASP), ASP deployments, when and if certified, will reuse the 
He-3 gas currently deployed in the poly-vinyl toluene (PVT) systems 
they would replace or from PVT units that are upgraded to use the 
alternative technology. This will require a reduction of the number of 
He-3 tubes used in ASP and a corresponding adjustment of configuration 
parameters, which means that testing of the neutron counting 
performance will be required, but not at NTS. This change will utilize 
all of the existing ASP electronics and software meaning that there 
will be only a slight impact to the schedule and cost. Moreover, since 
the ASP program is only seeking to deploy units in secondary 
inspection, the number of ASP units required is significantly reduced.
    Alternative neutron technology used for other system, e.g. PVT 
based systems operated by the U.S. Customs and Border Protection (CBP), 
can be tested using surrogate sources at a variety of sites and do not 
require testing at NTS for this purpose.

Q2.  In your testimony you reassuringly state that ``before any 
alternative is commercialized, we will check availability of the key 
components to avoid another shortage issue.'' Will this effort be an 
interagency review, or simply a DNDO exercise? Will this review be done 
early in the development process, or simply prior to any procurement? 
Will this review be based on current requirements, or projected needs?

A2. DNDO will continue to work through the interagency group in 
examining alternative neutron detector technologies such as 6Lithium or 
10Boron. Boron is widely known to be available in bulk but Lithium 
comes from the nuclear weapons programs just like He-3. Through the 
interagency group, DNDO has already requested and received assurances 
that 8,000 Kg of 6Lithium has been set aside for any future 6Lithim 
based neutron detector research or deployment. The allotment of 8,000 
Kg of 6Lithium is anticipated to meet DHS needs for over 40 years 
because only a few grams of 6Lithium is required per detector.

Q3.  When was the decision made to stop all He-3 allocations for portal 
monitors? Did DOE allocate 8,500 liters of He-3 in June of 2009 for the 
ASP program in order to keep it on schedule? Was this allocation 
rescinded? If so, was any of the allocation used prior to the 
rescission?

A3. The decision to no longer allocate He-3 to portal monitors was made 
by the interagency group on September 10, 2009. Although DHS/DNDO 
requested 8,500 liters of He-3 from the DOE Isotope Program on January 
29, 2009 to address the needs of several DHS projects, including ASP, 
and subsequently procured the gas in June 2009, DNDO had made it clear 
from the start that all He-3 gas, including the 8,500 liters, ought to 
be available for use by the most critical programs across the USG, 
commercial industry, and other users. DNDO also understood that the 
relative criticality of programs must be determined by an interagency 
body. Accordingly, DNDO ceded the allocation of the 8,500 liters to the 
interagency group.

Q4.  In your testimony you indicate that DNDO stopped all allocations 
of He-3 for Radiation Portal Monitors (RPMs) in September 2009 but that 
you will continue to provide He-3 for Radioisotope Identification 
Devices (RIIDs) until alternatives are available.

        -  Is the timeframe for RIID replacement technology truly open-
        ended?

                -  If not, how long do you plan to provide He-3 for 
                RIIDs?

                -  If so, what incentives are there for companies and 
                agencies to seek alternatives?

        -  How much money do you plan on devoting to R&D for He-3 
        alternatives for RIIDs?

        -  Will you require that alternative technologies meet or 
        exceed the performance of He-3?

A4. Because handheld systems use very small He-3 tubes that contain 
small amounts of the gas, most vendors buy these tubes in large 
quantities to get a better price. Consequently, the commercial handheld 
vendors that DHS typically orders from had purchased sufficient 
quantities of He-3 tubes before the He-3 shortage was known, and have 
enough He-3 tubes to last a few more years based upon current 
procurement histories. Therefore, some backpack and new handheld (e.g., 
HPRDS) acquisitions will still need He-3 allocations, but DNDO 
estimates that it can support its handheld and backpack requirements 
with a few hundred liters of He-3 per year as allocated though the 
interagency process for the next 3-5 years.
    Notwithstanding, the first priority is to find an alternative 
technology for portal monitor systems because no new He3 gas will be 
made available for this use. In order to perform market research on 
what is potentially available and to alert the commercial sector to the 
need for alternative neutron detection technologies, DNDO released a 
Request for Information (RFI) in July 2009, to identify alternative 
neutron detection technologies for portals, backpacks, and handheld 
radiation detectors.
    DNDO has recently awarded several contracts to investigate 
technologies that could be used in handheld and backpack type 
applications. At this time there are a few promising technologies 
emerging from the research laboratories, which are well suited to 
backpack and handheld systems. For example, CLYC is a crystal 
scintillator material that detects both gammas rays and neutrons 
simultaneously. This material could be used as a single detector in a 
handheld application or grouped together for a backpack application. We 
anticipate that a minimum of 2-3 years will be needed to transition 
suitable technology into deployable devices.
    Some of these new technologies may have neutron detection 
capabilities that meet or even exceed the abilities of current He-3-
based detectors.

Q5.  Since 2008, Russia no longer exports He-3 internationally, but do 
other former Soviet states such as Kazakhstan, Belarus, or Georgia have 
He-3? Does China?

A5. To date, helium-3 has been made available as a byproduct of tritium 
decay. Only nuclear weapons States or States that use heavy water 
reactors would have tritium. The U.S. Government intends to work with 
the IAEA to contact countries with installed heavy water reactors, such 
as Romania, South Korea, China and Argentina to identify other 
potential suppliers of helium-3. However, we note that some countries, 
including Argentina, do not currently detritiate their heavy water. 
Even for countries that do capture/store the tritium, once the 
detritiation process is begun, it takes several years before the 
tritium decays into an appreciable amount of helium-3. China's two 
heavy water reactors were brought on-line in late 2003 and early 2004 
and do not yet have significant amounts of helium-3.

Q6.  What are the roadblocks to accessing He-3 sources in other nations 
such as Argentina, India, and France?

A6. To obtain helium-3, it is necessary first to detritiate (or remove 
the tritium from) the heavy water. Some countries, including Argentina, 
do not currently detritiate their heavy water. Some countries, such as 
France, that store tritium may allow helium-3 to vent. Even for 
countries that do capture/store the tritium, once the detritiation 
process is begun, it takes several years before the tritium decays into 
an appreciable amount of helium-3. The U.S. Government is working with 
the IAEA to identify those countries that currently undertake all the 
necessary steps for tritium production and capture, and to work with 
them on how their tritiated water is handled. If needed, the United 
States will consider requests for assistance in the helium-3 extraction 
process by either licensing our helium-3 extraction technology or 
transporting helium3/tritium mixtures to the United States for 
extraction and use.

Q7.  Dr. Hagan stated in his testimony DNDO first became aware of a 
potential problem with He-3 supply through an email from a neutron 
detector tube manufacturer in the summer of 2008, but that it was 
unclear whether the problem was a result of delays in the supply chain 
or an actual shortage of He-3. He also stated that DOE has 
traditionally been responsible for managing and allocating the supply 
of He-3, and that they issued a report verifying the seriousness of the 
overall supply shortfall in the fall of 2008.

        -  What level of coordination and communication existed between 
        DNDO and DOE regarding the supply of He-3 prior to the 
        discovery of its shortfall?

        -  For an issue as important as the detection of nuclear 
        material at our borders and ports, why was there seemingly 
        insufficient coordination related to the supply of a crucial 
        component of this capability?

        -  What lessons can be learned going forward and what steps are 
        being taken to ensure this does not happen again?

A7. In February 2006, DHS/DNDO confirmed with the DOE Isotope Program 
there was a sufficient supply of He-3 over the following five year 
period for the ASP program to procure a total of 1500 portals (about 
240,000 liters of He-3). Through discussions with DOE, DNDO learned 
that He-3 was also supplied to the market by the Russians. Moreover, it 
was widely understood from the ASP vendors that He-3 was widely 
available on the open market (i.e., none of the ASP proposals indicated 
any concern over the ability to obtain He-3 tubes in sufficient 
number). Indeed, there was no indication of any He-3 supply issues 
until more than 2 years later, June 2008, when a vendor emailed DNDO 
indicating that there was a low stock of He-3. In August 2008, DOE held 
an isotope workshop to address many different isotope issues, including 
He-3. However, the workshop did not include supply information and 
because much of the information pertaining to the supply of He-3 was 
previously classified due to its connection to the tritium stockpile, 
information about the supply of He-3 was not openly and commonly 
discussed. It was not until a meeting between DOE and DHS on Jan 16, 
2009, that it became clear that there was a real shortage in the USG 
supply of He-3.
    From that point on DHS/DNDO worked closely with the interagency 
group to address the issue, and will continue to do so.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   Answers to Post-Hearing Questions
Responses by Dr. William Brinkman, Director of the Office of Science, 
        Department of Energy

Questions submitted by Representative Paul C. Broun

The Future of the Second Line of Defense

Q1.  In your testimony you state that past FY2011 the SLD program could 
be impacted by the He-3 shortage, and that alternatives will not be 
ready for 2 to 3 more years. What does DOE plan to do to fill this gap? 
Do Russian contractors supply the SLD program as well? If so, would it 
be possible to use Russian He-3 for these monitors?

A1. The Second Line of Defense (SLD) program has enough gas for its 
planned deployments through FY 2011; after that, the program is 
optimistic that alternative neutron detection technologies will be 
available for deployment in portal monitors. Both the public and 
private sectors are making significant investments in this new 
technology; SLD is carefully watching these developments and plans to 
test the most promising of these technologies in the field as soon as 
they become available. SLD uses Russian-manufactured monitors for some 
of its deployments, particularly in former Soviet Union countries, and 
these monitors use Russian gas. If the Russians make helium-3 available 
on the open market, it can also be used in U.S.-manufactured neutron 
detection tubes. The U.S. Government has formally requested that Russia 
provide, at reasonable cost, helium-3 in support of worldwide 
safeguards use. DOE has also requested that the IAEA contact Russia in 
this regard.

June ASP Allocation

Q1a.  When was the decision made to stop all He-3 allocations for 
portal monitors?

A1a. The predominant use of helium-3 has been in portal monitors; in 
fact, approximately 25 percent of the total helium-3 demand is for 
large portal monitors used to scan vehicles and pedestrians. Since 
alternatives for these types of monitors have been used successfully in 
the past, in spring 2009, the Interagency Working Group (IWG) agreed to 
accelerate the effort to evaluate neutron detectors that do not rely on 
helium-3. Based on early studies within NNSA and the IWG's Technology 
Working Group, viable alternatives could become commercially available 
within 1-2 years. In September 2009, the Executive Office-led 
Interagency Policy Committee (IPC) approved the IWG recommendation that 
further allocation of helium-3 for portal monitors be deferred.

Q1b.  Did DOE allocate 8,500 liters of He-3 in June of 2009 for the ASP 
program in order to keep it on schedule?

A1b. DOE provided and sold 8,763 liters of unprocessed helium-3 in to 
DHS March of 2009, primarily for the Advanced Spectroscopic Portals 
(ASP) program. The material was shipped to Spectra Gases (now Linde) 
for purification. DHS paid for the gas and any associated costs, and 
provided approval for any shipment from Spectra Gases. Concurrently, 
the IWG began reviewing how best to use remaining stores of helium-3. 
DHS and the IWG agreed on the need for a process to ensure that the 
most critical programs were allocated helium-3, including these 8,763 
liters. Once the IPC was set up and the allocation process became 
operational, DHS transferred control of the 8,763 liters to the IPC in 
late June 2009.

Q1c.  Was this allocation rescinded? If so, was any of the allocation 
used prior to the rescission?

A1c. DHS voluntarily submitted the 8,763 liters to the IPC for 
allocation decisions. None of the gas was used for the ASP program, or 
for any other DHS program, except through allocations via the IPC. 
Those agencies that were allocated the gas reimbursed DHS for the 
amount received.

Alternative Sources of He-3

Q1.  In your testimony you state that a Dept. of Interior study from 
1990 looked into the feasibility of acquiring He-3 from natural gas and 
found wide variations in the amount of He-3 at various drilling sites. 
Has any effort been made to further study this option? If yes, what 
were the conclusions? If no, why not?

A1. The Bureau of Land Management plans to conduct further sampling and 
analysis of the gas to better understand the helium-3 to helium-4 
ratios. Specialized mass spectrometer instrumentation capable of 
differentiating helium-3 from helium-4 has been identified. Sampling is 
scheduled to be performed in May 2010, with analytical results expected 
by early summer.

Q2.  Since 2008, Russia no longer exports He-3 internationally, but do 
other harmer Soviet states such as Kazakhstan, Belarus, or Georgia have 
He-3? Does China?

A2. To date, helium-3 has been made available as a byproduct of tritium 
decay. Only nuclear weapons States or States that use heavy water 
reactors would have tritium. The U.S. Government intends to work with 
the IAEA to contact countries with installed heavy water reactors, such 
as Romania, South Korea, China, and Argentina to identity other 
potential suppliers of helium-3. However, we note that some countries, 
including Argentina, do not currently detritiate their heavy water. 
Even for countries that do capture/store the tritium, once the 
detritiation process is begun, it takes several years before the 
tritium decays into an appreciable amount of helium-3. China's two 
heavy water reactors were brought on-line in late 2003 and early 2004 
and do not yet have significant amounts of helium-3.

Q3.  What me the roadblocks to accessing He-3 sources in other nations 
such as Argentina, India, and France?

A3. To obtain helium-3, it is necessary first to detritiate (or remove 
the tritium from) the heavy water. Some countries, including Argentina, 
do not currently detritiate their heavy water. Some countries, such as 
France, that store tritium may allow helium-3 to vent. Even for 
countries that do capture/store the tritium, once the detritiation 
process is begun, it takes several years before the tritium decays into 
an appreciable amount or helium-3. The U.S. Government is working with 
the IAEA to identify those countries that currently undertake all the 
necessary steps for tritium production and capture, and to work with 
them on how their tritiated water is handled. If needed, the United 
States will consider requests for assistance in the helium-3 extraction 
process by either licensing our helium-3 extraction technology or 
transporting helium/tritium mixtures to the United States for 
extraction and use.

Coordination

Q1.  Dr. Hagen stated in his testimony DNDO first became aware of a 
potential problem with HE-3 supply through an email from a neutron 
detector tube manufacturer in the summer of 2008, but that it was 
unclear whether the problem was a result of delays in the supply chain 
or an actual shortage of He-3. He also stated that DOE has 
traditionally been responsible for managing and allocating the supply 
of He-3, and that they issued a report verifying the seriousness of the 
overall supply shortfall in the fall of 2008.

        a.  What level of coordination and communication existed 
        between DNDO and DOE regarding the supply of He-3 prior to the 
        discovery of its shortfall?

A1a. During FY 2006, the DHS Domestic Nuclear Defense Office (DNDO) and 
DOE had meetings and discussions on DNDO's needs for helium-3 through 
FY 2011. DOE previously sold over 95,000 liters to DNDO's tube 
manufacturers, and coupled with the Russian supply at that time, DOE 
projected that there was sufficient material to cover DNDO's short- to 
mid-term needs.
    In August 2008, in anticipation of the transfer of the Isotope 
Program from the Office of Nuclear Energy to the Office of Science's 
Nuclear Physics (NP) program, NP organized a workshop among academic, 
national laboratory, industrial, and federal isotope stakeholders to 
identify shortages of isotopes important to the Nation. DNDO 
representatives were invited and participated in this workshop, which 
identified the seriousness of the helium-3 shortage.

        b.  For an issue as important as the detection of nuclear 
        materials at our borders and ports; why was there seemingly 
        insufficient coordination related to the supply of a crucial 
        component of this capability?

A1b. Several factors limited awareness of the full extent of the 
shortfall: NNSA owned and allocated helium-3, a waste byproduct of 
their weapons program, while DOE's Isotope Program was responsible for 
vendor distribution of any helium-3 NNSA allocated to the Program; the 
quantity of available helium-3 was not widely known for security/
classification reasons; the Isotope Program had limited contact with 
helium-3 customers who instead interacted directly with the vendors; 
and the Russian supply was variable and then declined abruptly. These 
various factors made it difficult to assess projected demand and supply 
for helium-3. All allocations are now being made through interagency 
coordination.

        c.  What lessons can be learned going forward and what steps 
        are being taken to ensure this does not happen again?

A1c. All agencies involved in the helium-3 problem have learned the 
importance of interagency cooperation and coordination. The Interagency 
Working Group effort on helium-3 has been very effective and is 
expected to continue.
    Helium-3 is but one example of an important isotope where demand 
exceeds supply; there are others. Since 2009, the Nuclear Physics (NP) 
program has taken a number of steps to ensure effective planning and 
interagency coordination. After organizing a national workshop on 
isotope shortages, NP charged its federal advisory committee, the 
Nuclear Science Advisory Committee, to develop a long range plan for 
isotope production and to set priorities for research isotopes in 
demand. NP also reached out to Federal agencies to identify their long-
term isotope needs and has established interagency working groups, such 
as the DOE/NIH working group. While these efforts are focused on 
isotopes in short supply that are or could be produced by the Isotope 
Program, they also include discussion and forecast for those isotopes 
which the Isotope Program distributes as a service.

Oil and Gas Alternatives

Q1.  All He-3 user communities seem to be represented by a government 
agency except for the oil and gas industry. Who is responsible for 
assuring that their needs are represented when allocations are 
determined?

A1. Representation of oil and gas industry needs in the He-3 allocation 
process is a DOE responsibility.

Q2.  Are there any programs or projects within DOE exploring He-3 
alternatives for oil and gas exploration? If so, please breakdown 
funding by year and office. If not, why not?

A2. There are currently no programs within DOE supporting helium-3 
alternatives for oil and gas exploration. The needs of the oil and gas 
industry are modest, and the majority of that demand is being met from 
the existing supply. This community is only beginning to consider 
alternatives, such as boron trifluoride and lithium-6.

Q3.  Are there any other isotopes that are necessary (and limited) for 
oil and gas exploration?

A3. Americium-241, like helium-3, is another byproduct material, and is 
used for oil and natural gas well-logging purposes. The americium-241 
domestic supply has been exhausted, and industry is currently importing 
americium from Russia. Americium-241 is also used in smoke detectors, 
moisture gauges in agriculture, and quality-control gauges in 
construction and manufacturing. Legitimate commercial uses of 
americium-241 are authorized by law, and subject to public safety and 
security restrictions established by NRC and Agreement State 
regulations. DOE is working toward the re-establishment of a domestic 
supply of americium-241. Californium-252 is also a widely used isotope 
in oil and gas exploration. This isotope is produced only in the United 
States and Russia. In 2009, the domestic production ofcalifornium-252 
was in jeopardy, but the Isotope Program worked with industry to ensure 
a long-term supply.

Scientific Alternatives

Q1.  What alternatives exist for He-3 in neutron scattering?

A1. The major use of helium-3 within the Office of Science is for the 
Spallation Neutron Source (SNS). At present, there is no alternative 
technique which could replace helium-3 filled detectors and still 
provide all the capabilities of helium-3 without a loss in performance. 
This is particularly true for large area detector systems consisting of 
arrays of single counters. The SNS community has taken the lead within 
the global neutron scattering research community to establish 
international working groups to search for alternatives to helium-3, as 
well as alternative detector technology. Some of the alternatives being 
considered include boron trifluoride-filled neutron detectors, boron-10 
lined proportional counters, gaseous detectors with solid lithium-6 or 
boron-10 converters, and various scintillation detectors. The research 
and development efforts for a new detector technology will take 
approximately five years to complete. We anticipate meeting this 
community's need until that time.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   Answers to Post-Hearing Questions
Responses by Mr. Tom Anderson, Product Manager, Reuter-Stokes Radiation 
        Measurement Solutions, GE Energy

Questions submitted by Representative Paul C. Broun

Q1.  Both you and Mr. Arsenault point out in your testimony that unless 
He-3 alternatives are found for the oil and gas industry, the 
exploration for future fields, the development of existing, and logging 
of new and existing wells will be severely curtailed. What efforts are 
underway to develop alternative technologies for this sector?

A1. Several technologies are available for neutron detection. Each has 
its favored scientific and industrial applications based on a variety 
of performance, physical and mechanical characteristics, and 
requirements. In the oil and gas industry, the neutron detector must be 
able to accurately measure neutron levels for hundreds or thousands of 
hours under high-temperature and high-shock operating conditions. For 
these reasons, the industry long ago recognized the advantages of 
Helium-3 tubes and to a lesser extent, Lithium-6 glass detectors. Both 
provide adequate neutron sensitivity to allow for packaging and 
installation within the limited space inside the drill string.
    The annual consumption of Helium-3 for detectors used in oil and 
gas applications routinely exceeds 2,500 liters. This represents a 
major portion of the available supply. In response to the Helium-3 
shortage, GE has resumed production of Lithium-6 glass neutron 
detectors. However, only a limited number of drilling and logging 
companies currently have tool strings designed to work with Lithium-6 
detectors. Perhaps the biggest drawback to broader deployment of the 
Lithium-6 detector is the fact that its performance deteriorates 
significantly at the elevated temperatures experienced in many of 
today's drilling and logging operations. GE is exploring ways to 
improve the performance of Lithium-6 detectors at high temperatures, 
but the technical hurdles are significant and feasibility is still 
unknown.
    GE is also reviewing a variety of other alternative technologies 
but none of those alternatives presents a drop-in replacement 
technology for oil and gas drilling applications. Considerable research 
will be required to identify a feasible alternate technology and 
develop a new sensor for oil exploration.
    Although a key component of a drill string, the neutron detector 
accounts for only a small percentage of the overall cost of the system. 
With the decrease in oil prices over the past several months, the 
Helium-3 shortage has not yet had a significant impact on the oil 
industry. These factors, coupled with the urgent need to develop a 
replacement technology for homeland security applications, where the 
impact of the Helium-3 shortage has been felt more acutely, has led to 
a situation where only limited action has been taken to develop an 
alternate technology for oil drilling and logging.
    Any new detector technology will take years to develop, test, and 
prepare for manufacturing. Furthermore, the oil industry will have to 
redesign its drilling and logging systems to retrofit any new detector 
technology, and the operators will have to characterize and interpret 
the data from the new detectors. We estimate that the time required to 
deploy a new detector technology industry-wide may exceed ten years. 
Federal funding is essential to facilitate parallel research efforts to 
accelerate technology and product development for oil and gas 
applications.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   Answers to Post-Hearing Questions
Responses by Mr. Richard Arsenault, Director, Health, Safety, Security 
        and Environment, ThruBit LLC

Questions submitted by Representative Paul C. Broun

Q1.  Both you and Mr. Anderson point out in your testimony that unless 
He-3 alternatives are found for the oil and gas industry, the 
exploration for future fields, the development of existing fields, and 
logging of new and existing wells will be severely curtailed. What 
efforts are underway to develop alternative technologies for this 
sector?

A1. At the present time there are no publically disclosed or presently 
commercially available alternative technologies being developed by well 
logging companies. Most small to larger medium size companies have to 
continue their operations by using existing off the shelf detector 
technology to incorporate in their neutron tool designs. While there 
may be some existing well logging companies developing alternative 
detector methods, those would be trade secret and proprietary 
information not commercially available or publically disclosed. The 
vast majority of companies that are being impacted by this shortage do 
not have the funding for this type of research and development at their 
disposal and would depend totally on a commercially available product. 
Even in testimony from Mr. Anderson at Reuter Stokes, this is going to 
require government funding for additional research and development, 
which is not available at this time.

Q2.  All He-3 user communities seem to be represented by a government 
agency except for the oil and gas industry. Who is responsible for 
assuring that their needs are represented when allocations are 
determined?

A2. The Association of Energy Services Companies needs be the focal 
point representing the companies who are using He-3 detectors for 
neutron logging. They represent numerous well logging companies that 
operate in the United States.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   Answers to Post-Hearing Questions
Responses by Dr. William Halperin, John Evans Professor of Physics, 
        Northwestern University

Questions submitted by Representative Paul C. Broun

Scientific Alternatives

Q1.  What alternatives exist for He-3 in neutron scattering?

A1. There is no immediate substitute that can meet all the technical 
specifications of He3 detectors for neutron scattering science. 
However, a collaboration agreement has been reached between all major 
neutron facilities, worldwide, to develop alternatives. Although these 
alternatives are not immediately deployable, it is hoped that this 
collaborative development effort will lead to realistic alternatives in 
3-5 years. (This is a paraphrased response to this question from Ian S. 
Anderson, Associate Laboratory Director for Neutron Sciences, Oak Ridge 
National Laboratory, Oak Ridge Tennessee)

                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


            Correction to Statement by Dr. William Brinkman
    On page 37, the witness requested that ``That is roughly right'' be 
changed to ``About 20,000 liters is the mitigated domestic demand.''

            Correction to Statement by Mr. Richard Arsenault
    Mr. Arsenault clarified his testimony on page 80 by saying: ``Each 
neutron tool will have a far and near He-3 detector. The volume of He-3 
in each tube will be dependent on the model of tube, which are of 
different sizes and volumes.''
      A Staff Report by the Majority Staff of the Subcommittee on 
  Investigations and Oversight of the House Committee on Science and 
            Technology to Subcommittee Chairman Brad Miller

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Documents for the Record Obtained by the Investigations and Oversight 
       Subcommittee Prior to the April 22, 2010, Helium-3 Hearing

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Documents for the Record Obtained by the Investigations and Oversight 
        Subcommittee After the April 22, 2010, Helium-3 Hearing

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                   

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
